<html>
<title> - THE VALUE OF EDUCATION FOR VETERANS AT PUBLIC, PRIVATE AND FOR-PROFIT COLLEGES AND UNIVERSITIES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]










 THE VALUE OF EDUCATION FOR VETERANS AT PUBLIC, PRIVATE AND FOR-PROFIT 
                       COLLEGES AND UNIVERSITIES

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON ECONOMIC OPPORTUNITY (EO)

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        THURSDAY, JUNE 20, 2013

                               __________

                           Serial No. 113-24

                               __________

       Printed for the use of the Committee on Veterans' Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                  U.S. GOVERNMENT PRINTING OFFICE

82-240                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001

























                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida            Minority Member
DAVID P. ROE, Tennessee              CORRINE BROWN, Florida
BILL FLORES, Texas                   MARK TAKANO, California
JEFF DENHAM, California              JULIA BROWNLEY, California
JON RUNYAN, New Jersey               DINA TITUS, Nevada
DAN BENISHEK, Michigan               ANN KIRKPATRICK, Arizona
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MARK E. AMODEI, Nevada               GLORIA NEGRETE MCLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

               SUBCOMMITTEE ON ECONOMIC OPPORTUNITY (EO)

                      BILL FLORES, Texas, Chairman

JON RUNYAN, New Jersey               MARK TAKANO, California, Ranking 
MIKE COFFMAN, Colorado               Minority Member
PAUL COOK, California                JULIA BROWNLEY, California
BRAD R. WENSTRUP, Ohio               DINA TITUS, Nevada
                                     ANN M. KIRKPATRICK, Arizona

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.















                            C O N T E N T S

                               __________

                             June 20, 2013

                                                                   Page

The Value Of Education For Veterans At Public, Private And For-
  Profit Colleges And Universities...............................     1

                           OPENING STATEMENTS

Hon. Bill Flores, Chairman, Subcommittee on Economic Opportunity 
  (EO)...........................................................     1
    Prepared Statement of Hon. Flores............................    25
Hon. Mark Takano, Ranking Minority Member, Subcommittee on 
  Economic Opportunity (EO)......................................     5
    Prepared Statement of Hon. Takano............................    26

                               WITNESSES

Dr. Cynthia Azari, Ed.D., President, Riverside City College......     3
    Prepared Statement of Dr. Azari..............................    26
    Executive Summary of Dr. Azari...............................    29
Dr. Michael R. Smith, J.D., Ph.D., Vice Provost for Strategic 
  Academic Initiatives, University of Texas at El Paso...........     6
    Prepared Statement of Dr. Smith..............................    29
    Executive Summary of Dr. Smith...............................    32
Michael Dakduk, Executive Director, Student Veterans America 
  (SVA)..........................................................     8
    Prepared Statement of Mr. Dakduk.............................    33
    Executive Summary of Mr. Dakduk..............................    37
Hon. Steve Gunderson, President and CEO, The Association of 
  Private Sector Colleges and Universities (APSCU)...............    16
    Prepared Statement of Mr. Gunderson..........................    38
    Summary of Mr. Gunderson.....................................    43
Dr. Daniel J. Carey, Ph.D., President, Edgewood College, On 
  Behalf of: National Association of Independent Colleges and 
  Universities...................................................    17
    Prepared Statement of Dr. Carey..............................    51
    Executive Summary of Dr. Carey...............................    57
David Baime, Senior Vice President for Government Relations and 
  Policy Analysis, American Association of Community Colleges....    19
    Prepared Statement of Mr. Baime..............................    57
    Executive Summary of Mr. Baime...............................    60
MG Robert M. Worley, II, USAF (Ret.), Director, Education 
  Service, Veterans Benefit Administration, U.S. Department of 
  Veterans Affairs, Prepared Statement 0nly......................    61

                        STATEMENT FOR THE RECORD

The College Board................................................    64
The Reserve Officers Association.................................    71
The National Association of Veterans Program Administrators......    76
The Wounded Warrior Project......................................    76

 
 THE VALUE OF EDUCATION FOR VETERANS AT PUBLIC, PRIVATE AND FOR-PROFIT 
                       COLLEGES AND UNIVERSITIES

                        Thursday, June 20, 2013

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 11:30 a.m., in 
Room 334, Cannon House Office Building, Hon. Bill Flores 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Flores, Takano, and Kirkpatrick.

           OPENING STATEMENT OF CHAIRMAN BILL FLORES

    Mr. Flores. Good morning, and welcome to our oversight 
hearing on, ``The Value of Education for Veterans in Public, 
Private and For-Profit Colleges and Universities.''
    We got a little bit of a disrupted schedule this morning. I 
apologize. As you know, we had votes that started about 9:40 
this morning. We just wrapped up a few minutes ago. Some people 
are still making their way over from the floor to the hearing 
room. I want to take a point of personal privilege for a moment 
and introduce my wife Gina.
    Gina, would you stand up.
    She and I were going to celebrate our 35th anniversary on 
Monday, and she was either going to have spend it apart or with 
me, so she came up here with me.
    Whenever Ranking Member Takano arrives, we will give him a 
chance to make his comments, but in the interest of everybody's 
time and patience, we are going to go ahead and move forward. 
Also, we are going to have another round of votes called about 
12:20. My suspicion is we won't have many people coming back 
after that, but we will do our best. So let me begin.
    There are many ways to define the word ``value.'' Merriam-
Webster's dictionary offers several ways, including, one, a 
fair return or equivalent value in goods, services; two, money 
for something exchanged; three, the monetary worth of 
something; or four, the relative worth, utility, or importance. 
All of those seem to fit the hearings that we are going to have 
today, but to me, the relative worth, utility and importance 
concept seems to best fit today's topic. That is because the 
benefits we offer through the GI Bill expand career 
opportunities relative to what is available without that 
education or training.
    In classic economic theory, the marginal utility of a good 
or service, in this case, education, is the gain or loss from 
an increase, or decrease, in the consumption of that good or 
service, and as you can see from this first slide, there is 
little doubt that increased levels of education generally 
result in lower unemployment rates and higher wages.
    Obviously, if the marginal utility of education is 
generally positive, its importance to the beneficiary rises. 
And beginning with the original WWII GI Bill, the relative 
worth, utility and importance of the investment in veterans 
education has historically translated into a positive outcome 
for the participants and for society in general.
    So, today, the question for us is whether the post-9/11 GI 
Bill is meeting the goals of relative worth, utility and 
importance as provided through the various sectors of the post-
secondary education industry. With that in mind, let's begin 
with the costs that are shown in the next slide.
    As you can see, there is a wide variation in the cost of 
tuition and fees cross the various sectors of the education 
industry, and those costs continue to escalate as shown on the 
next slide. These show the value of education or the cost of 
education as indexed to their relative cost, in the 1982-1983 
time period, and as you can see, 4-year public education has 
risen by a factor of about 3 and a half; public 2-year colleges 
about 2.8; and private non-profit 4-year institutions about 267 
percent.
    So, the facts establish that there is a significant 
financial utility to increased education, but the trends in 
costs beg the question at what point, if any, will the average 
American family no longer be able to take advantage of college 
education opportunities?
    Clearly, the data shows that public colleges and 
universities have experienced the largest percentage increases 
in cost, but they still remain highly cost-competitive with 
other sectors. The private sector, both not-for-profit and for-
profit, they must offer values other than cost to compete for 
the tuition dollar. I will leave it to them to present those 
values during your testimony today.
    I find the significant increase in enrollments in the for-
profit sector interesting. While roughly double the public 
State resident tuition cost, non-profit tuition and fees are 
about half the average published cost of the non-profit public 
institutions. I realize the for-profit sector has come in for 
criticism recently, but there is clearly a place for them in 
the industry as exemplified by the rest of the industry's 
adoption of many of the for-profit institution models like 
satellite campuses, rolling enrollments, and online courses and 
degree programs.
    Regarding the potential criticism of the for-profit 
institutions, I would note that there is plenty of oversight 
and regulation of the education industry. For example, the VA, 
the Consumer Federal Protection Bureau, the Federal Trade 
Commission, the U.S. Department of Education, State attorneys 
general, State licensing agencies, State departments of 
education, State approving agencies and accrediting 
associations all have the responsibility to police all sectors 
of higher education. In fact, section 3696 of Title 38 requires 
the VA and the FTC to enter into an agreement on investigating 
allegations of unethical practices by any school, regardless of 
the sector. I believe that requirement has been in place for 
decades, and it is my understanding that interagency agreement 
is not yet in place today.
    The only conclusion I can draw is that multiple government 
agencies at all levels have failed to monitor the education 
industry and enforce the statutes and regulations now in place.
    In closing, I hope that this will be a positive and 
informative hearing that will explore the value of each sector 
of our education industry, brings to--to the table.
    Mr. Flores. Before I--well, we are not going to be able to 
recognize the distinguished Member till he gets in, but before 
we proceed, I would ask unanimous consent to enter testimony 
from the College Board, the National Association of Veterans 
Program Administrators, the Reserve Officers Association and 
the Wounded Warrior Project in the hearing record.
    Hearing no objection, so ordered.
    Mr. Flores. I also understand that Mr. O'Rourke would like 
to join us, and so I would ask unanimous consent for him to 
join us at the dais.
    Hearing no objection, that is so ordered.
    With us today on the first panel is Dr. Michael Smith, from 
the University of Texas, El Paso; Dr. Cynthia Azari, from 
Riverside Community College; and Mr. Michael Dakduk, from the 
Student Veterans of America.
    I would like for you to join us at the table.
    Mr. Flores. Dr. Azari was going to be introduced by Ranking 
Member Takano, so we may have a little bit of a disruption when 
we come back and introduce you.
    That said, we are going to recognize you for 5 minutes at 
this point.

    [The prepared statement of Hon. Flores appears in the 
Appendix]

 STATEMENTS OF CYNTHIA AZARI, ED.D., PRESIDENT, RIVERSIDE CITY 
   COLLEGE; MICHAEL R. SMITH, J.D., PH.D., VICE PROVOST FOR 
STRATEGIC ACADEMIC INITIATIVES, UNIVERSITY OF TEXAS AT EL PASO; 
 MICHAEL DAKDUK, EXECUTIVE DIRECTOR, STUDENT VETERANS AMERICA, 
                              SVA

               STATEMENT OF CYNTHIA AZARI, ED.D.

    Ms. Azari. Thank you, Mr. Chairman, Members of the 
Subcommittee, thank you for inviting me today to testify today 
regarding veteran services and programs at public colleges.
    My name is Cynthia Azari. I am president of Riverside City 
College, which is located in the Inland Empire of Southern 
California, a region that includes March Air Reserve Base, home 
to the Air Force Reserve Command's largest utility wing and 
units from the Army Reserve, Navy Reserve, Marine Corps Reserve 
and Air National Guard.
    Riverside City College and its sister institutions, Moreno 
Valley College and Norco College, are each fully accredited by 
the Western Association of Schools and Colleges and part of the 
Riverside Community College District.
    Historically, one of California's fastest-growing regions, 
the Inland Empire was hit hard during the national recession, 
which resulted in significant loss of jobs. This followed an 
earlier sustained period of blue and white collar unemployment 
due to the BRAC realignments in Southern California. Today, we 
still have the highest level of unemployment in the Nation, and 
nearly 150,000 veterans reside in Riverside County. The 
region's college going rate is about 24 to 26 percent, well 
below the State and national average.
    In 2012, our enrollments exceeded 33,000 students per 
semester. California community colleges have no local authority 
to set tuition rates, with the exception of nonresident 
tuition, which is set at the lowest rate allowed. Tuition 
levels are mandated by the State of California. Currently, that 
tuition is $46 per credit, which is lower than most if not all 
49 states. Still, college access and affordability is a problem 
for the majority of our students. More than 60 percent qualify 
for need-based financial aid.
    Having given you the brief overview of our district, I 
would like to turn to the subject at hand, our veterans.
    Some 1,200 veterans attend our three colleges each 
semester, roughly 3.5 percent of our district's total 
enrollment. It doesn't seem like a lot of students, but at a 
community college, every student is important. For many, we are 
the first, the last and the best chance for success. Being open 
to all, we are expected to serve all, and we take that 
responsibility seriously.
    Veterans come to us with all the challenges faced by other 
students, academic unpreparedness, a lack of a family tradition 
of college, financial and other difficulties; therefore, 
community colleges must serve veterans differently. That means 
new programs and services and even rethinking the basics, such 
as how do veterans effectively transition into civilian and 
college life.
    I am proud to say that at Riverside City College and the 
District, we are advancing strongly on this front. Our colleges 
have developed several programs and services to better serve 
our students. For example, all three of our colleges are 
authorized to certify veterans to receive benefits. Each 
college has veterans' resources--a resource center to assist 
our students with VA education benefits and guidelines. 
Orientations are specifically designed for veterans. We have a 
veteran-friendly college guidance course, and we are developing 
a boots-to-book guidance class. Every student veteran receives 
a student veteran education plan, priority registration, 
priority transcript assessment and processing. The District 
maintains a disabled veterans service program, we have a full-
time veteran services coordinator and counselors as well as a 
financial aid liaison. Each college has a veterans club, and we 
are developing a veteran-serving-veterans mentor program. We 
hold an annual 5K veterans run and other activities for our 
veteran students.
    One of the ways we help our student veterans is through 
scholarship and seeking external resources beyond State 
funding. Last year, our foundation received a $1.5 million 
endowed state gift from a U.S. Navy veteran and his wife 
specifically to provide scholarships for student veterans for 
books, equipment, and other expenses.
    Over the last 3 years, our colleges have secured 43 
competitive Federal grants totaling $34.6 million. Among those 
is a million dollar grant that directly helps our disabled 
veterans.
    Having comprehensive support services and programs for 
students, student veterans, provides a strong foundation, but 
they are--if they are unaware of these programs and services, 
few concrete results rise from that foundation. We applaud the 
efforts of Congress and the White House to ensure that veteran 
students have access to the best and most comprehensive 
information available so they can make informed decisions.
    We believe a couple of additional steps could help improve 
the flow of information and the experience of student veterans. 
For one, refine the VA benefits portal to allow colleges and 
universities to directly input veteran-specific information, 
adapt the VMET, Verification of Military Experience and 
Training program, change the VRAP, the Veterans Retraining 
Assistance Program by extending benefits from 1 year to 2 
years, increase the Federal grant opportunities. What is 
desperately needed is funding mechanisms similar to Title V 
grants and pass H.R. 331 authored by Subcommittee Ranking 
Member Mark Takano and Congressman Ken Calvert.
    That concludes my testimony. On behalf of Riverside City 
College and Riverside Community College District, I would like 
to thank the Members of the Subcommittee for giving me the 
opportunity to speak today. It has been a great honor. Thank 
you.

    [The prepared statement of Cynthia Azari appears in the 
Appendix]

    Mr. Flores. Thank you, Dr. Azari.
    And now that Ranking Member Takano is here, I would like to 
recognize him for his opening comments, and also, again, as I 
said earlier, we are going to do this in a little bit of an odd 
order, and we are going to have him introduce you as well.

             OPENING STATEMENT OF HON. MARK TAKANO

    Mr. Takano. Thank you, Mr. Chairman. I appreciate the 
courtesy you have extended to me. We had 14 votes on amendments 
which disrupted our schedule.
    So, thank you for the opportunity to introduce Cynthia 
Azari, who has already given her testimony. She is the 
president at Riverside City College and the Chancellor Designee 
of the Riverside Community College District. Dr. Azari's 30-
year career has brought success in the form of meaningful 
employment and self-fulfillment to the lives of tens of 
thousands of veterans from diverse backgrounds.
    I requested that Dr. Azari come to testify at our hearing 
so she could provide her unique insight, based on her great 
experience and leadership of community colleges in four States.
    Dr. Azari has shown a great commitment to all her students 
and their children, which includes students from the March Air 
Reserve Base in my district. She leads the strategic planning 
and institutional effectiveness initiatives focusing on the 
needs of student veterans in the Riverside Community College 
District. Her experience can also help us understand the impact 
of H.R. 4057, the improving transparency of education 
opportunities for Veteran Act of 2012, now called Public Law 
1,000--112-249 and Executive Order 13607 issued by the 
President.
    I am familiar with the very good work being done by RCCD 
because I have been a community college trustee for that 
district for 23 years and have served as president of the board 
five times. I am delighted that Dr. Azari could join us today. 
I am happy to extend a warm welcome to her, and I also just 
want to add that the wonderful part of her narrative is her 
beginnings as a daughter of farm workers and her elevation to 
such heights as an educator through her education--the great 
American equalizer. So I'm pleased to welcome her here to the 
halls of Congress.

    [The prepared statement of Hon. Takano appears in the 
Appendix]

    Ms. Azari. Thank you very much.
    Mr. Flores. Thank you, Mr. Takano. And now I would like to 
recognize my friend and colleague from Texas, Mr. O'Rourke, for 
an introduction of our fellow Texan, Dr. Smith.
    Mr. O'Rourke. Thank you, Chairman Flores and Ranking Member 
Takano, for the opportunity to sit on this Committee today with 
you and for the opportunity also to introduce Dr. Smith and to 
talk about the good work that he is doing along with the--with 
his colleagues and President Natalicio at the University of 
Texas at El Paso. It is an institution that I am very proud and 
honored to represent in Congress. It is a place that is 
transforming lives in our community, giving people who 
otherwise would not have an opportunity, the chance to succeed, 
to become more productive, and to not only better their lives 
but to better the community that we serve.
    In fact, UT El Paso, or UTEP, was ranked No. 1 in the 
Nation in social mobility recently; 64 percent of our students 
at UTEP received pell grants. It is one of the largest 
minority-serving institutions in the country, and Dr. Smith, as 
the vice provost for Strategic Academic Initiatives at UTEP, 
has been a big part of that success. He also oversees UTEP's 
military students success center and handles issues related to 
military and veterans' educational benefits and outreach to 
Fort Bliss. And Fort Bliss now has 33,000 active duty soldiers, 
compliments the almost 80,000 veterans who already live in El 
Paso, so you can understand what an important issue this is for 
us in El Paso and how transformative UTEP is and can 
potentially be going forward for our active duty and veterans 
population.
    Dr. Smith was recently named the Director of the National 
Center for Border Security and Immigration, and I am looking 
forward to hearing his testimony today and want to welcome him 
to Washington, D.C.
    Thank you, Mr. Chairman.
    Mr. Flores. Thank you, Mr. O'Rourke.
    Dr. Smith, you are recognized for 5 minutes, and in my 
review of your testimony, I was very impressed with what you 
have done at UTEP, and I look forward to you telling the rest 
of the hearing today.

           STATEMENT OF MICHAEL R. SMITH, J.D., PH.D.

    Mr. Smith. Chairman Flores, Congressman O'Rourke and 
distinguished Members of the Subcommittee on Economic 
Opportunity of the House Committee on Veterans' Affairs. My 
name is Mike Smith, and I serve as vice provost for Strategic 
Academic Initiatives at the University of Texas at El Paso. It 
is my great honor to appear before this House Subcommittee to 
testify on the value of education for veterans at public, 
private and for-profit colleges and universities. On behalf of 
UTEP, I would like to thank you for this opportunity to be with 
you today.
    University of Texas at El Paso is deeply committed to the 
success of our military affiliated students and to providing 
them with outstanding value in pursuit of their post-secondary 
educational goals. UTEP has a deep and longstanding connection 
with the United States military. Indeed, UTEP was founded on 
the grounds of the Fort Bliss Military Institute in 1914 and 
has shared the City of El Paso with Fort Bliss ever since.
    University of Texas at El Paso honors the service and 
sacrifice of our more than 1,500 military affiliated students, 
who include approximately 175 active duty servicemembers, 650 
veterans, and 500 military children and spouses. The University 
of Texas at El Paso is a comprehensive research university of 
more than 23,000 students. Mirroring the population of the El 
Paso region from which 83 percent of its students come, 77 
percent of UTEP students are Hispanic and nearly 50 percent of 
its undergraduates report a family income of $20,000 or less.
    Despite the socioeconomic challenges of the region, UTEP 
has found ways to provide both access and excellence for its 
students. Over the past decade, for example, degree completions 
have grown dramatically at UTEP, with an 85 percent increase in 
undergraduate degrees awarded over the last decade. As a 
result, UTEP now consistently ranks among the top three 
universities nationally in the number of Hispanic graduates per 
year in nearly every disciplinary area.
    UTEP's success in serving as a catalyst for human and 
economic development and quality of life in the region also has 
earned it a place in the national spotlight as a model 21st 
Century research university with a firm commitment to access 
and excellence. As the Congressman noted, in last year's 
Washington Monthly Magazine rankings, UTEP was ranked No. 1 
among all U.S. universities for our success in enabling 
students from all backgrounds and cultures to achieve the 
American dream.
    Providing U.S. military personnel and veterans with the 
ability to achieve academic, professional and career success is 
likewise integral to the mission of UTEP. UTEP's military 
affiliated student population has grown by more than 120 
percent in the last 5 years, from 713 students in the fall of 
2008 to more than 1,500 students today.
    UTEP is providing national leadership in military education 
by facilitating the transferability of credits by 
servicemembers. The university recently received a $1 million 
planning grant from the Kresge foundation to create a network 
of public universities across the country that will ease the 
transferability of college students. Members of the AIMS 
network will eventually enter into articulation agreements that 
will recognize credits earned at partner institutions and 
seamlessly transfer them to a university in the network that is 
close by a servicemember's duty station.
    UTEP is honored to served its military affiliated students 
as they and their families have served the Nation. Today, I 
have been asked to review progress in implementing the 
provisions of House Bill 4057, now Public Law 112-249, as well 
as the provisions of Executive Order 13607. One challenge for 
universities in complying with Executive Order 13607 is to 
create automated processes for integrating various electronic 
data systems in order to produce individual student level 
estimates of cost and debt as required by the principles of 
excellence. Every military affiliated student comes to a 
university with a unique set of variables that affects how much 
the student would expect to pay for a degree and what the 
student's financial aid profile may look like.
    I am pleased to report that UTEP will formally adopt the 
principles of excellence in the very near future. We are in the 
final stages of integrating our student records and financial 
aid systems with the Department of Education Student Shopping 
Sheet in order to provide our military affiliated students with 
a customized, clear and easily understood estimate of their 
tuition, fees, Title IV financial aid and VA benefits for 
military tuition assistance.
    Regarding Public Law 112-249, the Veteran Benefits 
Administration recently released its report to Congress, in 
which it makes several policy recommendations for implementing 
this new statute. Although the statute is new and its 
implementation is still evolving, I would like to comment on 
the provision--its provision for reporting student and State 
approving agency feedback on quality of instruction, recruiting 
practices, and post-graduation employment placement.
    Student feedback is certainly helpful and may aid students 
in making comparisons among institutions. I respectfully 
recommend that the Veterans Benefits Administration develop a 
standardized set of metrics for reporting student feedback in 
all areas identified in the statute.
    Across the Nation, State-supported universities have 
responded to the pressures of increasing costs and higher 
education by reducing student services, increasing class sizes 
and teaching loads and the like. UTEP is proud to work 
diligently to keep its tuition and fees affordable while 
maintaining its commitment to high quality instruction and 
cutting-edge research.
    Thank you, Mr. Chairman. Appreciate the opportunity.

    [The prepared statement of Michael Smith appears in the 
Appendix]

    Mr. Flores. Dr. Smith, thank you for your testimony. We 
look forward to questions in a minute.
    Mr. Dakduk, welcome back to the Economic Opportunity 
Subcommittee, and you are recognized for 5 minutes.

                  STATEMENT OF MICHAEL DAKDUK

    Mr. Dakduk. Thank you so much, Mr. Chairman and Ranking 
Member Takano, Members of the Subcommittee, for inviting 
Student Veterans of America to address the Subcommittee on this 
specific topic.
    Immediately following the implementation of the post-9/11 
GI Bill in 2009, Student Veterans of America began working on 
changing the landscape of higher education to be more 
supportive of veterans, servicemembers and their families. Our 
organization, which began on only 20 campuses a short 5 years 
ago, now spans over 850 college campuses and universities in 
all 50 states. I have personally traveled to over half the 
country visiting university and college leaders on over 150 
campuses to witness firsthand the support or lack thereof being 
provided to student veterans. I wasn't able to travel to 
these--to the folks to my right, to their campuses, but I look 
forward to doing that in the near future.
    One of my more recent trips includes a visit to the 
University of North Carolina-Chapel Hill, where I accompanied 
Secretary Shinseki on a visit with President Tom Ross, who 
presides on the UNC system, which is a coalition of 16 campuses 
throughout the State of North Carolina. The purpose of this 
visit was to learn more about how UNC was serving veterans, 
servicemembers and their families.
    In my travels to places like UNC in 27 other States, I have 
come to find many common themes on best practices for serving 
the student veteran population. Best practices range from 
creating a veterans center on campus to providing residency 
waivers so veterans can maximize their GI Bill at the in-State 
tuition rate. Many of these best practices are captured in 
three separate publications. First is the American Council on 
Education's toolkit for veteran friendly institutions, which is 
a compilation of veteran support and best practices from 
college and universities nationwide.
    Any college or university leader can upload their program 
or initiative onto the Web site for public viewing at 
vetfriendlytoolkit.org. Second is the Association of Private 
Sector Colleges and Universities, which you will hear from Mr. 
Steve Gunderson on the second panel; they commissioned a 
taskforce to identify military and veteran best practices for 
supporting student veterans and servicemembers. That report was 
published earlier this year.
    Finally, Operation College Promise, a program created by 
the New Jersey Association of State Colleges and Universities 
developed a field guide on how to best support veterans on 
campus. It was published last year.
    All of these initiatives are absolutely critical for 
supporting the successful transition of our veterans to and 
through American's higher education system.
    However, little quantifiable evidence exists, at least 
nationally, as to how successful veterans are academically and 
what specific programs or initiatives lead to higher success 
rates. A key component of Executive Order 13607 is the call to 
track student veteran academic success rates, utilizing 
existing administration data. However, current weaknesses in 
Federal databases and national surveys to track and define 
student veteran academic outcomes have resulted in several 
conflicting reports.
    Some media reports have claimed that the student veteran 
dropout rate may be as high as 88 percent. That was a poorly 
cited statistic that SVA quickly dispelled. In contrast, 
national surveys conducted by the government suggest completion 
rates may be as high as 68 percent for military veterans. The 
wide range of reported completion and dropout rates has led to 
confusion regarding student veterans' post-secondary academic 
success. To gain a better understanding of student veteran 
post-secondary completion rates, Student Veterans of America 
brokered a partnership between the Department of Veterans' 
Affairs and the National Student Clearinghouse, a non-profit 
organization with enrollment data on over 95 percent of 
America's student population, to create and develop a student 
veteran attainment database. SVA expects to initially report on 
the completion rate of approximately 1 million veterans that 
have used various forms of the GI Bill between 2002 and 2010. 
We expect to see some results at the end of this year.
    The attainment database is a vital first step to accurately 
identifying, tracking and measuring student veteran post-
secondary completion rates. In addition, it will provide the 
foundation for future research, such as student veterans' 
persistence in identifying critical times where student 
veterans are more likely to withdraw from college. We can also 
identify programs and policies that promote student veteran 
persistence and completion and help colleges and universities 
struggling to support student veterans.
    Mr. Chairman, it is absolutely critical that we define the 
success of veterans in higher education so we can make data 
driven decisions on programs and initiatives that lead to 
greater student veteran success. Thank you, and I welcome your 
questions.

    [The prepared statement of Michael Dakduk appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Dakduk.
    I thank all of you for your testimony.
    I will start with the questions. The first question is for 
Mr. Dakduk of Student Veterans of America. You referenced a 
problem that we have seen as policymakers that you have 
different databases out there and different reports that give 
us different answers, and so while I applaud you for your 
decision to work--to have a partnership with the National 
Student Clearinghouse to develop a better database and to track 
veterans' student outcomes, I am still worried about the 
conflicting data that we are going to have out there.
    And so my question for you would be, what should 
policymakers do to try to avoid relying on disparate data from 
different databases. What is the--what do you think the 
solution is to that issue?
    Mr. Dakduk. One of the solutions is going to take place 
outside of this Committee, and it is going to be the 
reauthorization of the Higher Education Act, which is going to 
be discussed hopefully very soon.
    And here's a great example. Mr. Chairman, I stand before 
you with a bachelor's degree, and the way that the Department 
of Education currently tracks graduation rates, I would be 
considered a college dropout or not reflected in the graduation 
rate. Why is that? Because IPEDS, which is currently under the 
Department of Ed, tracks first-time, full-time students that 
enroll in the fall term. I enrolled in the summer term in a 
community college, later transferred to a 4-year public 
university. Before that, I was going to school when I was on 
active duty, so I have transferred between three separate 
institutions. I am not tracked as a graduation rate.
    The issue I am finding is because of all the things we are 
talking about that affect military veterans, like post-
traumatic stress, traumatic brain injury, military sexual 
trauma, all real issues, but now there are media claims that 
these issues are the reasons that veterans are not succeeding 
in higher education. We need to make sure that we prove that 
veterans may be succeeding, and if they are not succeeding, 
let's find out the reasons why they are not succeeding, as 
opposed to just making general claims that it could be linked 
or correlated to issues, and we are not even sure that that is 
really the reason.
    So there is anecdotal evidence, and there are things, 
research that has been done on nontraditional students, but 
there needs to be work done on veterans, because what is unique 
about veterans is that they are highly resilient and a lot of 
them have higher education experience; they have credit from 
military experience, and these things have been accredited by 
the American Council on Education. So to find out whether they 
are succeeding or whether they are failing is absolutely 
critical to defining programs that will help them succeed as we 
move forward.
    Mr. Flores. Thank you, Mr. Dakduk.
    Dr. Smith, the next question is for you. First of all, 
congratulations on your Washington Monthly rankings. That is 
very impressive. You spent a little time talking about your 
suggestions for the implementation of this student complain 
form that is required by Public Law 112-249. Can you go into a 
little bit more detail about what you would recommend?
    Mr. Smith. Yes. Thank you, Mr. Chairman.
    Yeah, as you--as you noted, the new statute requires the 
education service to build a system or modify a system to 
publish positive and negative feedback about institutes of 
higher education on the GI Bill Web site. I respectfully--as I 
said, I respectfully recommend that the VA develop a 
standardized set of metrics, perhaps using a Web-based portal 
that military students, affiliated students could report their 
experiences on. The results from the--from the Web-based survey 
could be aggregated and reported for categories of institutions 
along with student response rates, for example.
    Simply, you know, reporting a number of complaints or 
cataloging qualitative comments about an instructor or course 
are not valid mechanisms for comparing quality of across types 
of institutions, so there really needs to be a standardized set 
of metrics and an ability for students to report probably using 
a Web-based survey, and then the ability, as the statute 
requires, for institutions to be able to respond to that in 
writing probably on an annual basis.
    Mr. Flores. Okay. Thank you. In the interest of time, I am 
going to go ahead and turn the questioning over to the Ranking 
Member, Mr. Takano.
    Mr. Takano. Thank you, Mr. Chairman.
    Dr. Azari, what are some of the most popular programs at 
RCCD for veterans?
    Ms. Azari. The most popular programs that we have are some 
of our vocational programs. We have a nursing program and 
automotive technology. We also have computer information 
systems, and those are generally the most popular, as well as 
the transfer programs.
    Mr. Takano. How much do these programs cost?
    Ms. Azari. The tuition that the State sets is $46 per unit. 
You multiply that by 12 or 15, which would give you a full-time 
student rate.
    Mr. Takano. Okay. And can you just do the math out loud for 
me?
    Ms. Azari. Well, that would be 460 plus--about $600.
    Mr. Takano. $600.
    Ms. Azari. Per semester for tuition.
    Mr. Takano. So, $1,200 per year, excluding the books.
    Ms. Azari. Right. And another $500 for books.
    Mr. Takano. Okay. Do these programs lead to licenses, 
certifications or other requirements for employment in a 
specific occupation?
    Ms. Azari. Yes. Our certified nursing assistant program 
does; our nursing program, of course; our licensed vocational 
nursing program; automotive technology leads to the ASE 
certification; and Computer Information Systems has many 
certifications, industry certifications.
    Mr. Takano. And you may not know this off the top of your 
head, but I just want to ask, what percentage of your budget do 
you spend on education versus marketing and recruiting?
    Ms. Azari. Because of the budget reductions that we have 
had in the past few years, we have spent very little on 
marketing and recruiting. I would say less than 1 percent.
    Mr. Takano. And in the prior years?
    Ms. Azari. In the prior years, we probably spent, oh, 3 to 
5 percent.
    Mr. Takano. Three to 5 percent over your total budget?
    Ms. Azari. When you factor in all of the marketing, all of 
the brochures; there are many catalogs that we are not mailing. 
We are producing them only online, so we are saving some money.
    Mr. Takano. Okay. Can you tell us more about the RCC 
Veterans Resource Center and the services it provides to your 
students?
    Ms. Azari. We took a classroom and converted it into a 
resource center. There is a portion of it where we have the 
coordinator and the counselor, and they provide assistance with 
VA benefits and counseling and guidance into the academic 
program, because each student has an educational plan. But 
there is a portion of the room that is kind of a lounge 
setting. So, there are sofas there. We have a large screen 
television donated, so students can congregate, and they can 
meet with other veterans. Then we have a study area as well 
with computers and tables so students can have study groups.
    Mr. Takano. Does this come from any special funding, or is 
this something you had to carve out from your budget as a 
commitment to them?
    Ms. Azari. We really had to raise the funds. We carved out 
a little bit. We certainly have the funding for the staff, but 
in order to fund the furniture and equipment, we had to raise 
the funds and got donations from local businesses.
    Mr. Takano. What are the challenges you face serving your 
veteran students and what suggestions do you have to improve 
services for student veterans?
    Ms. Azari. Well, some of them I suggested have to do with 
increasing the Federal grant opportunities, like Title V, and 
also the portal, the VA's e-benefit portal that would allow 
colleges to directly input veteran specific or relevant 
information. What we would like to see is an opportunity for 
veterans to have a comprehensive overview of different 
colleges, so more or less a template, and each college and 
university would provide the same information. That way 
students would be able to compare and make informed decisions.
    Mr. Takano. Dr. Smith, do you have any idea of how much 
your institution spends on education versus recruiting and 
marketing?
    Mr. Smith. I don't have those figures for you. We spend 
approximately two-thirds of the budget, of the university's 
budget goes to the academic mission, but I don't know the exact 
percentage in terms of marketing or recruitment.
    Mr. Takano. Ballpark number?
    Mr. Smith. It would be small. In alignment with--
    Mr. Takano. Less than--10 percent or less, you think?
    Mr. Smith. Certainly, yes.
    Mr. Takano. Maybe even closer to 5 percent?
    Mr. Smith. Probably.
    Mr. Takano. Okay. And what are some of your most popular 
programs for veterans?
    Mr. Smith. Probably numerically, criminal justice is 
probably our most popular major among our military-affiliated 
student population. Business is also very popular and nursing, 
probably our top three.
    Mr. Takano. And do your programs lead to licenses, 
certifications or other requirements for employment in specific 
occupation areas?
    Mr. Smith. The nursing program certainly does among those 
three.
    Mr. Takano. Okay. Thank you.
    Mr. Smith. Thank you.
    Mr. Flores. Thank you, Mr. Takano.
    Mrs. Kirkpatrick.
    Mrs. Kirkpatrick. Thank you, Mr. Chairman, Ranking Member 
Takano. My first question is for each one of the witnesses. In 
your opinion, what are the top three reasons that veterans do 
not complete their degrees? And we will start with Dr. Azari.
    Ms. Azari. I would say family obligations and personal 
problems, not fitting into the college environment, and that is 
why the resource center was so important.
    Mrs. Kirkpatrick. Dr. Smith. We will come back with follow-
up question.
    Mr. Smith. Yeah, I think there is a distinction between the 
type of--so, for active duty students, many times it is because 
they are transferred to a different duty station, and they find 
it difficult to transfer credits or simply to attend school, 
given their workload.
    For veteran students, it is probably not a whole lot 
different than the general student population, so sure. In 
our--among our student population, it would be financial 
reasons, financial concerns, family matters, the need to go and 
find employment and the like.
    Mrs. Kirkpatrick. Dr. Dakduk.
    Mr. Dakduk. Thank you so much, Congresswoman Kirkpatrick, 
for asking that because we actually conducted research on this 
and regarding nontraditional students when we received a grant 
from the Bill & Melinda Gates Foundation, and there are three 
critical areas.
    Administration: Military veterans have to navigate two 
bureaucracies, the campus bureaucracy that all students have to 
navigate; second, the Department of Veterans Affairs in getting 
their GI Bill benefits. That can deter some folks from actually 
continuing to succeed. If they can't appropriately navigate 
financial aid registrar's office, then on top of that, finding 
central part of contact to navigate the GI Bill and getting 
your benefits.
    Two, integration: All of our military servicemembers are 
reintegrating to civilian society. Many are integrating for the 
very first time onto a college campus. That is a challenge.
    Three, academics: Remedial training is an issue for a lot 
of nontraditional students, but consider this, military 
veterans that are away from the academic environment for 2, 3, 
4-plus years, one or more combat deployments. That is a 
challenge. Remedial training is absolutely critical.
    So those are the three. I don't know if you saw some 
research, but there are three areas that are absolutely 
critical to the success of veterans if we can address them.
    Mrs. Kirkpatrick. Thank you. No, I haven't seen that 
research, but I would like to. Maybe we can get that after the 
hearing.
    Dr. Azari and Dr. Smith, what are your universities doing 
to address this problem?
    Ms. Azari. Well, in terms of bureaucracy, we have a 
coordinator, we have counselors, we have financial aid people 
who work specifically with the veterans to help them navigate 
that entire bureaucracy, both at the Federal level and at the 
college level.
    Mrs. Kirkpatrick. And what if they are having family 
problems.
    Ms. Azari. We do have counseling available for our 
veterans. We have a counselor specifically designated for 
veterans.
    Mrs. Kirkpatrick. Is that free of charge?
    Ms. Azari. Yes.
    Mrs. Kirkpatrick. Okay. Dr. Smith.
    Mr. Smith. We have a military student success center on 
UTEP's campus that is dedicated to our military student 
population, staffed with well-trained counselors who can help 
our students navigate both university bureaucracy as well as 
the military student and VA benefit bureaucracy. It is a one-
stop shop. Our students all know to go there. They are 
essentially located in our library. We can either provide them 
the services there or connect them with the appropriate 
services.
    Mrs. Kirkpatrick. Mr. Dakduk, what do you see that we can 
do as policymakers to address the problems of veterans not 
completing their degree?
    Mr. Dakduk. I think the issue is definitely finding out 
whether--how prevalent dropout rates are, and we don't know. 
And I respect what the Chairman said, there is competing 
information out there, and there is always going to be that, 
but I found that that has been an excuse for not tracking 
anything, and that is the issue I have in higher education. So 
we need to begin looking at this.
    The unique thing about our research or the project that we 
are working on with the Department of Veterans Affairs and 
National Student Clearinghouse is we are going to track data on 
1 million veterans. We are also going to show what degree 
fields they are majoring in. So now we can start to figure out, 
you know, what are folks gravitating toward? What degrees and 
post-secondary credentials are they actually trying to receive? 
Are those the degrees that lead to valuable post-graduation 
employment? Do we need to start communicating what is really 
important; what are the degrees that will lead to long-term 
success? We can figure those things out, and we can also start 
to figure out what schools are doing great work that lead to 
higher graduation rates.
    I met with Florida State University's president, Eric 
Baron, and they have persistence rates as high as 88 percent 
for military veterans and servicemembers, but he has also made 
a multi-million dollar investment in his school to support 
servicemembers and veterans and their family members.
    What I have seen in my travels across the country is that 
higher education universities play a critical role in the 
transition of military servicemembers and veterans. The 
community college over here that Dr. Azari leads is an anomaly 
and a unique example. There are a lot of community colleges 
that are resource constrained and don't have the financial 
ability to help them or provide resources and support. We have 
to make sure that we scale these programs across the spectrum 
of higher ed.
    Mrs. Kirkpatrick. Thank you all for your testimony today.
    I yield back.
    Mr. Flores. Thank you, Ms. Kirkpatrick, and I would like to 
thank each of the participants in panel one. You are now 
excused, and I would like to invite panel two to the table.
    Mr. Flores. First, we have had Former Congressman Steve 
Gunderson, who is testifying on behalf of the Association of 
Private Sector Colleges and Universities. Following Congressman 
Gunderson, we will have Dr. Daniel Carey, who is the President 
of Edgewood College and is testifying on behalf of the National 
Association of Independent Colleges and Universities. And 
finally, we have Mr. David Baime, who will testify on behalf of 
the American Association of Community Colleges.
    Welcome to each of you. Thank you for your testimony, and 
we look forward to starting.
    Congressman Gunderson, you may begin.

STATEMENTS OF HONORABLE STEVE GUNDERSON, PRESIDENT AND CEO, THE 
ASSOCIATION OF PRIVATE SECTOR COLLEGES AND UNIVERSITIES, APSCU; 
DANIEL J. CAREY, PH.D., PRESIDENT, EDGEWOOD COLLEGE, ON BEHALF 
      OF NATIONAL ASSOCIATION OF INDEPENDENT COLLEGES AND 
UNIVERSITIES; DAVID BAIME, SENIOR VICE PRESIDENT FOR GOVERNMENT 
    RELATIONS AND POLICY ANALYSIS, AMERICAN ASSOCIATION OF 
                       COMMUNITY COLLEGES

               STATEMENT OF HON. STEVE GUNDERSON

    Mr. Gunderson. Thank you very much, Mr. Chairman, Ranking 
Member, Members of the Committee. I have actually edited my 
oral statement to even be more concise, so we will make it part 
of the record. We take seriously--the charge to work with 
veteran and military student populations and prepare America's 
students to succeed in the workforce. As we all strive to 
provide better information to all of our students, we look 
forward to continuing to work with the Department of Veterans 
Affairs and Education to implement both H.R. 4057 and Executive 
Order 13607 to ensure that our Nation's veterans are receiving 
all the information needed to make superior education 
decisions, including improved outreach, transparency and 
counseling.
    Of particular note are the provisions in the Executive 
Order that call for additional transparency for veterans. We 
have long believed that full, accurate and accessible 
information enables the veteran to make the appropriate choices 
for their career future. According to the Veterans 
Administration, more than 325,000 veterans or their families 
have been served by our institutions, representing 28 percent 
of all veterans using the post-9/11 GI benefit. Although 
veterans make up less than 10 percent of our students, we are 
proud to serve those who choose our institutions.
    You might ask, why do we serve 13 percent of all post-
secondary students but 28 percent of all veterans? The answer 
lies in our customer service to veterans. Returning from duty, 
most veterans do not want to live in a dorm and take five 
different three-credit courses at a time. We try to meet them 
where they are. They want to focus on accelerated delivery of 
academic programs that can support their transition from the 
front lines to full-time employment as soon as possible. 
Because of our longer school days and year-round academic 
programming, our students can often complete an associate's 
degree in 18 months or a bachelor's degree in just over 3 
years.
    Executive Order 13607 requires the use of the Department of 
Education IPEDS' data to collect enrollment graduation and 
outcome information. It is a good first step, but as you heard 
in the first panel, because IPEDS currently counts first-time 
full-time students, no veteran returning to school is counted. 
We need to change that.
    Last year, we adopted five tenets of veterans education 
that included the creation of a Blue Ribbon task force for 
military and veterans education. The task force was comprised 
of a broad group of individuals who shared common commitment 
toward the education of servicemembers and veterans, including 
non-APSCU members as well as representatives of the nationally 
recognized veterans service organizations. The task force 
created a best set of best practice recommendations that are 
attached to my written testimony.
    It is important to note that H.R. 4057 and the Executive 
Order create a central complaint process to track student 
issues with institutions of higher education. APSCU supports a 
managed process for enforcement.
    Now, before I close my remarks, I would like to share with 
you some findings of a recent survey of several of our member 
institutions. We looked at 16,500 veteran graduates and found 
that 75 percent earned certificates and associate degrees, 
while 25 percent earned BA or graduate degrees. As the 
questions were just asked in the previous panel, 41 percent of 
the veterans earned credentials in the health care field; 20 
percent earned credentials in the skilled trade programs; 10 
percent earned credentials in computer and information 
programming.
    Our partnership with veterans is preparing America's 
skilled workers for the future. This is a partnership we want 
to continue and we are very proud of. We thank you for the 
opportunity for the testimony and happy to answer questions.

    [The prepared statement of Steve Gunderson appears in the 
Appendix]

    Mr. Flores. Thank you, Congressman Gunderson.
    Dr. Carey, you are recognized for 5 minutes.

              STATEMENT OF DANIEL J. CAREY, PH.D.

    Mr. Carey. Thank you, Chairman Flores, Ranking Member 
Takano and other Members of the Committee. I appreciate having 
the time to appear before you today to discuss the value of 
higher ed for our Nation's veterans. Edgewood College is a 
liberal arts Catholic college in the Dominican tradition with 
just over 3,000 students, undergrad and graduate. Today, I 
represent both my college and the members of the National 
Association of Independent Colleges and Universities.
    At the outset, I wanted to commend the Committee for 
highlighting the importance of veterans receiving value for the 
time and money they put into obtaining a higher education. As 
an independent college president and former chair of NAICU, I 
welcome that chance to discuss that value with you. I am also 
proud of my service as an infantry officer in Vietnam, and I 
retired as a full Colonel in the Reserves. The GI Bill changed 
my life and the lives of countless others, and it continues to 
do that today.
    I am personally committed to seeing that veterans have a 
positive educational experience, both at my institution and at 
other high quality colleges. The post-9/11 GI Bill has opened 
the doors to higher education across the country. I believe the 
key question before this Committee today is how to ensure that 
veterans get the most out of that GI Bill. The answer lies in 
the success veteran students are having at schools like 
Edgewood.
    What makes us different, and how or why are our students 
successful? Three key factors. First, we dedicate the financial 
and personnel resources to students. Like most non-profit 
colleges, Edgewood spends the vast majority of our revenue 
directly on student education and student services.
    Second, we focus on teaching with a topnotch faculty of 
Ph.D.s, and most of our students are in small seminars of fewer 
than 20 students. Like most non-profit colleges, we push our 
students to learn, think critically, write effectively, and 
work in teams. Our students graduate with strong skills to 
tackle professional careers, and we offer intensive job 
placement assistance to every student before and after their 
graduation.
    Third, Edgewood offers significant student support 
services. Some veterans need a little extra guidance through 
their college experience. We have a full-time veteran services 
coordinator who served in the Army Reserve and the Marine 
Corps. In response to the requests of our veteran students, we 
are providing a dedicated space for them to meet. We make 
psychological counseling easy to access and free. We offer 
personalized academic advising to assist veterans and 
dependants in determining their course of study.
    Because of these factors, our enrollment of veterans and 
dependants at Edgewood has grown dramatically in the past 
several years. Now, our programs are a lot smaller, but our 
numbers have tripled and quadrupled, from 43 to 145 in the fall 
and to more than that in the spring. Our graduates are 
appreciative of the quality education at Edgewood, and they 
find success on the job market. Employers hire our graduates.
    Colleges can solve the dropout problems and veterans can 
thrive if colleges make the spending choices to offer an 
excellent education, dedicate resources needed by students, and 
build a strong sense of community. There are lots of costs 
involved, and at Edgewood, we have restrained our costs, 
holding increases below 3.9 percent in the each of the last 3 
years, and we participate fully in the Yellow Ribbon program.
    Now, I submitted some stories, personal stories of 
veterans. I will share just one.
    Jason Diaz was a student who I got to know quite well. He 
is an Iraqi war veteran, inspired to go into nursing while in 
the military. He was not a medic but was able to help keep a 
wounded comrade alive. While he was a student with us, his wife 
was expecting twins and his father was struck with terminal 
cancer. Our campus rallied around. He is now working in the 
emergency room at the University of Wisconsin Hospital and 
Clinics. There is lots of stories like Jason's being repeated 
across the country where schools are dedicating revenue to 
giving students personal attention, counseling and smaller 
class sizes.
    At Edgewood, we are proud of the fact that our cohort 
default rate stands at 2.5 percent, well below the national 
average of 13.4 percent, and the latest proprietary school rate 
of 22.7 percent. And this figure is not due to our having a 
wealthy student body. In fact, 35 percent of our current 
undergraduate students are eligible for Pell grants.
    As a veteran, it concerns me that not all of higher 
education demonstrates a commitment to the success of today's 
veterans.
    I am confident that veterans at our campus and at many 
other private non-profit institutions that offer a high quality 
education, supportive veteran services, and a strong sense of 
community will be successful. Thank you for the opportunity to 
share some of these stories with you today.

    [The prepared statement of Daniel J. Carey appears in the 
Appendix]

    Mr. Flores. Dr. Carey, thank you.
    Mr. Baime.

                    STATEMENT OF DAVID BAIME

    Mr. Baime. Good morning, Chairman Flores, Ranking Member 
Takano and Members of the Subcommittee. I am pleased to be here 
with you today to speak on behalf of the Nation's almost 1,200 
community colleges on some of the ways that we support veteran 
students.
    Our colleges have a long and proud history of serving 
veteran and active duty students. A survey from 2012 found that 
nearly four out of five community colleges already had or were 
in the process of implementing programs and services 
specifically designed for servicemembers and veterans. These 
include professional development for faculty and staff to help 
them better serve veterans, increasing number of services 
directly targeted to these individuals and establishing Web 
pages specifically tailored to veterans.
    Many institutions, particularly those with larger veteran 
populations, are also creating dedicated centers on campuses 
where students can congregate and receive tutoring and other 
services.
    Many, perhaps most community colleges, award academic 
credit for prior learning experience gained in the military and 
are refining these efforts to help military and veteran 
students complete certificates and degrees more rapidly. In 
addition to these new ways of measuring learning, many colleges 
have dedicated programs for veteran students to ease the 
transition from military to civilian student life.
    Today, many people are asking, is college really worth it? 
And the unequivocal answer now more than ever is, absolutely, 
yes. The evidence is overwhelming that the surest path to a 
family supporting job is through obtaining a post-secondary 
degree. However, the choice of a particular college and a 
particular program at that institution matters greatly. And 
while policymakers and campus officials are striving to ensure 
that students have the resources that they need to enable them 
to choose wisely, further improvement is needed both in the 
data that are available and the way that data is consumed.
    The first principle for community colleges is to remain 
accessible through low tuitions. Last fall, the average 
community college tuition and fees for a full-time, full-year 
student was just $3,131, and this came on the heels of cuts in 
State funding that drove tuition increases by 24 percent when 
adjusted for inflation over the last 5 years.
    Our tuitions are set by a variety of entities. In most 
places, they are decided by the individual institution in 
concert with their board. In other places, the State board sets 
the tuition, such as in Virginia. And so other States, as you 
just heard by Dr. Azari in California, the legislature 
determines the tuition. In all cases, these decisions are made 
before the public.
    Mr. Baime. Community colleges do frequently charge higher 
tuitions for out-of-district or out-of-State residents. Out of 
district students pay about 16 percent more on average than in-
district students, and out of State students pay about 136 
percent more. The principle is driven by one of equity, and 
that is that the heavily subsidized tuitions should be provided 
first and foremost to those who bear the burden of the taxes 
that support those low tuitions.
    Nevertheless, no community college student actually pays 
the full cost of their education. On average, our students--
spend about $12,400 per year, per student on education. 
Unfortunately, funding cuts over the past few years have 
reduced this amount. The accountability movement, with its 
emphasis on completion, which this Subcommittee is 
appropriately concerned about, has taken root on community 
colleges across the country. Our own association has taken a 
tough look at the progress we have made and the progress that 
we still need to make with a recent report called ``Reclaiming 
the American Dream.'' We also are launching a voluntary 
framework for accountability that will help institutions and 
the public more clearly understand how our institutions are 
performing, with the institutions themselves looking towards 
further improvement.
    The Federal Government does have a role here. It can help 
by ensuring that our colleges receive better quality data. 
There is no national system, no one system that tracks students 
throughout post-secondary education, and information on 
workforce outcomes is spotty, primarily provided through States 
rather than the Federal Government. Change in this area is 
inhibited by political, legal, and bureaucratic obstacles. But 
there is concerted pressure to provide better information to 
institutions and students, and we are optimistic that this 
information will become available in the coming months and 
years.
    Thank you for having me here before you this afternoon, and 
I will be pleased to answer any questions you might have.

    [The prepared statement of David Baime appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Baime.
    I will begin with the questions. The first question is for 
Congressman Gunderson, and it is this: What steps is the APSCU 
taking to ensure that your member institutions are implementing 
the recommendations of the Blue Ribbon Task Force for Military 
and Veteran Educations? And if they are not, what steps would 
you like them to take?
    Mr. Gunderson. That is a great question, Mr. Chairman. 
First of all, we are engaged in a very active education and 
promotion program to all of our members, and frankly to all of 
higher education, because we take great pride in that set of 
recommendations as being one of the better sets of best 
practice recommendations that are out there. Many of our 
schools are individually saying that they are going to commit 
to it and indicate so on their Web sites and their materials, 
et cetera.
    The second thing that becomes important here is, as you 
heard from actually the earlier panel in your opening remarks, 
we get asked if we have automatic enforcement. We are not a 
regulator; we are an association. But I will tell you we are a 
strong supporter of the complaint system that is being 
developed at the Veterans Affairs, so that if there are 
complaints and if those complaints are disproportionately for 
our sector, we will know that we have not succeeded and that we 
are going to have to take additional steps. So our combination 
of proactive advocacy and education, combined with what you all 
are doing through the Bilirakis legislation and now the 
Executive Order and the implementation of that complaint 
process, will combined give us the information to know what 
those outcomes are.
    Mr. Flores. Thank you, Congressman Gunderson.
    Dr. Carey, you had mentioned that one of the reasons for 
increases in tuition rates is that colleges are now providing 
more what are called additional services than they were before. 
Can you give us a couple of examples of additional services? 
And secondly, would you agree that in addition to those 
additional services that competition among schools to attract 
students through nicer dormitories and expanded sports programs 
has also contributed to the rising cost?
    Mr. Carey. In answer to the first question specifically 
with veterans, I mentioned that we have about 145 veterans 
right now. And we have a full-time veterans coordinator. And we 
have a dedicated space for them to meet. And we have a person 
in the registrar's office that we trained to work specifically 
with veterans, because their financial aid, as you heard 
earlier, can be a challenge.
    But we found with that extra attention, and somewhat of an 
extra investment, that our retention rate for our veterans has 
been equal to or above that of our overall student body. We 
feel like we are investing extra dollars, but we feel like 
there has been a payback on that with the success.
    Mr. Chairman, if you could repeat the second part of the 
question.
    Mr. Flores. Oh, sure. Would you agree that in addition to 
the additional services that you just talked about, for 
instance the costs that you are spending to try to help 
veterans, that competition to attract students through nicer 
dormitories and expanded sports programs are also contributing 
to the rising costs of post-secondary education?
    Mr. Carey. I think there are examples of that. And I think 
some of that is driven by demand from students today, which is 
different from when many of us were in college. So I think 
there is some validity to that.
    But I believe that colleges are getting smart about that, 
and they are not building a lot more climbing walls and palaces 
for residence halls. We do not do that on our campus. And in 
fact, as I pointed out, we have controlled costs, with 3.9 
percent being our maximum increase over the last 4 years. So I 
think all of higher ed must do the same thing: control costs, 
become more efficient.
    So I agree with you, Mr. Chairman, about that.
    Mr. Flores. Thank you, Dr. Carey.
    Mr. Takano, you are recognized for 5 minutes.
    Mr. Takano. Thank you, Mr. Chairman.
    Mr. Carey, I know that, just like RCC, Edgewood has a 
successful nursing program. Could you briefly tell me about the 
success of that program?
    Mr. Carey. I say we have the top program in the State of 
Wisconsin. We have a first-time passage rate of our nursing 
graduates over the last several years of 94 percent or higher. 
And employers are lined up to hire them. As for the students, 
that is one program where we have a waiting list. It is also 
very popular for our veterans to get into the nursing program.
    Mr. Takano. Can you tell me, does your institution have 
programmatic accreditation as well as regional accreditation?
    Mr. Carey. We do indeed. And that is just so important. 
Those students who graduate with an accredited degree can get 
the jobs. And if you don't have that accredited degree, you 
have a challenge.
    Mr. Takano. So you also have regional accreditation. Does 
that mean that your students can take their credits and 
transfer?
    Mr. Carey. Absolutely. We are accredited through the Higher 
Learning Commission. Different programs are also accredited. 
Our teacher ed is accredited through NCATE. There are 
individual accreditations for quite a number of the other 
programs, such as our nursing and music programs. But the 
umbrella is the Higher Learning Commission--what used to be 
called the North Central accrediting body.
    Mr. Takano. And what percentage of your budget is devoted 
to say education versus marketing or recruiting?
    Mr. Carey. Well, the direct costs of academics that we 
invest per student is just over $12,000 a year. Our tuition is 
about $24,000 a year. Now, that does not include any 
administrative costs. That is just everything related to the 
classroom and academic support. So that is not quite 50 percent 
going into the direct academic services.
    As for our recruiting costs, I don't have that broken out, 
but it is minimal. We don't have a special recruiter for 
veterans, for example. We just have our regular admissions 
office that works with all students.
    Mr. Takano. Mr. Gunderson, could you tell me how many of 
your association's schools do or do not have programmatic 
accreditation, and do or do not have regional accreditation?
    Mr. Gunderson. Obviously, I can't give you that exact 
number today, but we will provide that for the record to the 
best of our ability. We have the bulk of our schools--are 
nationally accredited. Many of those within those individual 
programs would be programmatically accredited. Some of our 
schools, as we move more into the BA and master's and post-
graduate programs, are obviously pursuing the regional 
accreditation, but I don't have those exact numbers.
    Mr. Takano. But for undergraduate education that you offer, 
are your schools typically regionally accredited?
    Mr. Gunderson. No. Because the bulk of our veterans, 75 
percent of our veterans, as we showed you in that survey, and I 
think 68 percent of all of our students are either in 
certificate and/or associate degrees, they are more likely to 
be accredited by national accreditors than they are regional 
accreditors.
    Mr. Takano. So what I am getting at, though, is that for 
those students who are undergraduates in your undergraduate 
programs, those credits are often not transferable to the 
regionally accredited institutions. Is that correct?
    Mr. Gunderson. Unfortunately, that is correct. And we would 
like to solve that as much as you would.
    Mr. Takano. My question is, on average, how much does your 
association's schools spend on education versus marketing and 
recruiting?
    Mr. Gunderson. Again, the best I can give you on that would 
probably be some data from the National Association for College 
Admissions Counseling. In 2011, their data showed that the main 
costs for an enrolled student of all colleges of higher 
education was $2,400. For public schools, it was $987. For the 
private non-profits, it was $3,042. For us it is about $3,800. 
It is a little higher because we obviously don't have the 
ability to use the high school guidance counselor as an 
opportunity to access to our students. The vast majority of our 
students are adult nontraditionals. We have to reach them on 
the streets, in their workplace. And we have a rough business 
equivalent, Mr. Takano, of the fact that one out of every 
hundred students who expresses an inquiry actually becomes a 
student. So it is a very different business model.
    Mr. Takano. My own experience as a high school teacher is 
that for profits are very effective at reaching the high school 
students, often deploying recruiters that community colleges 
could not afford. That is just my own observation. Would you 
support legislation to limit the legal amount spent on 
recruiting at some reasonable limit?
    Mr. Gunderson. Not the legislation I have seen thus far, 
because I think that legislation totally ignores the business 
model and the realities by which we operate. I mean, the 
reality is that if you are going to tell us that we can't reach 
the individuals in their place of work, their place of life, et 
cetera, we are not going to reach those students.
    And you know, we can redesign, Congressman, our programs in 
a way that fits traditional higher ed. We are nimble. We are 
quick. The problem with that is that the students we serve 
today, many of the students who, in all due respect, would 
never be accepted at Edgewood College, who loses? It is those 
students who otherwise have no opportunity for post-secondary 
education and career skills, which is so critical. Ninety-two 
percent of our students fit the nontraditional role, with 
multiple barriers to academic success. The question in America 
is, are we going to give those students an opportunity for real 
skills to get real jobs with real incomes?
    Mr. Takano. Mr. Chairman, I am sorry, my time is up.
    Mr. Flores. Thank you, Mr. Takano.
    Votes have been called. We have about 9 minutes left in 
order to wrap this panel up--or actually, I am going to propose 
we wrap the hearing up and get over to the House floor.
    So, Ms. Kirkpatrick, would you mind if I limited you to 
about 2 minutes?
    Mrs. Kirkpatrick. Not at all. Not at all. In fact, I was 
going to self-limit. My question is for Dr. Carey. And thank 
you for your service. You talked about Pell grants in the Post-
9/11 GI bill. Do most of your students, can that cover their 
costs or do they also have to take out student loans?
    Mr. Carey. Well, for the veterans, they have to take out 
almost no student loan whatsoever. But our typical 18-year old 
undergrad who is Pell eligible would take out a loan; they 
would also get a college work study award. So it would be a 
combination of financial aid for them.
    Mrs. Kirkpatrick. Okay. And Mr. Baime, do you agree with 
that, that most of the veterans can manage just with Pell 
grants and the GI bill?
    Mr. Baime. Absolutely, that is the case. Yes, they are not 
taking out loans. The figure nationally is about one-third of 
our full-time students take out loans. But very few veterans 
need to do that.
    Mrs. Kirkpatrick. And Mr. Baime, what do you find is the 
most requested information when a veteran is deciding whether 
to go to one of your institutions?
    Mr. Baime. Well, frankly, because of the nature of our 
institutions as being, you know, community colleges, and this 
is not something that is readily appreciated by many people, 
students don't undergo a comprehensive scanning of the 
environment of all the institutions, you know, even within 
their State. I mean, they tend to enroll in their local 
community college. So what we find most important, and I 
mentioned this in my testimony, is to make sure that we match 
that individual, who is returning from their service and wants 
to stay at home and be with their family, and perhaps even hold 
down a job at the same time, making sure that they get into the 
program that suits their abilities and their aptitudes and 
their future goals best for them. So it is not necessarily, 
again, between two community colleges or community college and 
a 4-year college, but it is which is program at that local 
institution are they going to choose?
    Mrs. Kirkpatrick. Thank you, Mr. Chairman.
    I yield back.
    Mr. Flores. Thank you, Ms. Kirkpatrick.
    The second panel is excused with our thanks. We are going 
to try something a little different, if we can.
    General Worley, we will call you to the table for just a 
moment. What we are going to do is to enter your written 
testimony into the record and to ask you, we are going to 
submit written questions to you and ask the VA to follow up.
    Since you are our neighbor more or less here in Washington, 
I think that may make some sense. So we will submit those 
questions to you a little bit later.

    [The prepared statement of Robert Worley appears in the 
Appendix]

    Mr. Flores. So, with that said, I ask unanimous consent 
that all Members have 5 legislative days in which to revise and 
extend their remarks and include any extraneous material 
related to today's hearing. And hearing no objection, so 
ordered.
    Finally, I want to announce that next week, this 
Subcommittee will be back in action, on June 26th, at 2 p.m., 
for a legislative hearing on several bills pending before the 
Subcommittee.
    I look forward to seeing many of you then.
    And without objection, this hearing is adjourned.

    [Whereupon, at 12:40 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

                 Prepared Statement of Hon. Bill Flores
    Good morning and welcome to our oversight hearing on The Value of 
Education for Veterans in Public, Private and For-Profit Colleges and 
Universities.
    There are many ways to define the word value. Merriam Webster's 
online dictionary offers several ways including:

    <bullet>  a fair return or equivalent in goods, services; or
    <bullet>  money for something exchanged; or
    <bullet>  the monetary worth of something; or
    <bullet>  the relative worth, utility, or importance

    All of those seem to fit; but to me, the relative worth, utility 
and importance concept seems the best fit for today's topic. That is 
because the benefits we offer through the GI Bill expand career 
opportunities relative to what is available without that education or 
training.
    In classical economic theory, the marginal utility of a good or 
service - in this case education - is the gain (or loss) from an 
increase (or decrease) in the consumption of that good or service. As 
you can see by the first slide, there is little doubt that increased 
levels of education generally result in lower unemployment rates and 
higher wages.
    Obviously, if the marginal utility of education is generally 
positive, its importance to the beneficiary rises. And beginning with 
the original WWII GI Bill, the relative worth, utility and importance 
has historically translated to a positive outcome for the participants 
and for society in general.
    So today, the question before us is whether the Post-9/11 GI Bill 
is meeting the goals of relative worth, utility and importance as 
provided through the various sectors of the post-secondary education 
industry. With that in mind, let's begin with the cost as shown on the 
next slide.
    As you can see, there is a wide variation in the cost of tuition 
and fees across the various sectors of the education industry. And 
those costs continue to escalate as shown by the next slide.
    So, the facts establish that there is significant financial utility 
to increased education but the trends in costs beg the question at what 
point - if any - will the average American family no longer be able to 
take advantage of college education opportunities.
    Clearly, the data shows that public colleges and universities have 
experienced the largest percentage increase but still remain highly 
cost-competitive with the other sectors. For private institutions, both 
non and for-profit must offer values other than cost to compete for the 
tuition dollar. I will leave it to them to present those values.
    I find the significant increase in enrollments in the for-profit 
sector interesting. While roughly double the public state resident 
tuition cost, for-profit tuition and fees are about half the average 
published cost of non-profit institutions. I realize the for-profit 
sector has come in for criticism recently, but there is clearly a place 
for them in the industry as exemplified by the rest of the industry's 
adoption of many of the for-profit models like satellite campuses, 
rolling enrollments, and on-line courses and degree programs.
    Regarding the potential criticism of for-profit institutions, I 
would note that there is no lack of oversight and regulation on the 
education industry. The VA, the Consumer Federal Protection Bureau, the 
Federal Trade Commission, the US Department of Education, state 
Attorneys General, state licensing agencies, state departments of 
education, State Approving Agencies, and Accrediting Associations all 
have the responsibility to police all sectors of higher education. In 
fact, Section 3696 of Title 38 requires VA and FTC to enter into an 
agreement on investigating allegations of unethical practices by any 
school regardless of the sector. I believe that requirement has been in 
place for decades and it is my understanding that interagency agreement 
is not yet in place.
    The only conclusion I can draw is that multiple government agencies 
- at all levels - have failed to monitor the education industry and 
enforce the statutes and regulations now in place.
    In closing, I hope this will be a positive and informative hearing 
that will explore the value each sector of our post-secondary education 
and training industry brings to the table.
    Before I recognize the distinguished Ranking Member, I ask 
unanimous consent to enter testimony from the College Board, the 
National Association of Veterans Program Administrators, the Reserve 
Officers Association, and the Wounded Warrior Project in the hearing 
record . . . .Hearing no objection, so ordered.
    I now recognize the Ranking Member for his opening remarks.

                                 <F-dash>
                 Prepared Statement of Hon. Mark Takano
    Thank you, Mr. Chairman.
    Good morning, I would like to thank everyone for joining us, and I 
would like to thank our witnesses for taking time to testify and answer 
our questions.
    Today, we are gathered to keep a promise to our veterans. It is the 
same promise we first made with the passage in l944 of the Servicemen's 
Readjustment Act, the first GI Bill. For veterans who want to pursue 
educational opportunity, our duty is to provide every encouragement 
because they have earned those benefits in honorable service to their 
country.
    Since May 1, 2009, the Post 9/11 GI Bill has afforded an education 
to 961,000 total beneficiaries. The government has spent over $28.7 
billion of which $12.9 billion went directly to educational 
institutions. The 112th Congress passed ``The Improving Transparency of 
Education Opportunities for Veterans Act of 2012,'' to develop a 
comprehensive plan to inform veterans and ensure that these funds are 
properly spent.
    Executive Order13607 holds scholastic institutions to a higher 
standard of ethics by establishing ``Principles of Excellence'' for 
data collection and student feedback. I look forward to hearing your 
testimony to determine if institutions are not only operating under 
these principles, but also how they are contributing to the lives of 
veterans and their educations.
    You are all here because you represent a resource in the higher 
education of our Nation's veterans. Suggestions have been made that 
additional protections are needed to improve oversight of the GI Bill. 
Your experience and institutional knowledge will help us in this work.
    I look forward to hearing from all the witnesses on what is working 
and what needs improvement.
    Again, thank you, Mr. Chairman, for holding this hearing. I look 
forward to the testimony and discussion we will have today.

                                 <F-dash>
               Prepared Statement of Cynthia Azari, Ed.D.
    Mr. Chairman, Members of the Subcommittee, thank you for inviting 
me to testify today regarding Veterans' services and programs at public 
colleges and the opportunities for veterans to be successful in higher 
education and preparing for the civilian workforce. My name is Dr. 
Cynthia Azari and I am President of Riverside City College, which is 
located in the Inland Empire of Southern California--a region that 
includes March Air Reserve Base (MARB), home to the Air Force Reserve 
Command's largest air mobility wing and units from the Army Reserve, 
Navy Reserve, Marine Corps Reserve, and Air National Guard.
    Riverside City College and its sister institutions, Moreno Valley 
College and Norco College, are each fully accredited by the Western 
Association of Schools and Colleges and part of the Riverside Community 
College District. The District encompasses a 450 sq. mile in 
southwestern Riverside County (adjacent to Los Angeles and Orange 
counties) and serves 1.4 million people. In addition to March Air 
Reserve Base, our service area includes the high-tech Naval Surface 
Warfare Center in Corona, and the expanding Riverside National 
Cemetery.
    It was important that I put the District and Colleges in context 
for the subcommittee because as of July 1, I will take office as 
interim chancellor. That upcoming responsibility informs my testimony 
today.
    Historically one of California's fastest growing regions, the 
Inland Empire was hit hard during the national recession, which 
resulted in significant loss of jobs, particularly in the real estate, 
construction and manufacturing areas. This followed an earlier 
sustained period of blue- and white-collar unemployment due to the BRAC 
realignments of March Air Force Base, Norton Air Force Base, and other 
Southern California military installations. Region-wide unemployment 
affects veterans as well as civilians, putting pressure on public 
community colleges to offer more educational advancement, career 
technical, and job retraining opportunities. We still have the highest 
level of unemployment in the nation. Today, nearly 150,000 veterans 
reside in Riverside County--the majority within RCCD's service area.
    As a public community college district, RCCD is an open access 
institution that serves a dynamic and diverse student population and 
communities: approximately 47% Hispanic, 27% White, 10% African 
American, 8% Asian/Pacific Islander, and 8% other or multiple 
ethnicities. The area's college-going rate hovers between 24-26%, well 
below state and national averages.
    In 2012, RCCD colleges' enrollments exceeded 33,000 students a 
semester. Like other California community college districts, we have no 
local authority to set tuition rates. The exception is with non-
resident tuition, which RCCD chose to set at the lowest rate afforded 
by the State Education Code. Otherwise, tuition levels are mandated by 
the State of California. Currently, that tuition is $46 per credit, 
which is lower than most, if not all the other 49 states. Still, 
college access and affordability is a problem for a majority of our 
students. More than 60% qualify for need-based financial aid such as a 
Board of Governor's Waiver or Pell Grant. This is not unexpected given 
that the average household income in Riverside County is $68,500 and 
the average annual wage $36,924--12% and 23%, respectively, below state 
averages.
    Having given you a brief overview of our District, the populations 
we serve, and some of the socio-economic factors affecting students, I 
would like to turn to the subject at hand: veterans.
    Some 1,200 veterans attend our three colleges each semester, 
roughly 3.5% of the District's total enrollment. That doesn't seem like 
a lot of students. But at a community college, every student is 
important. Why? Because, quite frankly, we are the first, last and best 
chance for most students. Being open to all, we are expected to serve 
all. We take that responsibility seriously.
    Veterans come to us with all the challenges faced by other 
students: academic unpreparedness, lack of a family tradition of 
college, financial and other difficulties. But they also are dealing 
with issues as a result of military service. And these issues differ 
greatly from those experienced by a traditional college student or even 
a civilian re-entry student. Post Traumatic Stress Disorder is a 
recognized issue; the VA estimates that 90% of combat veterans suffer 
its effects at some point. But veterans may also have other serious 
conditions such as elevated feelings of shame, anxiety and depression. 
As a result, colleges must serve veterans differently. That means new 
programs and services and even rethinking the basics such as ``How do 
veterans effectively transition into a civilian life from military 
duty?'' and ``How can we best introduce veterans to college life?''
    I am proud to say that Riverside City College and the District are 
advancing strongly on this front.
    Over the past two years, our colleges have developed several 
programs and services to better serve student veterans. These include:

    <bullet>  Each of RCCD's three colleges is authorized to certify 
veterans to receive benefits.
    <bullet>  Each college has Veterans' Resources Centers, either in 
place or in development, to assist with GI Bill and other VA education 
benefits and guidelines.
    <bullet>  Orientation sessions are specifically designed for 
veterans.
    <bullet>  ``Veteran friendly'' college guidance courses are offered 
now and, in the future, a Boots to Books Guidance 48 class.
    <bullet>  Every student veteran receives a Student Veteran 
Education Plan.
    <bullet>  Every veteran receives priority registration and priority 
transcript assessment and processing.
    <bullet>  The District maintains a disabled veterans' services 
program.
    <bullet>  Comprehensive Veterans' Services brochures, websites, and 
other VA and local agency information/fact sheets and consumer 
information are distributed to student veterans.
    <bullet>  A full-time Veterans' Services Coordinator (RCC) and 
designated Veterans' Services Counselors (all colleges) are available.
    <bullet>  Student Financial Services has an assigned liaison to the 
Veterans' Office to assist student veterans.
    <bullet>  Veterans' Services Committees coordinate student services 
support to better address student veterans' needs.
    <bullet>  Each college has a Veterans' Club. In the future, we will 
offer Veterans Serving Veterans mentor programs.
    <bullet>  RCC hosts an annual 5k Veterans' Run and other activities 
in support of veterans in STEM scholarships, and all of our colleges 
provide veteran-oriented activities.

    As mentioned above, one of the ways we help our student veterans is 
through scholarships and seeking external resources beyond state 
funding. In 2011, the RCCD Foundation received a $1.5 million endowed 
estate gift from a U.S. Navy veteran and his wife specifically to 
provide scholarships for student veterans. These funds are used 
primarily for books, equipment and other academic expenses. Over the 
last three years RCCD colleges also have secured 43 competitive federal 
grants, totaling $34.6 million. Among those is a million dollar grant 
that directly helps disabled veterans. Sixteen of the grants are 
designed to educate and prepare students for in-demand job fields, and 
the rest seek to improve access, retention and success rates for all 
students. Equally important, in 2011 RCC was one of 14 community 
colleges statewide to receive a Chancellor's Office grant to open a 
Veterans' Resources Center.
    One of the things we never forget is that a one-size education does 
not fit all of our students. While I can speak to several transfer 
success stories such as U.S. Marine Corps veteran Justin Scott who 
received a full scholarship as a ``Cyber Corps'' applicant at a 
California State University campus to former serviceman Antonio Silva 
who received two scholarships to study biochemistry at a four-year 
university to veteran Louise Daniels who received a full scholarship to 
a University of California campus to study physics, I also want to 
assure members of the subcommittee that we have a growing number of 
student veterans earning associate degrees and career certificates 
before heading directly into the workplace.
    Currently, RCC offers 73 different programs leading to certificates 
with 80% of those in core career technical areas. District-wide, more 
than 110 programs lead to two-year degrees or certificates. This past 
year, over 170 student veterans earned either a two-year degree or 
certificate at an RCCD college, with roughly 10 percent earning 
multiple degrees or certificates.
    Having comprehensive support services and programs in place for 
student veterans, as well as a wide variety of academic paths 
available, provides a strong foundation for success. But if student 
veterans are unaware these services and programs exist, few concrete 
results rise from those foundations.
    We applaud the efforts of Congress and the White House to ensure 
that veteran students have access to the best, and most comprehensive, 
information available so they can make informed education decisions. HR 
4057 and Executive Order 13607 clearly outline directions and 
requirements intended to secure, establish and maintain standards and 
consistency regarding access and educational services provided for 
student veterans.
    We believe that a couple of additional steps could help improve the 
flow of information and the experiences of student veterans.

    1. Refine the VA's eBenefits portal to allow colleges and 
universities to directly input veteran-specific or relevant 
information. This would provide wider and more seamless access to 
student veteran-relevant information versus relying solely on a higher 
education institution's ability to outreach directly to veterans. It 
would also permit veterans to readily access a comprehensive database 
of educational options available to fit their specific interests and 
needs. One major benefit is that the information presentation would be 
standardized, permitting veterans to directly compare academic services 
and programs offered within their geographical area. In addition, this 
system would permit a more accessible and comprehensive review by VA 
administrators and others to assess compliance with HR 4057 and 
Executive Order 13607.

    2. Adapt VMET, Verification of Military Experience and Training 
Program, to provide guidelines to help accredited colleges evaluate 
standards for granting equivalency for credit courses. Right now, VMET 
is oriented toward generating transcripts and providing job search 
support. By eliminating course evaluation obstacles, we are confident 
that colleges can improve education-to-career pathways for student 
veterans.

    3. Change VRAP, Veterans Retraining Assistance Program, by 
extending the benefits from a one-year period to two years. The 
majority of our student veterans attend college part-time making it 
difficult, if not impossible, to complete a certificate program in 12 
months.

    4. Increase federal grant opportunities specifically designed to 
address ways in which higher educational institutions provide services 
to veterans. While the GI Bill provides the veteran with a way to pay 
for his or her education, these competitive grants would provide a 
means for colleges and universities to expand veteran-specific services 
and programs, develop new veteran-oriented initiatives, and establish 
best practices and models that could be replicated across the nation. 
What is desperately needed is funding mechanisms--similar to Title V 
grants--that would assist colleges in developing and advancing student 
veteran learning communities.

    5. Pass H.R. 331. Authored by Subcommittee Ranking Member Mark 
Takano and Congressman Ken Calvert, H.R. 331 would permit the 
centralized reporting of veteran enrollment by accredited educational 
institutions within the same district. We understand the bill is 
scheduled for consideration on June 26th.

    Mr. Chairman, that concludes my testimony. On behalf of Riverside 
City College and Riverside Community College District, I would like to 
thank the members of the subcommittee for giving me the opportunity to 
speak today. It has been a great honor. I would be happy to take any 
questions.
Executive Summary
    Riverside City College president and interim chancellor designee of 
Riverside Community College District in Southern California is 
scheduled to present testimony before the subcommittee on June 20, 
2013. Dr. Azari's testimony focuses on how one public community college 
district provides services and programs to student veterans, as well as 
the affect of H.R. 4057 and Executive Order 13607 on the institution's 
ability to provide such services.
    As one of California's largest community college districts 
responsible for a service area of 450 sq. miles and 1.4 million people, 
RCCD operates three fully accredited colleges with combined enrollments 
of 33,000 a semester--approximately 1,200 of whom are veterans. Two 
major military facilities are located in that service area--March Air 
Reserve Base and a Naval Surface Warfare Center--along with the 
Riverside National Cemetery. The District serves a diverse student 
population--many of whom are first-time college students--that mirrors 
the larger community. The region's college-going rate and socio-
economic levels are lower than the state averages, while the 
unemployment rate exceeds state and national averages.
    RCCD's three colleges have put several programs in place to better 
serve veterans and have attracted six-figure private donations and 
federal grants to directly serve veterans. This external funding is 
used to fund and expanded veterans' programs, services, and 
scholarships. As a result, RCCD student veterans benefit from veteran-
specific orientation, counseling, education planning, offices and 
centers, and other support activities.
    In 2012, more than 170 student veterans graduated with degrees and/
or certificates. Over 10% of these veterans earned multiple degrees or 
certificates--most oriented toward high-demand jobs in the workplace. 
Based, in part, upon its experiences in serving student veterans, the 
District proposes five primary suggestions for improving the efficacy 
of H.R. 4057 and Executive Order 13607, which it believes will lead to 
greater access, retention and success for student veterans. These 
include the passage of H.R. 331, authored by the Subcommittee Ranking 
Member Mark Takano and Congressman Ken Calvert.
    Riverside City College, Moreno Valley College, Norco College and 
the District look forward to continuing to work with elected officials 
and government agencies to improve and implement services and programs 
for veterans.

                                 <F-dash>
               Prepared Statement of Dr. Michael R. Smith
    Chairman Flores and distinguished members of the Subcommittee on 
Economic Opportunity of the House Committee on Veterans' Affairs, my 
name is Mike Smith, and I serve as Vice Provost for Strategic Academic 
Initiatives at the University of Texas at El Paso. It is my great honor 
to appear before this House subcommittee to testify on ``The Value of 
Education for Veterans at Public, Private and For-Profit Colleges and 
Universities.'' On behalf of UTEP, I would like to thank you for this 
opportunity to be with you today.
    The University of Texas at El Paso is deeply committed to the 
success of our military-affiliated students and to providing them with 
outstanding value in pursuit of their post-secondary educational goals. 
UTEP has a deep and long-standing connection with the United States 
military. Indeed, UTEP was founded on the grounds of the Fort Bliss 
Military Institute in 1914 and has shared the City of El Paso with Fort 
Bliss ever since. The University of Texas at El Paso honors the service 
and sacrifice of our more than 1,500 military-affiliated students, who 
include approximately 175 active duty service members, 650 veterans, 
and 500 military children and spouses.
    The University of Texas at El Paso is a comprehensive, research 
university of more than 23,000 students. Mirroring the population of 
the El Paso region from which 83% of its students come, 77% of UTEP's 
students are Hispanic, and nearly 50% of its undergraduates report a 
family income of $20,000 or less. Despite the socioeconomic challenges 
of the region, UTEP has found ways to provide both access and 
excellence for its students. Over the past decade, for example, degree 
completions have grown dramatically at UTEP, with an 85% increase in 
undergraduate degrees awarded over the past decade. As a result, UTEP 
now consistently ranks among the top three universities nationally in 
the number of Hispanic graduates per year in nearly every disciplinary 
area.
    Even while maintaining its access mission, however, UTEP's research 
expenditures have increased steadily to more than $76 million last 
year, which places UTEP fourth among all Texas public universities in 
federal grant funding. UTEP's success in serving as a catalyst for 
human and economic development and quality of life in the region also 
has earned it a place in the national spotlight as model 21st century 
research university with a firm commitment to access and excellence. In 
last year's Washington Monthly magazine rankings, which seek to assess 
an institution's impact on the social mobility of the students it 
serves, its research and doctoral degree productivity, and its 
commitment to serving the region in which it is located, its state and 
the nation, UTEP was ranked #12 overall among all U.S. universities and 
colleges --between #11 Harvard and #13 Michigan--, and in the social 
mobility ranking, UTEP ranked #1 among all U.S. universities for our 
success in enabling students from all backgrounds and cultures to 
achieve the American Dream.
    Providing U.S. military personnel and veterans with the ability to 
achieve academic, professional, and career success is likewise integral 
to the mission of UTEP. UTEP's military-affiliated student population 
has grown by more than 120% in the last five years - from 713 students 
in the fall of 2008 to more than 1,500 students today, and over the 
last decade, UTEP has graduated almost 2,250 of these students. At the 
same time, UTEP has invested in and strengthened the services that it 
provides to our military students. UTEP is a member of the Service 
Members Opportunity College Consortium, a network of more than 1,900 
accredited colleges and universities that follow the principles of good 
practice outlined in the Joint Statement on the Transfer and Award of 
Credit and which have adopted flexible academic residency requirements 
and processes to ensure that service members and veterans receive 
appropriate transfer credits for specialized military training and 
occupational experiences. UTEP is also a member of the Department of 
Veterans Affairs Yellow Ribbon Program and provides matching tuition 
assistance with the VA to help out-of-state veterans obtain an 
affordable college education at UTEP.
    In April of this year, UTEP renamed and re-dedicated what is now 
known as its Military Student Success Center. The Military Student 
Success Center serves as a central point of coordination for support 
services, with a goal of easing veterans' transition to campus life, 
increasing retention, enhancing achievement of educational and career 
goals, and improving quality of life by augmenting pre-existing 
services and support with newly-created programming specifically 
developed to meet the needs of military-affiliated students. Staffed 
with knowledgeable and well-training counselors, the Military Student 
Success Center serves as a single point of contact for UTEP's military 
student population and provides or facilitates the provision of 
services ranging from admissions to financial aid and from academic and 
career counseling to assistance with filing for VA benefits or Tuition 
Assistance.
    UTEP is providing national leadership in military education by 
facilitating the transferability of credits by service members. The 
University recently received a $1 million planning grant from the 
Kresge foundation to create a network of public universities across the 
country that will ease the transferability of college credits. Members 
of the AIMS network will eventually enter into articulation agreements 
that will recognize credits earned at partner institutions and 
seamlessly transfer them to a university in the network that is close 
by a soldier's assigned duty station. Closer to campus, five of our 
military students were recently selected to participate in the 
University's award-winning 21st Century Scholars Program where they 
participated in an interactive leadership workshop, networking luncheon 
with key El Paso-area employers, and ongoing engagement as University 
ambassadors during high profile events on campus.
    UTEP is honored to serve its military-affiliated students as they 
and their families have served the nation. We appreciate the character, 
work ethic, maturity, and perspective that these students bring to our 
campus, and we are committed to ensuring their success at UTEP as we 
are committed to ensuring the success of all of our students.
    Today, I have been asked to review progress in implementing the 
provisions of House Bill 4057, now Public Law 112-249, as well as the 
provision of Executive Order 13607. I'll begin by discussing the 
Executive Order establishing Principles of Excellence for educational 
institutions that serve military students, veterans, and their family 
members.
    One challenge for universities in complying with the Executive 
Order 13607 is to create automated processes for integrating various 
electronic data systems in order to produce individual student-level 
estimates of costs and debt as required by the Principles of 
Excellence. For example, every military-affiliated student comes to 
UTEP with a unique set of variables that affects how much the student 
can expect to pay for a degree and what the student's financial aid 
profile may look like. Currently, generating a reasonably accurate 
estimate of net costs for an individual student is a manual process 
that is labor intensive and therefore expensive. As UTEP's military 
student population has grown over the last five years, the need to 
create automated processes to produce reliable net cost estimates at 
the student level has become a necessity.
    I am pleased to report that UTEP will formally adopt the Principles 
of Excellence in the very near future. The University is in the final 
stages of integrating its student records and financial aid systems 
with the Department of Education's Student Shopping Sheet to provide 
our military-affiliated students with a customized, clear, and easily 
understood estimate of their tuition and fees, Title IV financial aid, 
and VA benefits or military Tuition Assistance. These data, along with 
University metrics such as the six year graduation rate, loan default 
rate, and median borrowing level of UTEP students, will be soon be 
available to our military-affiliated students on a single page 
accessible through a convenient web portal.
    With respect to the other major provisions of Executive Order 
13607, compliance by universities, including UTEP, is more easily 
accomplished. For example, UTEP has policies in place for the 
readmission of service members due to deployment or other military 
duties, it has institutional refund policies that are aligned with the 
Department of Education's Title IV rules, and all students can access 
the University's CAPP system to view their degree programs and progress 
toward their degrees. UTEP does not now nor has it ever engaged in 
fraudulent or unduly aggressive recruiting practices for any student, 
including our military-affiliated students, and the University follows 
all requirements of its regional accreditor, the Southern Association 
of Colleges and Schools, for approval of new courses and programs. In 
sum, implementation of the Principles of Excellence by universities is, 
in most cases, fairly straightforward. Providing individualized net 
cost estimates for service members and veterans is more complex, and 
for universities with significant military student populations, long-
term implementation of Executive Order 13607 may require integrating 
student records, financial aid, and military education benefits systems 
to generate accurate net cost estimates for students, which may change 
during the course of a student's journey towards a degree. UTEP is 
committed to full implementation of the Principles of Excellence, 
supports the goals embodied in Executive Order 13607, and intends to 
formally certify its compliance with the Principles of Excellence in 
the near future.
    With respect to Public Law 112-249, passed by the 112th Congress 
and signed into law by the President on January 10, 2013, the Veterans 
Benefits Administration recently released its report to Congress in 
which it makes several policy recommendations for implementing this new 
statute. These recommendations include:

    1) The Vocational Rehabilitation and Employment (VR&E) Service will 
conduct an outreach campaign to raise awareness about Chapter 36 
Educational vocational counseling and make the application available 
online.

    2) The Education Service will modify an existing system or build a 
new system to publish positive and negative feedback about IHLs on 
gibill.va.gov.

    3) The Education Service will coordinate information sharing 
between the state approving agencies and National/Regional accrediting 
agencies.

    4) The Education Service will initially utilize College Navigator 
to provide information regarding post-secondary education and training 
opportunities. A long-term approach will be a permanent centralized web 
application that will provide resources for beneficiaries to compare 
the cost of attending different schools.

    5) The Education Service will collaborate with the Vocational 
Rehabilitation and Employment (VR&E) Service to utilize CareerScope as 
an academic readiness tool.

    Although this statute is new and its implementation is still 
evolving, I would like to comment on its provision for reporting 
student and state approving agency feedback on quality of instruction, 
recruiting practices, and post-graduation employment placement by 
institutions of higher learning. Student feedback is certainly helpful 
and may aid future students in making useful comparisons among 
institutions. I respectfully recommend that the Veterans Benefits 
Administration develop a standardized set of metrics for reporting 
student feedback on all areas identified in the statute. These 
standardized metrics are particularly important for gauging quality of 
instruction because student perceptions of instructional quality are 
idiosyncratic and can be influenced by the grade received in a course. 
Perhaps utilizing a web-based portal, military-affiliated students at 
institutions that accept VA benefit dollars or DOD tuition assistance 
could be asked a series of questions about recruiting contacts, career 
placement services offered or utilized, and perceptions of instruction. 
The results from this web-based survey could then be aggregated and 
reported for categories of institution along with student response 
rates. In contrast, simply reporting the number of complaints or 
cataloging qualitative comments about an instructor or a course are not 
valid mechanisms for comparing quality across types of institutions.
    Once aggregate responses to standardized questions are compiled, 
Public Law 112-249 allows institutions of higher learning to ``address 
issues regarding feedback before the feedback is published.'' In 
practice, colleges and universities should be permitted to respond 
annually in writing to the survey findings, and those responses should 
be made publicly available alongside the survey findings themselves. 
With a process such as this in place, military-affiliated students can 
make meaningful comparisons among institutions with similar missions.
    Beginning in the mid-1980s, the costs of higher education have 
steadily shifted from the public at large to the individual student and 
his or her family. The National Center on Public Policy and Higher 
Education reports that the price of college tuition and fees grew by 
almost 450% between 1982 and 2006, far outstripping other major indices 
and expenditure categories including the Consumer Price Index and the 
cost of food, housing, transportation, and health care. At the same 
time, state and local expenditures on higher education have been 
steadily declining to an average of $5,896 per student last year, the 
lowest level of expenditure in 25 years. The combination of increasing 
costs, decreasing state support, and rising tuition and fees is 
unsustainable.
    Across the nation, state-supported universities have responded to 
these pressures by reducing student services, increasing class sizes 
and teaching loads, capping or reducing enrollments, and relying more 
heavily on less expensive part-time and adjunct faculty. Like many 
other institutions, the University of Texas at El Paso has felt the 
effects of state budget reductions but remains deeply committed to its 
mission of access and excellence. UTEP remains an outstanding value for 
all of its students, including its service members, veterans, and their 
families. According to the U.S. Department of Education, the national 
average net price for a public four year institution was $10,471 in AY 
2009-10. UTEP's net price of only $2,066 placed it as the 12th most 
affordable public four year university in the nation. And among the 
eight emerging research institutions in Texas, UTEP has the lowest 
average tuition fees. Military-affiliated students at UTEP have access 
to outstanding engineering and STEM programs and nationally-recognized 
faculty while attending one of the most affordable public universities 
in the nation. While not immune to the pressures of rising costs and 
diminishing public investment, UTEP has worked diligently to keep its 
tuition and fees affordable while maintaining its commitment to high 
quality instruction and cutting-edge research.
    On behalf of President Diana Natalicio and the University of Texas 
at El Paso, I would like to thank the Subcommittee for this opportunity 
to discuss the value of higher education for our service members and 
veterans. We honor their service and sacrifice and are committed to 
ensuring their success at UTEP.
Executive Summary
    The University of Texas at El Paso is deeply committed to the 
success of our military-affiliated students and to providing them with 
outstanding value in pursuit of their post-secondary educational goals. 
UTEP is one of the most affordable public universities in the nation 
and was ranked first in the nation by Washington Monthly Magazine for 
increasing the social mobility of its graduates.
    UTEP's military-affiliated student population has grown by more 
than 120% in five years. At the same time, UTEP has invested in and 
strengthened the services that it provides to its military students and 
their family members. Its Military Student Success Center serves as a 
central point of coordination for support services on campus, with a 
goal of easing veterans' transition to campus life, increasing 
retention, enhancing achievement of educational and career goals, and 
improving quality of life by augmenting pre-existing services and 
support with newly-created programming specifically developed to meet 
the needs of military-affiliated students.
    In the near future, UTEP will formally ratify the Principles of 
Excellence embodied in Executive Order 13607. The University is in the 
final stages of integrating its student records and financial aid 
systems with the Department of Education's Student Shopping Sheet to 
provide our military-affiliated students with a customized, clear, and 
easily understood estimate of their tuition and fees, Title IV 
financial aid, and VA benefits or military Tuition Assistance. These 
data, along with University metrics such as the six year graduation 
rate, loan default rate, and median borrowing level of UTEP students, 
will be soon be available to our military-affiliated students on a 
single page accessible through a convenient web portal.
    As required by Public Law 112-249, obtaining and publishing student 
feedback on quality of instruction, recruiting practices, and post-
graduation employment placement by institutions of higher learning is 
an important goal. The Veterans Benefits Administration should develop 
a standardized set of metrics for reporting student feedback in these 
areas and permit institutions of higher learning to respond annually in 
writing to student survey findings. A process that standardizes student 
feedback and publishes responses by colleges and universities will 
allow military-affiliated students to make meaningful comparisons among 
institutions with similar missions.
    While higher education costs have outstripped median income and 
Consumer Price Index growth for more than 20 years, UTEP's net price 
makes it the nation's 12th most affordable public four year university. 
Military-affiliated students at UTEP have access to outstanding 
engineering and STEM programs and nationally-recognized faculty while 
attending one of the most affordable public universities in the nation.

                                 <F-dash>
                  Prepared Statement of Michael Dakduk
    Chairman Flores, Ranking Member Takano and members of the 
subcommittee:
    Thank you for inviting Student Veterans of America (SVA) to 
participate in this hearing to discuss the President's Executive Order 
13607, otherwise known as the Principles of Excellence and Public Law 
112-249. We are particularly grateful for this opportunity to provide 
the subcommittee with new developments on tracking student veteran 
outcomes to better define student veteran success.
    Student Veterans of America (SVA) is the largest and only national 
association of military veterans in higher education. Our mission is to 
provide military veterans with the resources, support, and advocacy 
needed to succeed in higher education and after graduation. We 
currently have over 800 chapters, or student veteran organizations, at 
colleges and universities in all 50 states that assist veterans in 
their transition to and through higher education. SVA chapters are 
organized at four-year and two-year public, private, nonprofit, and 
for-profit institutions of higher learning providing us with a distinct 
perspective on veterans earning post-secondary credentials.
    SVA has been involved in the efforts to improve consumer 
information and consumer protections for student veterans since late 
2011 and more formally in early 2012. In January of last year, SVA was 
a key contributor and signatory of a coalition letter, authored by the 
VFW, calling for executive and congressional action to inform and 
protect veterans in higher education \2\. The letter culminated with 
the issuance of Executive Order 13607 and the passage of H.R. 4057, a 
bill introduced by Rep. Gus Bilirakis and now Public Law 112-249.
---------------------------------------------------------------------------
    \2\ VFW Hill Blog. ``VFW Builds Coalition to Support Student-
Veteran Success,'' February 12, 2012. http://thevfw.blogspot.com/2012/
02/vfw-builds-coalition-to-support-student.html.
---------------------------------------------------------------------------
    A key component of 13607 is the call to track student veteran 
academic success rates. According to Executive Order 13607 Section 3c, 
the Secretaries of Defense, Veterans Affairs, and Education are to 
track student outcomes, to the extent practicable, utilizing existing 
administration data \3\. The tracking of student veteran outcomes is 
critical to identifying the academic success of veterans and those 
programs and services that lead to higher success rates. This allows 
Congress to better allocate resources to programs and services of 
value.
---------------------------------------------------------------------------
    \3\ Barack Obama. ``Establishing Principles of Excellence for 
Educational Institutions Serving Service Members, Veterans, Spouses, 
and Other Family Members,'' Executive Order 13607, 27 April 2012, 
http://www.gpo.gov/fdsys/pkg/FR-2012-05-02/pdf/2012-10715.pdf.
---------------------------------------------------------------------------
    However, both the executive and congressional action do not go far 
enough with regard to tracking veteran and servicemember outcomes. 
Given that data on veteran and servicemember outcomes has never been 
tracked, we remain concerned that existing administrative data remains 
flawed, or minimal, at best.
    National level data on student veterans has been difficult to find, 
analyze, and interpret due to poor collection methods, narrow inclusion 
criteria, and mistakes in correctly identifying student veterans. Most 
traditional federally maintained post-secondary databases exclude a 
portion of the student veteran population while including other 
military populations in their databases, making accurate tracking of 
student veteran academic outcomes difficult.
    Through the National Center of Education Statistics (NCES), the 
Department of Education has established the traditional method of 
tracking post-secondary student outcomes. The NCES maintains several 
databases that contain information on post-secondary students collected 
from institutes of higher education and financial aid records. However, 
many of the NCES databases have serious flaws in tracking student 
veteran outcomes, mostly due to issues with properly identifying 
student veterans.
    The Integrated Postsecondary Education Data System (IPEDS) is the 
database most frequently used to track post-secondary student outcomes. 
IPEDS is a collection of interrelated annual surveys sent to every 
college, university, and technical and vocational institution that 
participates in the federal student financial aid programs. These 
schools are required to report data on enrollments, program 
completions, graduation rates, and institutional data. However, IPEDS 
only collects data on first-time, full-time students entering in the 
fall term. IPEDS excludes all students who transfer schools, start at 
community colleges then transfer to a 4-year university, temporarily 
withdraw from school for personal or military-related reasons, attend 
part-time at some point in their academic career, and students whose 
degree goals are Associate level degrees, job training, or vocational 
certificates.
    A second NCES database that contains information on student 
veterans, the National Postsecondary Student Aid Study (NPSAS), is also 
problematic. The NPSAS is a comprehensive research dataset on post-
secondary student demographics, financial aid, and enrollment. The 
primary weakness with the NPSAS lies in its method of identifying 
student veteran populations. NPSAS primarily uses the Federal 
Application for Financial Student Aid (FAFSA) in classifying samples as 
active duty servicemembers or veterans, with student interviews and 
institutional records to supplement data. The FAFSA contains two 
questions about military service. The first asks if the applicant is 
currently serving on Active Duty in the U.S. Armed Forces. The second 
question asks if the applicant is a veteran of the U.S. Armed Forces.
    These questions are too narrow, excluding or misidentifying a 
portion of military servicemembers or veterans who served. For example, 
a deactivated reservist can be activated and deployed for duty, return 
home, deactivated and still remain a reservist while attending school. 
They are eligible for some Department of Veteran Affairs education 
benefits but would not be classified as ``currently serving on Active 
Duty'' or as a veteran and therefore would be excluded from NPSAS based 
on their responses on the FAFSA. A second example is a servicemember in 
the Individual Ready Reserve who enrolls in college while in the 
process of separating from the military after serving on Active Duty. 
This group would be misidentified and excluded using the questions on 
the FAFSA; they may not identify as veterans, nor are they serving on 
Active Duty. In addition, because GI Bill benefits are administered by 
the Department of Veterans Affairs and are not included in Title IV 
funding under the Higher Education Act (HEA) student veterans are not 
required to complete and submit a FAFSA to receive GI Bill benefits. As 
a result, student veterans who do not complete and submit a FAFSA are 
excluded from the NPSAS database.
    Finally, the Department of Education databases to track student 
veterans are further complicated by their use of a broad definition of 
veterans' education benefits. Under Title IV of the Higher Education 
Act, veterans' education benefits include Reserve Officer Training 
Corps (ROTC) scholarships, Department of Defense Tuition Assistance 
Program funds, and Survivors' and Dependents' Educational Assistance 
Program benefits, as well as GI Bill benefits, making it difficult to 
separate student veterans from other groups using funding under this 
section \4\.
---------------------------------------------------------------------------
    \4\ Higher Education Technical Corrections. Pub. L. No. 111-39, 
111th Cong., 1st Sess. (July 1, 2009) http://www.gpo.gov/fdsys/pkg/
PLAW-111publ39/pdf/PLAW-111publ39.pdf.
---------------------------------------------------------------------------
    In contrast to the Department of Education, the Department of 
Veterans Affairs is able to identify nearly every student veteran, but 
has only recently been instructed, through Executive Order 13607, to 
track and collect information on student veteran outcomes. The 
Department of Veterans Affairs has a responsibility to disburse student 
veterans' tuition payments to schools after enrollment has been 
verified. In order to meet this responsibility, the Department of 
Veterans Affairs only collects information on what institutions the 
student attends, and how much remaining benefits the student has left 
to use. It is difficult to accurately translate this data into student 
veteran academic outcomes. Examples of shortfalls may include student 
veterans who have used all of their education benefits but have not 
completed their post-secondary education or vocational program, while 
student veterans who have not used all of their education benefits may 
have completed or reached their post-secondary education and vocational 
goal. However, as previously stated, Executive Order 13607 directs the 
Department of Veterans Affairs, in concert with other government 
agencies, to begin collecting data on student veterans' academic 
outcomes to the greatest extent possible under current law.
    Aside from Federal databases, results and datasets from national 
surveys, specifically the 2010 National Survey of Veterans (NSV) and 
the American Community Survey (ACS), have been used to track student 
veteran outcomes. Both surveys contain information of the participants' 
veteran status and education; however, both also have flaws that make 
their results difficult for policymakers and stakeholders to use for 
discussion and decision-making.
    The 2010 NSV is a survey conducted by Westat for the Department of 
Veterans Affairs to collect information on beneficiaries' knowledge and 
use of benefit programs. Among several other topics the survey includes 
completion of education goals, reasons for not using available 
education benefits, veterans' knowledge of education benefits available 
to them, and the frequency of usage of education benefits among 
beneficiary groups. Westat used the Department of Veterans Affairs 
database, the Department of Defense database, and a randomized 
residential address list from the U.S. Postal Office to obtain a 
nationwide representative sample. A flaw of the 2010 NSV is the lack of 
detailed survey questions regarding education or vocation completion. A 
single question on the survey asks respondents if they have completed 
the program for which they have used VA Education benefits. This is a 
broad question that can be interpreted in various ways and may have a 
high risk of misinterpretation, such as participants replying no if 
they finished their program after having used all of their benefits.
    The 2010 NSV potentially offers a better estimate of post-secondary 
completion rates for all student veterans than the Department of 
Education and the Department of Veterans Affairs databases; however, 
the results become weaker when conducting detailed analyses, such as 
investigating completion rates of student veterans who separated from 
the military after 2001. The sample size for this group is quite 
smaller, resulting in weaker conclusions. A second weakness is the 
survey's reliance on self-reported data that can result in participants 
misrepresenting their achievements, both intentionally and 
unintentionally. Another flaw is that the NSV is typically conducted 
every ten years, making the results less relevant and difficult to 
interpret over time.
    A second national survey is the American Community Survey (ACS) 
from the United States Census Department. The ACS collects information 
on a wide range of demographics, including age, sex, income and 
benefits, education, and veteran status using mail, telephone, and 
personal interview for data collection. A strongpoint of the ACS is its 
use of a large, national sample size making the results representative 
and generalizable.
    However, the ACS also has several flaws in tracking student veteran 
outcomes. First, when asking participants to describe the highest level 
of education they have attained, the ACS combines ``some college'' and 
``Associate degree'' into one category, making results difficult to 
interpret. Without follow-up questions regarding current enrollment, it 
is difficult to account for the number of student veterans still 
enrolled in post-secondary educational programs versus those that 
withdrew. Additionally, ACS does not include a survey question 
regarding vocational or on-the-job training programs that veterans may 
use their educational benefits towards. It is unclear if student 
veterans would equate these programs as ``some college'' or choose 
``high school diploma only.'' The lack of data on veterans' military 
service in the ACS is another weakness. Without this data it is not 
possible to ascertain when a student veteran separated from the 
military and started their post-secondary studies, thus making it 
difficult to conduct detailed analysis on student veteran outcomes.
    Compared with the Department of Education alone, the Department of 
Veterans Affairs database, the 2010 NSV, and the ACS offer a better 
identification of the student veteran population leading to a better 
estimate of student veterans' academic outcomes. However, the 
Department of Veterans Affairs database, the 2010 NSV and the ACS were 
not primarily designed to measure or track post-secondary academic 
outcomes like the Department of Education databases. All of these 
databases and surveys have flaws making it difficult to accurately 
track and measure student veteran post-secondary outcomes at the 
national level.
    The flaws summarized in this testimony contribute to confusing 
results and misleading perceptions of student veteran success. The 2010 
NSV reports student veteran post-secondary completion rate at 68% \5\; 
the ACS reports 56% of veterans' have completed at least some college 
or higher; \6\ the NCES reports the six-year completion rate for 
student veterans starting in 2003 was 36% with a margin of error of 
11.5% \7\. It is evident that the current systems for tracking student 
veteran post-secondary outcomes are inefficient and inadequate. It 
fosters confusion, contradiction, and lacks clarity.
---------------------------------------------------------------------------
    \5\ Westat. National Survey of Veterans, Active Duty Service 
Members, Demobilized National Guard and Reserve Members, Family 
Members, and Surviving Spouses. Final Report, Rockville, MD: Westat, 
2010. Retrieved from http://http://www.va.gov/vetdata/docs/
SurveysAndStudies/NVSSurveyFinalWeightedReport.pdf.
    \6\ U.S. Census Bureau. ``Table B21003: Veteran status by 
educational attainment for the civilian population 25 years and over. 
2007-2011 American community survey 5-year estimate,'' Accessed June 
13, 2013. http://factfinder2.census.gov/faces/tableservices/jsf/pages/
productview.xhtml?pid=ACS--11--5YR--B21003&prodType=table.
    \7\ U.S. Department of Education, National Center for Education 
Statistics, ``Six-year attainment rate at any institution among all 
first-time beginning students,'' 2003-04 Beginning Postsecondary 
Students Longitudinal Study, Second Follow-up, April, 2009. Accessed 
June 13, 2013. http://nces.ed.gov/surveys/npsas/xls/F09--VETERAN--
PROUT6B.xlsx.
---------------------------------------------------------------------------
    To accurately measure and track student veteran academic outcomes, 
a database would have to be constructed that addresses the flaws found 
in the current databases and surveys. The database would first have to 
be able to accurately identify current student veterans, excluding 
veteran dependents and Active Duty service members enrolled in post-
secondary programs. Second, it would need to be able to track student 
veterans' enrollment at the individual level, so that student veterans 
are not excluded due to transferring schools or taking a break from 
college. Third, it would need to be routinely updated so that the data 
remains relevant and informative to policymakers and stakeholders.
    These criteria form the foundation for the Student Veteran 
Attainment database, a database created out of a partnership between 
the Student Veterans of America, Department of Veterans Affairs, and 
the National Student Clearinghouse (NSC) that aims to, for the first 
time in history, accurately track and measure student veteran academic 
outcomes at the national level.
    The initial design of the Student Veteran Attainment database 
utilizes the veteran education beneficiary information from the 
Department of Veterans Affairs to identify student veterans. The NSC 
collects individual student enrollment data from institutions of higher 
education, providing accurate enrollment and completion data at the 
individual student level even if a student transfers schools or stops-
out. By cross referencing veteran education benefit eligibility with 
individual post-secondary education enrollment history housed in the 
NCS, the Student Veteran Attainment database will liberate existing 
data on student veteran completion rates.
    This preliminary database is focused on developing an accurate 
method to capture student veteran degree attainment and completion 
rates. In addition, the partnership and database has the potential to 
expand to include research into student veteran persistence rates. The 
analysis of student veteran persistence creates new areas of 
investigation, such as time of withdrawals and duration of stop-outs, 
which could lead to focused programs and services aimed at increasing 
student veteran post-secondary persistence.
    Last year an MSNBC online news article reported 88% of student 
veterans do not complete their post-secondary education goals \8\, a 
``statistic'' that was later repeated in a Huffington Post article \9\. 
This rate has not been substantiated or replicated in other research, 
and the report's source has never been found despite the best efforts 
of SVA and other researchers. Currently, policymakers and stakeholders 
are making decisions affecting student veterans with flawed data that 
does not give a clear picture of student veterans' post-secondary 
success. This harms institutions of higher education that are dedicated 
to serving student veterans, it harms the Veteran Service Organizations 
that work to support student veterans, and most unfairly, it harms the 
student veterans themselves.
---------------------------------------------------------------------------
    \8\ Briggs, Bill, ``Thousands of veterans failing in latest 
battlefield: college,'' MSNBC, July 2, 2012. Accessed June 13, 2013. 
http://usnews.nbcnews.com/--news/2012/07/02/12509343-thousands-of-
veterans-failing-in-latest-battlefield-college?lite.
    \9\ Wood, David. ``Veterans' college drop-out rate soars.'' 
Huffington Post, Oct 25, 2012. Accessed June 13, 2013. http://
www.huffingtonpost.com/2012/10/25/veterans-college-drop-out--n--
2016926.html.
---------------------------------------------------------------------------
    Establishing an accurate database to track student veteran academic 
outcomes is the first step we need to take, not the last. Accurate data 
will allow student veterans to use their limited resources in more 
effective ways, increasing completion rates and making the return on 
investment of the GI Bill rise in parallel. Once we have an accurate 
national rate of post-secondary completion established, then we can 
explore programs and services that increase those rates, we can help 
colleges and universities better serve those veterans, and we can 
better support student veterans as they work to earn their degrees.
    Thank you Chairman Flores, Ranking Member Takano, and distinguished 
members of the subcommittee for allowing Student Veterans of America to 
present our views on efforts focused on supporting veterans, military 
servicemembers, and their families.
                               References
    Barack Obama. ``Establishing Principles of Excellence for 
Educational Institutions Serving Service Members, Veterans, Spouses, 
and Other Family Members,'' Executive Order 13607, 27 April 2012, 
http://www.gpo.gov/fdsys/pkg/FR-2012-05-02/pdf/2012-10715.pdf

    Briggs, Bill, ``Thousands of veterans failing in latest 
battlefield: college,'' MSNBC, July 2, 2012. Accessed June 13, 2013. 
http://usnews.nbcnews.com/--news/2012/07/02/12509343-thousands-of-
veterans-failing-in-latest-battlefield-college?lite

    Higher Education Technical Corrections. Pub. L. No. 111-39, 111th 
Cong., 1st Sess. (July 1, 2009) http://www.gpo.gov/fdsys/pkg/PLAW-
111publ39/pdf/PLAW-111publ39.pdf

    National Student Clearing House. ``Clearinghouse Facts,'' Accessed 
June 14, 2013. http://www.studentclearinghouse.org/about/
clearinghouse--facts.php

    U.S. Census Bureau. ``Table B21003: Veteran status by educational 
attainment for the civilian population 25 years and over. 2007-2011 
American community survey 5-year estimate,'' Accessed June 13, 2013. 
http://factfinder2.census.gov/faces/tableservices/jsf/pages/
productview.xhtml?pid=ACS--11--5YR--B21003&prodType=table

    U.S. Department of Education, National Center for Education 
Statistics, ``Six-year attainment rate at any institution among all 
first-time beginning students,'' 2003-04 Beginning Postsecondary 
Students Longitudinal Study, Second Follow-up, April, 2009. Accessed 
June 13, 2013. http://nces.ed.gov/surveys/npsas/xls/F09--VETERAN--
PROUT6B.xlsx

    VFW Hill Blog. ``VFW Builds Coalition to Support Student-Veteran 
Success,'' February 12, 2012. http://thevfw.blogspot.com/2012/02/vfw-
builds-coalition-to-support-student.html.

    Westat. National Survey of Veterans, Active Duty Service Members, 
Demobilized National Guard and Reserve Members, Family Members, and 
Surviving Spouses. Final Report, Rockville, MD: Westat, 2010. Retrieved 
from http://http://www.va.gov/vetdata/docs/SurveysAndStudies/
NVSSurveyFinalWeightedReport.pdf.

    Wood, David. ``Veterans' college drop-out rate soars.'' Huffington 
Post, Oct 25, 2012. Accessed June 13, 2013. http://
www.huffingtonpost.com/2012/10/25/veterans-college-drop-out--n--
2016926.html
Executive Summary
    As the largest and only national association of military veterans 
in higher education, Student Veterans of America's (SVA) mission is to 
provide military veterans with the resources, support, and advocacy 
needed to succeed in higher education and after graduation. SVA was a 
key contributor in the effort to provide veterans and servicemembers 
with greater consumer protections and consumer education. SVA has also 
been a strong proponent of tracking student veteran outcomes to better 
define the success of veterans in higher education and to dispel, or 
substantiate, notions of low veteran graduation rates.
    A key component of Executive Order 13607 is the call to track 
student veteran academic success rates utilizing existing 
administration data. However, current weaknesses in Federal databases 
and national surveys to track and define student veteran academic 
outcomes have resulted in several conflicting reports regarding student 
veteran post-secondary completion rates. Some media reports have 
claimed that the student veteran drop-out rate may be as high as 88%; 
in contrast, national surveys conducted by the government suggest 
completion rates may be as high as 68%. The wide range of completion 
and drop-out rates has led to confusion regarding student veterans' 
post-secondary academic success. This does not aid policymakers and 
stakeholders who make decisions that have a direct effect on student 
veterans.
    To gain a better understanding of student veteran post-secondary 
completion rates, SVA brokered a partnership between the Department of 
Veterans Affairs and The National Student Clearinghouse, a nonprofit 
organization with enrollment data on over 95% of America's student 
population \1\, to create and develop a Student Veteran Attainment 
Database. SVA expects to initially report on the completion rate of 
approximately one million veterans that have used various forms of the 
GI Bill between 2002 and 2010 by the end of 2013.
---------------------------------------------------------------------------
    \1\ National Student Clearinghouse. ``Clearinghouse Facts,'' 
Accessed June 14, 2013. http://www.studentclearinghouse.org/about/
clearinghouse--facts.php.
---------------------------------------------------------------------------
    The attainment database is a vital first step to accurately 
identify, track, and measure student veteran post-secondary completion 
rates. In addition, it will provide a path to future research such as 
student veteran persistence and identifying critical times where 
student veterans are more likely to withdraw from college; identify 
programs and policies that promote student veteran persistence and 
completion; and help colleges and universities struggling to support 
student veterans.

                                 <F-dash>
                 Prepared Statement of Steve Gunderson
    Chairman Flores, Ranking Member Takano, and Members of the 
Committee, I would like to thank you for the opportunity to appear 
before this Committee and for holding this important hearing on the 
Value of Education for Veterans at Public, Private and For Profit 
Colleges and Universities.
    I am here to represent the member institutions of The Association 
of Private Sector Colleges and Universities, their faculty and the 
millions of students who attend our institutions. Our institutions 
provide a full range of higher education programs to students seeking 
career-focused education. We provide short-term certificate and diploma 
programs, two- and four-year associate and baccalaureate degree 
programs, as well as a small number of master's and doctorate programs. 
We educate students for careers in over 200 occupational fields 
including information technology; allied health; automotive repair; 
business administration; commercial art; and culinary and hospitality 
management.
    Sixty-four percent of our students are low-income. Sixty-seven 
percent have delayed post-secondary education making them older than 
the 18-22 traditional college demographic. Single parents make up 31 
percent of our students and 46 percent are from a minority population. 
It goes without saying that our students are considered ``non-
traditional,'' but more and more they are the face of higher education 
in this country, so we should think of them as the new traditional. 
Most of our students juggle work, family and school. Most cannot attend 
a traditional institution of higher education because of scheduling, 
location or admissions criteria. Yet, these are the students who need 
the opportunity to pursue higher education if we are going to succeed 
in filling jobs that require skilled workers. Our institutions offer 
that opportunity and have and will continue to play a vital role in 
providing skills-based education.
    During the recent economic downturn when states and local 
communities reduced education budgets, many of our colleagues at public 
institutions had to endure budget cuts resulting in limited access and 
service for students. But our institutions continued to invest in their 
schools to offer students industry-leading innovation while expanding 
capacity and meeting the evolving demands of employers. Because we are 
not dependent on brick-and-mortar facilities to expand access, we are 
able to meet the growing demand for post-secondary education through 
vastly expanding online technology offerings, and perhaps our most 
successful academic delivery - a blend of online and on-site programs.
    Even while investing in education programs, our schools have been 
successful in reducing the cost of attendance for our students. 
Recently, the U.S. Department of Education released an analysis that 
compares the average costs at institutions between 2010-2011 and 2012-
2013. Only our institutions experienced a reduction in the average 
costs - 2.2 percent; other sectors experienced an increase in costs, 
with public in-state cost increasing 6.7 percent, public out-of-state 
increasing 4.1 percent and private non-profit rising 3.1 percent. For 
two-year institutions, our schools were able to reduce costs to 
students by 0.2 percent, while public in-state cost increased 6.4 
percent, public out-of-state increased 3.9 percent and private non-
profit rose 1.8 percent. Unlike our public colleagues, we don't have 
differing rates of tuition for in-state versus out-of-state students.
    We've expanded educational opportunities for many people, as 
evidenced by the increasing number of degrees our institutions have 
awarded. Yes, much of this is the simple result that our sector of 
post-secondary education is probably the newest with new campuses and 
new forms of academic delivery. But in an era when we expect 65 percent 
of all jobs and 85 percent of all new jobs to require some level of 
post-secondary education this growth in access is important. From 2000 
to 2011, degrees awarded by our institutions have soared. Associate's 
degrees increased by 116,903 degrees (152.5 percent) (compared with 
just 52.6 percent at public and 13.7 percent at private nonprofit 
institutions), bachelor's degrees increased by 91,478 degrees (397 
percent) (compared with just 34 percent at public and 25.5 percent at 
private nonprofit institutions), master's degrees increased by 66,522 
degrees (572.1 percent) (compared to 37.9 percent at public and 45.1 
percent at private nonprofit institutions), and doctorate degrees 
increased by 4,176 degrees (400.4 percent) (compared to 34.7 percent at 
public and 34.7 percent at private nonprofit institutions). We 
conferred 1.5 million degrees and 1.85 million certificates. Between 
2008 and 2012, while the country was deep in recession, our 
institutions prepared 3.5 million adults with the education and skills 
essential for real jobs, real incomes and a real chance at America's 
middle class.
    Finally, our institutions experienced a higher growth in degrees 
than all others between 2010/2011 and 2011/2012. Degrees conferred by 
our institutions increased 8.6 percent compared to 5.2 percent by 
public and 3.2 percent by private nonprofits. According to Bureau of 
Labor Statistics data, the degrees and certificates awarded by our 
institutions are in some of the fastest-growing occupations nationwide. 
For example, in 2010/2011, we awarded 52 percent of all Dental 
Assistant Certificates, 50 percent of all Veterinary Technologists and 
Technicians Associate Degrees and 40 percent of all Diagnostic Medical 
Sonographers Associates Degrees. Without our students, employers in 
these fields would be unable to find the well-trained staff they need 
to deliver services to patients and customers.
    We share your commitment to ensuring that every post-secondary 
institution provides the highest level of service to each and every 
student, especially active duty military, veterans and their families. 
We take great pride that our schools - with the support services, 
flexible schedules, and focused delivery of academics - are designing 
and delivering education in ways that meet the needs of today's 
military and veteran student. We strive to ensure that all students 
receive the education they deserve.
    APSCU and our member institutions want to ensure that our students 
are well-prepared to enter the workforce and that every institution of 
higher education lives up to the high standards expected by our 
students. Private sector colleges and universities have a long and 
important relationship with our nation's military and veteran students. 
We celebrate who they are and what they do. Our actions, as educators 
of hundreds of thousands of military and veteran students, honor this 
partnership by providing our military and veteran students with the 
best possible education experience at our institutions.
    According to the latest data obtained by APSCU from the Department 
of Defense, 762 private sector colleges and universities (PSCUs) are 
participating in the Tuition Assistance (TA) program and have been 
approved to offer courses to active duty military.
    Earlier this year, when the various services announced that they 
would eliminate TA as a result of the Sequester, Senators Hagan and 
Inhofe noted in their letter to Secretary of Defense Hagel that tuition 
assistance is an important recruitment and retention tool that 
significantly contributes to our military's morale. As an all-volunteer 
force, during a period of prolonged conflict, effective recruitment, 
retention and morale initiatives are essential to attracting and 
retaining professional personnel. Over 60 percent of our service 
members stated that the increased ability to pursue higher education 
was an important factor in deciding to join the military. More 
importantly, service members have taken their ambitions and turned them 
into reality by taking classes and earning degrees, diplomas and 
certificates. These are truly extraordinary accomplishments achieved in 
stressful situations with time and our institutions are proud to be a 
part of the TA program and serve these dedicated men and women of the 
military.
    The need for TA is confirmed in the words of Sgt. 1st Class James 
Wallace who is stationed at Ft. Knox Kentucky and using TA to attend 
Sullivan University. In a recent letter to me, Sgt. Wallace said, ``I 
believe that the Tuition Assistance program for soldiers is a great 
tool to help those people serving their country prepare for the future. 
It doesn't matter if that person is going to make a whole 20 year 
career or just complete one enlistment, there is life past the 
military.''
    Sgt. Wallace went on to describe the value of TA for himself and 
his family saying, ``Like many other soldiers I used the whole $4,500 
TA benefit every year. For the last two years, I have had to pay out of 
my own pocket so that I could take three classes per semester. Thanks 
to TA, I only have one quarter remaining before I receive my 
Associate's degree. My Associate's degree has helped me in applying to 
become a Warrant Officer. The TA program is about $1000 short depending 
on the college or university that you are attending. Even though I do 
come up short every year, it beats having to come out-of-pocket for the 
whole amount. Soldiers and their families already sacrifice enough to 
serve their country. Anything that the government can do to help assist 
the quality of life for soldiers and families is greatly appreciated by 
them.''
    Another student, Staff Sgt. Thomas M. Windley wrote that he began 
attending ECPI University in the summer of 2004 as a veteran recently 
discharged from service in the U.S. Navy.
    ``Several months after enrolling with ECPI, I enlisted in the U.S. 
Army. During my attendance at ECPI, I was appointed System 
Administrator for my unit because of my knowledge of computer systems. 
I utilized my Tuition Assistance and I was able to complete my degree 
program and obtain an associate's degree in Network Security within 18 
months. In 2007, I earned another Associate's degree in electrical 
engineering. It was at this point in my military career that my 
civilian education assisted me in being promoted over my peers. In 
2010, I worked on a network installation team and within three months I 
earned my CompTIA A+, Network+, and Security + certifications due 
largely to my education, experience, and opportunity that ECPI provided 
me.
    ``In 2010, my military assignment took me overseas to Afghanistan. 
While deployed, I earned my Bachelor's degree in Computer Information 
Science with a concentration in Network Security. Earning my degree led 
to another promotion, which was due to the tools and benefits ECPI 
provided in the areas of leadership, professionalism, and core 
curriculum content. I have been tasked, since my promotion, with 
training others in my unit both below and above me in rank, to sit for 
certifications, thus far those I have trained have a 100 percent pass 
record. I would highly recommend this program to fellow service 
members, I believe ECPI to have the best customer service of any online 
school and I have attended several. Furthermore, the curriculum is very 
precise and concentrated in the areas most needed to perform the job at 
maximum proficiency.''
    Whether we are talking about Sergeant First Class James Wallace, 
Staff Sergeant Thomas M. Windley or an Army Major working on her 
Master's degree for career advancement, these men and women know what 
they want and are committed to getting it. Their service coupled with 
their commitment to getting an education is truly extraordinary.
    Educating our active duty military is as important as fulfilling 
our commitment to veterans. According to the Veterans Administration 
data, more than 325,000 veterans and their families have been served by 
our institutions or 28 percent of all veterans using their post 9/11-GI 
benefits. Although veterans make up less than 10 percent of our 
students, we are proud to serve those who choose our institutions. More 
than 1,200 of our institutions participate in the Yellow Ribbon Program 
and a majority of those impose no limits on the number of eligible 
students while providing the maximum institutional contribution.
    You might ask why we serve 13 percent of all post-secondary 
students but 28 percent of all veterans on the Post 9/11 GI Bill? Quite 
simply, the answer lies in our customer service to the veterans. 
Returning from duty in Afghanistan or Iraq, most veterans do not want 
to live in a dorm and take five different three-credit courses at a 
time. Instead they want a focused and accelerated academic delivery 
that can transition them from the front lines to full-time employment 
as soon as possible. Because of our longer school days and year-round 
academic programming, our students can often complete an associate's 
degree in 18 months or a bachelor's degree in just over three years.
    We understand the challenges that arise when our military men and 
women transition back to civilian life and enter into post-secondary 
education. Often, traditional institutions of higher education are not 
the best fit. Our military and veteran students are not the fresh-out-
of-high school, first-time, full-time student living on campus and 
attending college thanks to the generosity of family. Our military and 
veteran students are like many of our new traditional students - 
working, with a spouse and children and paying for education with money 
they have saved. Service members and veterans attend our institutions 
because of many of the institutional qualities that are inherently 
ingrained into the framework of our institutions, such as geographic 
proximity to home or work, institutional emphasis on the adult learner, 
and flexible class schedules. This is why for over 65 years our schools 
have been providing education and training services to members of the 
armed services and their families.
    We know that military students want career-focused education that 
is delivered in a flexible academic setting that best meets their 
unique needs. Our courses are designed to be relevant, concentrated, 
and suited to the personal goals of our students. This education 
foundation is of a particular benefit to military and veterans seeking 
a promotion, advance in rank or supplementing skills attained during 
their service. This type of purposeful, tailored education ensures that 
veteran and military students nimbly move from the classroom onto their 
next academic or professional goal. The ability to offer courses on-
base, online, and on the student's schedule is of tremendous value.
    In recognition of the growing numbers of military and veteran 
students enrolling at our institutions, APSCU adopted Five Tenets of 
Veteran Education that included the creation of a Blue Ribbon Taskforce 
for Military and Veteran Education. The Taskforce was comprised of a 
broad group of individuals who share a common commitment towards the 
education of service members and veterans representing a diverse range 
of institutions, including non-APSCU members, as well as 
representatives of nationally-recognized leadership organizations in 
the area of military and veteran post-secondary education. The 
Taskforce was specifically charged with identifying, collecting, and 
documenting practices and programs that meet the unique needs of 
military and veteran students, foster persistence, and enable them to 
meet their academic and professional goals.
    I have attached a copy of the Best Practices to this testimony, so 
I won't discuss them in detail, but I would just highlight the four 
major topic areas addressed by the Taskforce. (1) Consumer information, 
enrollment and recruitment makes clear that information should be 
provided in clear and understandable language and that no student 
should be subjected to aggressive or misleading recruiting practices. 
(2) Institutional commitment to provide military and veteran student 
support identifies initiatives related to personnel and faculty 
designed to help employees understand the special needs of military and 
veteran students. It also identifies institutional policies aimed at 
assisting military and veteran students such as participating in the 
Yellow Ribbon program, offering a reduced military tuition rate, 
maximizing the use of military training credit recommended by ACE, or 
exceeding the standards of the Uniformed Services Employment and Re-
Employment Act for deployed employees. (3) Promising practices for 
ensuring military and veteran student success through student services 
discusses the need for student centers and partnerships, such as 
establishing a Student Veterans of America chapter or having a military 
and veterans lounge where students can meet and find peer to peer 
support. (4) Establish institutional research guidelines for tracking 
military and veteran student success encourages the collection and use 
of data to improve programs and evaluate program effectiveness. We are 
encouraging all our institutions and our colleagues at other 
institutions of higher education to look at these Best Practices and 
find opportunities to implement them where appropriate in order to best 
serve our military and veteran students.
    A 2010 study by the Rand Corporation and ACE entitled ``Military 
Veterans' Experiences Using the Post 9/11 GI Bill and Pursuing 
Postsecondary Education reported findings which support the view that 
our institutions are working to support these students. The report 
noted the following:

    <bullet>  Rate of satisfaction with the credit transfer experience 
was 60 percent among survey respondents who had attempted to transfer 
military credits to our institutions, versus only 27 percent among 
those from community colleges and 40 percent among respondents from 
public four-year colleges. Only participants from private nonprofit 
colleges reported higher credit transfer satisfaction rates, at 82 
percent;
    <bullet>  Respondents from our institutions reported fewer 
challenges to accessing required courses than all other institutions 
except for four-year public institutions (33percent of respondents at 
public two-year colleges, 26 percent at private nonprofits, 22 percent 
at our institutions and 18 percent at public colleges).
    <bullet>  Survey respondents in private sector colleges and 
universities reported higher than average satisfaction rates with 
academic advising, at 67 percent, versus about 50 percent satisfaction 
among respondents at other institution types.
    <bullet>  Reasons for choosing our institutions included: career 
oriented programs with flexible schedules, like-minded adult students, 
flexible credit transfer rules and same institution in multiple 
locations.

    Many PSCUs offer a reduced military tuition rate for active duty, 
National Guard, and reserve service members and their spouses to 
minimize out-of-pocket student expenses and offer scholarships to 
wounded service members and their spouses as they recover from their 
injuries and prepare for new career opportunities. Some also maintain a 
military-friendly deployment policy, which allows military students to 
withdraw and return to school at any time if they are deployed and 
provide specialized military student advisors to evaluate past military 
training and experience and assess eligible academic transfer of credit 
based on American Council of Education (ACE) recommendations. The 
generous awarding of credit for military skills and experience and fair 
transfer of credit policies exemplify how PSCUs strive to be 
responsible stewards of this educational benefit, as exiting service 
members are not forced to take duplicative or extraneous classes.
    Recent Bureau of Labor Statistics (BLS) data suggest that the 
unemployment situation of our nation's veterans is improving, this 
population, particularly in the age 18-24 category, has historically 
experienced higher unemployment than civilians. The Administration, 
veteran advocates, and veteran service organizations (VSOs) have 
responded by developing and implementing initiatives to put veterans in 
jobs.
    The American Legion has partnered with DoD to educate state 
legislators and governors on the actual value of military skills and 
experience and how they translate into a civilian employment 
environment. Additionally, the American Legion is serving as an 
advocate for changing current state laws to enable credentialing and/or 
licensing boards to consider military skills and experience when 
evaluating a candidate for a license or certification. The American 
Legion has also partnered with the Administration and the Departments 
of Defense, Energy, Labor, and Veterans Affairs to evaluate the current 
job-task analysis (JTA), identify any gaps in the JTA, and work with 
the private sector and post-secondary education to the best address how 
to fill the gaps through higher education, on-the-job-training, or 
apprenticeships. This initiative relies on the symbiotic relationship 
between credentialing, higher education, public and private entities to 
proactively work together to reduce veteran unemployment.
    When members of the armed forces leave, they enter a pivotal 
transition period that is often wrought with challenges, and as a 
result, the potential for failure is high. As we have discussed, our 
institutions are fully committed to helping veterans achieve success in 
higher education. This commitment and focus on educating members of the 
military, as well as veterans and their families is critical because 
according to the Defense Activity for Non-Traditional Education Support 
(DANTES) over 80 percent of members only have a high school diploma.
    Our nation currently faces twin crises - stubbornly high 
unemployment and a skills gap where employers all across the country 
cannot find trained and job-ready workers. The key to narrowing the 
skills gap and reducing civilian and veteran unemployment is an ``all-
hands-on-deck'' approach to post-secondary education. All sectors of 
higher education must be part of the solution and accountable for the 
educational experience and outcomes of all students, especially 
military and veteran-students.
    In a survey of a several member institutions, we looked at 16,500 
veteran graduates and found that 75 percent earned certificates and 
associates degrees, while 25 percent earned bachelor's and graduate 
degrees. Forty-one percent of all the veteran graduates earned 
credentials in healthcare fields, one of the fastest growing industries 
in the country. The occupations range from medical, dental and 
veterinary assistants to nurses and technologists of various types with 
weighted average annual salaries of $33,226 for certificate and 
associate degree holders to $56,335 for bachelor and graduate degree 
holders. Another 20 percent of veteran graduates earned credentials in 
skilled trade programs, such as construction, maintenance and repair, 
and engineering technologies. According to BLS, the United States will 
need more than 1 million additional workers to fill these jobs by 2020. 
The weighted average annual salary for our veteran graduates earning 
their certificates and associate degrees in these fields was $44,500. 
Ten percent were earned in computer and information programs like 
computer programming, computer graphics, computer systems networking, 
and information technology. The weighted average annual salary is 
$57,574 for certificate and associate degree holders and $89,064 for 
bachelor and graduate degree holders. The US will need nearly three 
million additional computer and IT workers by 2020.
    We want to work with you to provide our service members and 
veterans, particularly young combat veterans, with the tools and 
resources to make an informed, thoughtful decision about which 
educational opportunity will best prepare them for the workforce.
    The facts are simple: Career-oriented schools are educating 
America's next generation and helping secure our nation's economic 
vitality. We all agree that a higher education degree greatly improves 
employment opportunities and income. At a time of extended, high 
unemployment and economic hardship, we should be supporting anyone 
seeking access to skills and training that will allow them to better 
their own future.
    President Obama has challenged all Americans to commit to at least 
one year or more of higher education or career training, under the 
belief that if we are to succeed economically as a nation, every 
American will need to get more than a high school diploma. To meet 
President Obama's challenge we will have to ensure that people who 
historically have not pursued higher education or succeeded in 
completing their post-secondary education must attend and complete 
their education. From both a jobs and a global competitiveness 
standpoint, our institutions can help fill the existing education and 
skills gap and meet capacity demands that cannot be satisfied by public 
and private non-profit colleges alone. Increasing the number of 
educated people is essential. Research shows that raising the college 
graduate rate just a single point will unleash $124 billion per year in 
economic impact on the 51 largest metropolitan areas in the U.S.
    Private sector colleges and universities have demonstrated a unique 
capability to confront the challenges of educating America's middle 
class. We have been at the forefront of the effort to close the skills 
gap by offering career-focused training aiding business owners seeking 
workers with specific training and expertise. We have made it our 
mission to close this gap and are working every day to achieve that 
end.
    Private sector colleges and universities are able to accommodate 
the needs of non-traditional students in ways that traditional four-
year universities cannot. Whether its veterans transitioning from war 
zones to the workplace or single parents with family responsibilities 
seeking a way to earn more for the future, career-oriented schools 
understand the rigorous demands that these individuals face and tailor 
course schedules, offer focused curriculum and provide academic 
delivery mechanisms that fit their needs. We are also investing in our 
students and expanding facilities to meet the growing demand for higher 
education, which includes returning veterans, their spouses and 
families.
    We share President Obama's commitment and passion for education, 
and look forward to working with him and the Congress to ensure that 
all Americans can attain the skills they need to access meaningful 
opportunities.
    We take seriously the charge to work with veteran and military 
student populations and prepare America's students to succeed in the 
workforce. As we all strive to provide better information to all our 
students, we look forward to continuing to work with the Department of 
Veterans Affairs and the Department of Education to implement HR 4057 
and ensure that our nation's veterans are receiving all the information 
needed to make superior education decisions. Private sector colleges 
and universities look forward to helping these students achieve their 
dreams, maintain military readiness and prepare them for life after the 
military.
    Thank you for your time. I look forward to answering your questions 
and discussing these important issues with you today.
Summary
    On behalf of the Association of Private Sector Colleges and 
Universities, thank you for the opportunity to appear before this 
committee. We represent nearly 4 million students enrolled in our 
schools annually. Our schools provide the full range of higher 
education programs to students looking for post-secondary education 
with a career focus.
    This nation must fulfill its higher education commitment to 
veterans. According to the Veterans Administration, more than 325,000 
veterans and/or their families have been served by our institutions 
representing 28 percent of all veterans using their post 9/11-GI 
benefits. Although veterans make up less than 10 percent of our 
students, we are proud to serve those who choose our institutions. More 
than 1,200 of our institutions participate in the Yellow Ribbon 
Program.
    In recognition of the growing numbers of military and veteran 
students enrolling at our institutions, APSCU adopted Five Tenets of 
Veteran Education that included the creation of a Blue Ribbon Taskforce 
for Military and Veteran Education. The Taskforce created a set of Best 
Practices recommendations that are attached to my testimony. The Best 
Practices cover the topics of (1) Consumer information, enrollment and 
recruitment; (2) Institutional commitment to provide military and 
veteran student support; (3) Promising practices for ensuring military 
and veteran student success through student services; and (4) Establish 
institutional research guidelines for tracking military and veteran 
student success. We are encouraging all our institutions and our 
colleagues at other institutions of higher education to look at these 
Best Practices and find opportunities to implement them where 
appropriate in order to best serve our military and veteran students.
    A November 2010 Rand Corporation and ACE study entitled ``Military 
Veterans' Experiences Using the Post 9/11 GI Bill and Pursuing 
Postsecondary Education'' reported findings which support the view that 
our institutions are working to support these students. The report 
noted that students attending our institutions had a high rate of 
satisfaction with the credit transfer experience, fewer challenges to 
accessing required courses, and higher than average satisfaction rates 
with academic advising.
    Finally, we have included preliminary outcome data in our testimony 
to give the Committee a sense of how our veterans are doing after 
enrolling. In a survey of several member institutions, we looked at 
16,500 veteran graduates and found that 75 percent earned certificates 
and associates degrees, while 25 percent earned bachelor's and graduate 
degrees. Forty-one percent of all the veteran graduates earned 
credentials in healthcare fields, one of the fastest growing industries 
in the country. Twenty percent of veteran graduates earned credentials 
in skilled trade programs, such as construction, maintenance and 
repair, and engineering technologies. Ten percent were earned in 
computer and information programs like computer programming, computer 
graphics, computer systems networking, and information technology.
    As we all strive to provide better information to all our students, 
we look forward to continuing to work with the Department of Veterans 
Affairs and the Department of Education to implement HR 4057 and ensure 
that our nation's veterans are receiving all the information needed to 
make superior education decisions.

    June 16, 2013

    TO:Committee on Veterans' Affairs

    I am Steve Gunderson, President and CEO of the Association of 
Private Sector Colleges and Universities (APSCU). I have not and APSCU 
has not received any Federal grants or contracts during this fiscal 
year or the previous two fiscal years relevant to the subject matter of 
my testimony.

    Steve Gunderson
    President and CEO

            BEST PRACTICES FOR MILITARY AND VETERAN STUDENTS
                             FEBRUARY 2013
MISSION STATEMENT
    The Association of Private Sector Colleges and Universities (APSCU) 
has established this ``Blue Ribbon'' Taskforce to ensure that every 
service member, veteran, and family member utilizing their earned, 
post-secondary education benefits are provided with the quality 
education to which they are entitled at every institution of higher 
education. The Taskforce is comprised of a broad group of individuals 
who share a common commitment towards the education of service members 
and veterans representing a diverse range of institutions, including 
non- APSCU members, as well as representatives of nationally-recognized 
leadership organizations in the area of military and veteran post-
secondary education.
    The Taskforce has been specifically charged with identifying, 
discussing, and documenting the very best post-secondary education 
practices and support services that meet the specific needs of military 
and veteran students. The primary objective of the Taskforce is to 
publish a set of recommended institutional standards and associated 
operational practices that foster persistence, program completion, and 
other factors that will enable the military and veteran student 
population to achieve its academic and professional goals. The final 
product will represent a condensed, practical set of suggested actions 
and policies for all institutions of higher education.
    To view a full copy of the report of the APSCU Blue Ribbon 
Taskforce for Military and Veteran Education visit www.apscu.org/
blueribbon.
MEMBERS OF THE APSCU BLUE RIBBON TASKFORCE FOR MILITARY AND VETERAN 
        EDUCATION
    The Taskforce has been led by Jeff Cropsey, Vice President for 
Strategic Initiatives at Grantham University and Chair, Public Affairs, 
Council of College and Military Educators and James Hendrickson, Vice 
President of Military Relations at Colorado Technical University and 
Executive Director of the CTU Wounded Warrior and Spouse Scholarship 
Program.

Other Members of the Taskforce include:

    u  Jeff Arthur - CIO and Vice President of Financial Assistance, 
ECPI University
    u  Mike Betz - General Manager, Military Student Initiatives, 
Education Corporation of America
    u  Scott A. Kilgore - Senior Vice President of Military of Affairs, 
Kaplan University
    u  Russell Kitchner, Ph.D. - Vice President for Regulatory and 
Governmental Relations, American Public University System
    u  Scott D. Palumbo, LCDR. USNR - formerly National Director of 
Military Affairs, DeVry University
    u  James Shane, Jr., BG. USA (Ret.) - Director of Military and 
Veterans Affairs, Sullivan University
    u  Kathy Snead - Servicemembers Opportunity Colleges Consortium 
President and Vice President for Military and Veteran Partnerships, 
American Association of State Colleges and Universities
    u  Dennis Trinkle, Ph.D. - Provost and Chief Academic Officer, 
Harrison College
    u  Joseph W. Wescott, Ph.D. - Executive Director, Veterans and 
Military Education Programs, North Carolina State Approving Agency and 
Vice President, National Association of State Approving Agencies
    u  Garland H. Williams, Ph.D., Col. USA (Ret.) - Associate Regional 
Vice President, Military Division, University of Phoenix
Special Advisors:
    u  Michael Dakduk - Executive Director, Student Veterans of America
    u  Ryan M. Gallucci - Deputy Director, National Legislative 
Service, Veterans of Foreign Wars of the U.S.
    u  Steve Gonzalez - Assistant Director, National Economic Division, 
American Legion
BEST PRACTICES FOR MILITARY AND VETERAN STUDENTS
PREAMBLE
    These Best Practices represent the collective efforts of the work 
of the Blue Ribbon Taskforce. The institutions represented on the 
Taskforce are incredibly diverse in size, ownership structures and 
academic programming and provide career-centered education ranging from 
skilled trades to post graduate degrees. However diverse, these Best 
Practices were created to encourage all institutions of higher 
education to aspire to high levels of service for this special group of 
students.
    The Best Practices are organized under four subject areas:

    u  Full transparency and accuracy of information in the recruitment 
and enrollment process.
    u  Institutional commitment supporting the military and veteran 
students' academic needs.
    u  Appropriate student services reflecting the numbers and needs of 
their military and veteran student population.
    u  Pursuit of outcomes data related to retention, degree completion 
and other metrics for an institution's military and veteran students, 
enabling us to learn and improve our services in the future.

    The Taskforce is mindful that the diversity of institutions - in 
size, number of veterans and/or military students, types of academic 
programming, and other factors - will result in implementation of many, 
but not necessarily all the Best Practices, in ways appropriate to the 
needs of each institution and its military and veteran students. We 
recognize and celebrate this diversity of service while being unified 
in our commitment to excellence in military and veteran education.
BEST PRACTICES FOR MILITARY AND VETERAN STUDENTS
    I, Consumer Information, Enrollment and Recruitment...page 4

    II. Institutional Commitment to Provide Military and Veteran 
Student Support...page 7

    III. Promising Practices for Ensuring Military and Veteran Student 
Success Through Student Services...page 9

    IV. Establish Institutional Research Guidelines for Tracking 
Military and Veteran Student Success...page 11
CONSUMER INFORMATION, ENROLLMENT AND RECRUITMENT:
    Prospective military and veteran students should receive 
appropriate, relevant information in order to make a sound, informed 
decision about their post-secondary education. Information should be 
provided in clear and understandable language. Prospective students 
looking to utilize their U.S. Department of Defense (DoD) or U.S. 
Department of Veterans Affairs (VA) education benefits should not be 
the subject of aggressive or misleading recruiting practices. 
Institutions should follow all federal and state laws and regulations 
to ensure that the recruitment of military and veteran students is 
appropriate.

A. Consumer Information
    i. Provide accurate and complete information to prospective 
students on:

    u  Institutional and programmatic accreditation status for each 
offered program;
    u  Whether program meets minimum requirements to qualify student 
for state licensure in relevant occupation(s);
    u  Potential earnings and employment pathways of program 
completers;
    u  Financial obligations and cost of educational program;
    u  Institution participation in various military and veteran 
programs and partnerships; and
    u  Institution transfer of credit policies.

    ii. Require prospective students to affirm receipt and 
understanding of the required disclosures.

    iii. In an effort to achieve complete transparency, include 
information in catalogs, websites, and other media outlets that adheres 
to the following minimums:
    u  Clearly articulated and defined mission statement;
    u  Clearly defined academic and financial information about program 
requirements; and
    u  Total cost of admission, tuition, instructional materials, and 
all mandatory fees.

    iv. Provide in-depth financial counseling, so that prospective 
students fully understand their financial obligations upon enrolling in 
an educational program.

    u  Explain the extent to which DoD Tuition Assistance and VA 
education benefits will pay for the cost of the education;
    u  Explain the ramifications of student loan debt, in terms of 
monthly repayment obligations when feasible;
    u  Explain long term financial obligations related to use of 
educational benefits as compared to borrowing under federal or private 
loan programs; and
    u  Always encourage responsible borrowing if a student needs or 
chooses to borrow to pay for education costs or other personal expenses 
which may be covered by federal loan funds.
B. Recruitment
    i. Develop and/or maintain enrollment and recruitment policies 
appropriate to higher education institutions and compliant with federal 
and accrediting agency regulations.

    ii. Use only promotional and recruitment materials and practices 
that do not have the capacity to mislead or coerce students into 
enrolling and are consistent with policies of the VA, Federal Trade 
Commission (FTC), Department of Education (ED), and all applicable 
federal and state regulations.

    iii. Create reasonable internal policies for contacting potential 
students that do not exert high pressure to enroll through unsolicited 
follow-up calls or other forms of personal contact.

    For example:

    u  Marketing and outreach systems, including third-party vendors, 
must have an opt-out feature for individuals who do not wish continued 
recruiting contact; and
    u  Establish and enforce internal call limits on unsolicited 
recruiting calls, such as a ``Three Calls then Stop'' policy.

    iv. Employ appropriate sanctions, including termination of 
employment, on recruiters and managers found to have engaged in 
predatory recruitment practices.

C. Enrollment
    i. Ensure students are appropriately placed and prepared for the 
programs in which they enroll. Consider employing any of the following 
practices: (a) assess academic readiness prior to enrollment; (b) offer 
appropriate remediation if necessary; (c) offer limited course loads; 
(d) offer a reasonable ``Trial Period'' for enrollment; (e) offer 
penalty-free drop/add periods upon enrollment.

    ii. Offer military and veteran students a tailored orientation 
program, which would provide an overview of specific information 
regarding VA certification requirements, satisfactory academic 
progress, and additional tutorial assistance, as appropriate.
INSTITUTIONAL COMMITMENT TO PROVIDE MILITARY AND VETERAN STUDENT 
        SUPPORT
    Institutions should actively support and promote programs and 
services for military and veteran students. Institutions should employ 
an engaged faculty that understands the needs of military and veteran 
students and provides mentoring and advising to ensure the success of 
these students. Institutions should consider instituting the following, 
as applicable:

A. Personnel/Faculty
    i. Appoint a senior-level administrator to lead the institution's 
military and veteran support programs (or Office of Military and 
Veteran Affairs).

    ii. Designate an employee, or team of employees (as student 
enrollment numbers dictate), to provide support/services tailored to 
the needs of the military and veteran students.

    iii. Appoint a Military and/or Veteran Student Ombudsman to 
escalate and resolve issues related, but not limited, to DoD or VA 
educational benefits, academic enrollment issues, and institutional 
policies and procedures.

    iv. Conduct regular roundtable discussions, focus groups, and/or 
interviews with service-member military and student veteran 
organizations, either on- campus or virtually, to establish a continual 
understanding about the needs of the military and veteran student 
population enrolled at the institution and how to meet those needs.

    v. Appoint an interdepartmental military and veteran education 
taskforce to evaluate the institution's policies, practices and 
procedures relating to the military and veteran students.

    vi. Institute faculty development training to ensure that faculty 
members:

    u  Receive the necessary tools and information regarding the unique 
qualities of the military and veteran learner;
    u  Learn effective classroom instructional practices to better meet 
the needs of this non-traditional student population; and
    u  Understand the various support services available to military 
and veteran students and the associated referral processes for 
accessing those services.

    vii. Institute campus wide training on the specific needs and 
resources available for military and veteran students and their 
families.
B. Administrative Policies and Practices
    i. If applicable, become a Yellow Ribbon Program participating 
institution, offsetting the unmet cost of an education for eligible VA 
education beneficiaries and consider the following:

    u  Allow ``all'' or an unlimited number of eligible veteran 
students to enroll; and
    u  Offer the maximum institution contribution allowed under the 
program.

    ii. Offer alternative grants to veterans and their spouses who may 
not be eligible for the Post-9/11 GI Bill benefits to cover any funding 
gaps not covered by other financial aid benefits, such as the 
Montgomery GI Bill.

    iii. Offer a reduced military tuition rate for active duty, 
National Guard, and reserve service members and their spouses to 
minimize out-of-pocket student expenses beyond what DoD Tuition 
Assistance (TA) benefits cover.

    iv. Adopt a policy for evaluating and awarding credit for military 
training and experiences, maximizing the use of military training 
credit recommended by the American Council on Education (ACE).

    v. Comply with existing federal requirements related to the post-
secondary education of military or veteran students, including:

    u  Enter into the DoD Memorandum of Understanding (MOU) for 
participation in TA; and
    u  Formally agree to accept the Principles of Excellence outlined 
in Executive Order 13607 - Establishing Principles of Excellence for 
Educational Institutions Serving Service Members, Veterans, Spouses, 
and Other Family Members.

    vi. Become a member of the Servicemembers Opportunity Colleges 
(SOC) Consortium.

    vii. Establish Human Resources policies that exceed the standards 
set by the Uniformed Services Employment and Re-Employment Rights Act 
(USERRA). Institutions of higher education with employees currently 
serving in the military should exceed USERRA guidelines for employees 
during military training activities and deployment status.

    viii. Offer multiple learning formats for military and veteran 
students to access and interact with program curriculum and course 
materials, which allow students the freedom to pick the format that 
best suits their learning style. These formats may include videos, 
text, a library of archived audio content of classroom instruction, 
problem-solving activities, and practice tests.
PROMISING PRACTICES FOR ENSURING MILITARY AND VETERAN STUDENT SUCCESS 
        THROUGH STUDENT SERVICES
    Recent studies and anecdotal information related to military and 
veteran student success reveal a growing trend toward centralized 
student services at institutions with significant populations of 
military and veteran students. Building on the success of existing 
programs, institutions of higher education should strive to provide the 
following services and programs tailored to the specific needs of their 
military and veteran students:

A. Centers
    i. When the number of students necessitates its creation, 
institutions should establish an Office of Military and Veterans 
Affairs with clearly articulated goals and expectations, which 
complement the mission of the institution, accompanied by the full 
support and resources from the institution's leadership. The Office of 
Military and Veterans Affairs would typically administer and manage the 
following:

    u  Military and veteran-specific Student Advisors in the areas of 
admissions, academics, and benefits;
    u  Specific academic counselors for the military and veteran 
student population trained to address transfer credit and awards for 
prior academic or military credit (College Level Examination Program 
(CLEP), portfolio, military training);
    u  Trained VA certification specialists to assist with the timely 
processing of educational benefits documentation to avoid benefit 
funding delays; and
    u  A tailored orientation program for military and veteran 
students, developed to enable active-duty, Guard, or Reservist students 
or transitioning veterans to optimize the available institution 
resources and support programs.

    ii. Another approach is to establish a Military Student Center 
(MSC), which acts as a hub to guide military and veteran students 
throughout their post-secondary experience, beginning with recruitment 
and ending with job placement. The MSC functions as a clearinghouse of 
information for all military and veteran benefit programs and assists 
potential and current students with navigating the intricacies of the 
federal programs for which they may be eligible. More specifically, the 
MSC may function as follows:

    u  Counsel prospective students who self-identify themselves as 
military- or veteran-affiliated on the best way to access and maximize 
the benefits for which they are eligible;
    u  Staff the MSC with specialists who are either a military veteran 
or spouse who received specific training in DoD and VA benefits 
eligibility and processes; and
    u  Provide transfer of credit assistance, help with military and 
prior- college transcript requests upon application and acceptance to a 
program of study, training to Program Directors and Deans regarding ACE 
guidelines for the award of military credit, and recommendations for 
credit acceptance based on review of military transcripts and Military 
Occupational Specialty (MOS).
B. Partnerships
    i. Support student veterans interested in organizing a campus-
based, or online, student organization with necessary resources and use 
the Student Veterans of America (SVA) as a resource and guide. 
Institutional support for student veterans to create a student veteran 
organization or club is critical to fostering successful veteran 
student transition, peer support, and camaraderie, and providing needed 
opportunities for student veterans to network and make social 
connections with other student veterans who possess similar interests 
or experiences.

    ii. Establish a Campus Military and Veterans Lounge or Virtual 
Student Gathering Place, which allow military and veteran students to 
interact, access program-related resources and services, and provide 
peer-to-peer support.

    iii. Establish and maintain student chapters of professional 
organizations and academic honor societies to expose students to 
potential professional networks. Encourage student membership and 
participation in relevant local, regional or national professional 
societies while completing coursework.

    iv. Introduce and partner with established veteran service 
organizations, such as the American Legion or Veterans for Foreign Wars 
of the U.S. (VFW), within the geographical area of the campus to 
further connect veteran students to community resources and peers.

    v. Institutions with a sufficiently large military and veteran 
population should develop a specific career services strategy, 
including:

    u  Establishing partnerships with employers who will work with 
students while enrolled and offer quality job opportunities upon 
graduation;
    u  Establishing formal alumni networks for military and veteran 
graduates, allowing students who have completed programs of study to 
interact with one another, building geographically based or industry- 
based professional networks; and
    u  Engaging with local Employer Support for Guard and Reserves 
(ESGR), professional associations such as Society for Human Resources 
Management (SHRM), or the National Association of Colleges and 
Employers (NACE).
ESTABLISH INSTITUTIONAL RESEARCH GUIDELINES FOR TRACKING MILITARY AND 
        VETERAN STUDENT SUCCESS
    Tracking data related to credit completion, degree completion, and 
student satisfaction is vital to understanding successful student 
outcomes. Accurate data collection is essential to understanding and 
addressing the needs of military and veteran students and their 
families. To the extent practicable, institutions should:

A. Collect/Use Data
    i. Identify and track military and veteran student populations with 
regard to retention, degree completion, persistence, and other valuable 
metrics.

    ii. Analyze and use data to identify areas in need of improvement 
and ways to better serve military and veteran students.

    iii. Use data to develop measures to evaluate program 
effectiveness.
B. National Student Clearinghouse
    i. Participate in the National Student Clearinghouse to help to 
provide meaningful data for military and veteran students across higher 
education (transfer, degree completion, and persistence).

    ii. Provide meaningful data to the VA and DoD for use in developing 
programs to better serve military and veteran students.
APPENDIX
APPENDIX I: INSTITUTION RESOURCES
    i. Supportive Education for the Returning Veteran (SERV)
    ii. Veteran-Civilian Dialogue
    iii. Veterans in Transition Course
    iv. Military to Civilian Transition Manual
    v. Mobile National Test Center (NTC) for CLEP and DSST exams
    vi. Transfer credit evaluation at no cost - awards transfer credit 
for ACE approved military training
    vii. Webinar series for veterans and employers of veterans
    viii. Institution Skills Translator
    ix. ACE Toolkit for Veteran Friendly Institutions, March 2012
APPENDIX II: COMMUNITY INITIATIVES AND PARTNERSHIPS
    i. Veteran Stand Down (KCMO) - volunteer annually
    ii. Toys for Tots - collect toys annually
    iii. Partners with Veterans Today Network to hire veteran employees
    iv. Teamed up with CCME Cares to send care packages to deployed 
troops over Valentine's Day
    v. Fundraising for Wounded Warrior Project over Veterans Day
    vi. Annual sponsor of KC Association of the United States Army's 
Army Birthday Ball
APPENDIX III: MEMBERSHIPS AND AFFILIATIONS
    i. SOC
    ii. CCME
    iii. Yellow Ribbon Program
    iv. DoD MOU
    v. Principles of Excellence
APPENDIX IV: PUBLICATIONS
    i. From Boots to Books: Applying Scholssberg's Transition Model to 
the Transition of Today's American Veterans to Higher Education
    ii. From Combat to Campus: Voices of Student-Veterans
    iii. A New Generation of Student Veterans: A Pilot Study
    iv. The Difficult Transition from Military to Civilian Life
    v. Veterans' Post-Secondary Education: Keeping the Promise to Those 
Who Serve
    vi. Servicemembers Opportunity Colleges (SOC) Consortium 
Publications/ Forms/Resources (Principles and Criteria, Standards of 
Good Practice for Servicemembers Opportunity Colleges, Pocket Guide for 
College Outreach to Military Students, Veteran and Military Family 
Programs and Services, and Military Student Bill of Rights)
    vii. Educational Attainment: Tracking the Academic Success of 
Servicemembers and Veterans, July 2012, Education Working Group 
convened by SOC
    viii. From Soldier to Student II Assessing Campus Programs for 
Veterans and Service Members, July 2012, prepared by American Council 
on Education (ACE), American Association of State Colleges and 
Universities (AASCU), NASPA: Student Affairs Administrators in Higher 
Education, and National Association of Veteran's Program Administrators 
(NAPVA)
    ix. Time is the enemy, September 2011, Complete College America
    x. Service Members in School: Military Veterans' Experiences Using 
the Post-9/11 GI Bill and Pursuing Postsecondary Education, November 
2010, prepared by the RAND Corporation, with support from Lumina 
Foundation for Education for the American Council on Education (ACE)
    xi. National Survey of Student Engagement (NSSE), Major 
Differences: Examining Student Engagement by Field of Study, Annual 
Results 2010, sponsored by The Carnegie Foundation for the Advancement 
of Teaching.
    xii. Military Service Members and Veterans in Higher Education: 
What the New GI Bill May Mean for Postsecondary Institutions, July 
2009, prepared by Alexandria Walton Radford, MPR Associates, Inc. with 
support from the ACE Center for Policy Analysis Center for Lifelong 
Learning and the Lumina Foundation for Education
    xiii. From Soldier to Student: Easing the Transition of Service 
Members on Campus, July 2009, prepared by ACE, SOC, AASCU, NASPA: 
Student Affairs Administrators in Higher Education, and NAPVA with 
support from the Lumina Foundation for Education
SPECIAL ADVISORS
American Legion
    The American Legion was chartered by Congress in 1919 as a 
patriotic veteran's organization. Focusing on service to veterans, 
service members and communities, the Legion evolved from a group of 
war-weary veterans of World War I into one of the most influential 
nonprofit groups in the United States. Today, membership stands at over 
2.4 million in 14,000 posts worldwide. The posts are organized into 55 
departments: one each for the 50 states, along with the District of 
Columbia, Puerto Rico, France, Mexico and the Philippines. The birth of 
the Servicemen's Readjustment Act of 1944, known informally as the GI 
Bill of Rights, was a law that included several key parts: educational 
opportunity; on-the-job training; unemployment benefits; home, farm and 
business loans; review of discharges; health care; disability claims 
and veteran employment services. Today, the American Legion continues 
to work with all stakeholders in protecting and creating meaningful 
veterans education benefits that truly meet the needs of our 21st 
century veterans.
Student Veterans of America (SVA)
    The mission of SVA is to provide military veterans with the 
resources, support, and advocacy needed to succeed in higher education 
and following graduation. Today's veterans face numerous obstacles in 
their path to attaining a college degree. These challenges range from a 
missing sense of camaraderie to feeling like an outsider amongst 18 
year old traditional students to a lack of understanding by university 
faculty. When coupled with the visible and invisible wounds of war, a 
college degree can be an elusive goal for men and women returning from 
military service. SVA makes that goal a reality. SVA is a coalition of 
student veterans groups on college campuses around the globe. These 
member chapters are the ``boots on the ground'' that help veterans 
reintegrate into campus life and succeed academically. Each chapter 
must be an officially recognized student group by their university or 
college and provide a peer-to-peer network for veterans who are 
attending the school. Additionally, chapters often coordinate campus 
activities, provide pre-professional networking, and generally provide 
a touchstone for student veterans in higher education.
Veterans of Foreign Wars of the U.S. (VFW)
    Since 1899, the VFW has continued to be a leading voice in 
veterans' advocacy, helping to enact nearly every major Quality of Life 
initiative for the benefit of every generation of veteran, military 
service member and their families. Composed of 2 million VFW and 
Auxiliary members in 7,200 VFW Posts across the country and around the 
world, the VFW creates, protects and enhances these benefits and 
programs by actively engaging with Congress and the White House. From 
the passage of the original World War II GI Bill of Rights in 1944 to 
the Montgomery GI Bill and now Post-9/11 GI Bill, the VFW will continue 
to advocate for student- veterans to improve their earned educational 
benefits and the consumer product information they deserve to receive.

                                 <F-dash>
               Prepared Statement of Dr. Daniel J. Carey
    Chairman Flores, Ranking Member Takano, and members of the 
subcommittee, I appreciate having the opportunity to appear today to 
discuss the value of higher education for our nation's veterans. I am 
Dan Carey, president of Edgewood College in Madison, Wisconsin.
    Edgewood is a liberal arts Catholic college in the Dominican 
tradition, with 3,064 undergraduate and graduate students. We offer 
more than 40 academic and professional programs, including master's 
degrees in business, education, nursing, and other fields, and two 
doctoral degrees in educational leadership (Educational Leadership and 
DNP - doctorate Nursing Practice.)
    Today, I represent today both my college and the member 
institutions of the National Association of Independent Colleges and 
Universities. With more than 1,000 members nationwide, NAICU reflects 
the diversity of private, nonprofit higher education in the United 
States. Members include traditional liberal arts colleges, major 
research universities, church- and faith-related institutions, 
historically black colleges and universities, women's colleges, 
performing and visual arts institutions, two-year colleges, and schools 
of law, medicine, engineering, business, and other professions. NAICU 
is committed to celebrating and protecting this diversity of the 
nation's private colleges and universities.
    At the outset, I would like to commend the committee for 
highlighting the importance of veterans' receiving value for the time 
and money they put into obtaining a higher education. As an independent 
college president and as the former board chairman of NAICU, I welcome 
the chance to talk about the value of private, non-profit colleges. I'm 
proud of my service as an infantry officer in Vietnam, and I retired as 
a full Colonel in the Reserves. The GI Bill changed my life and the 
lives of countless others! I am personally committed to seeing that 
veterans have a positive educational experience both at my institution 
and at other high-quality colleges across the country.
Veterans' Education at Edgewood College
    The post-9/11 GI Bill has opened the doors to higher education 
across the country. The key question before this Committee today is how 
to ensure veterans get the most out of the GI Bill. I believe the 
answers lie in the success veteran students have at Edgewood. What 
makes Edgewood and the other private non-profit colleges so successful 
for veteran students? Three key factors:
    First, we dedicate financial and personnel resources to students. 
Like most non-profit colleges, Edgewood spends the vast majority of our 
revenue on student education and student services.
    Second, we focus on teaching. We have a top-notch faculty of PhDs. 
Most of our students sit in small seminars of fewer than 20 students. 
Like most non-profit colleges, we push our students to learn. We teach 
them to think critically, to write effectively, and to work in teams. 
Our nursing and science students learn in high quality labs. Our 
students graduate with strong skills to tackle professional careers. 
And when they graduate, we offer intensive job placement assistance to 
every graduate.
    Third, Edgewood offers significant student support services. Some 
veteran students need a little extra guidance through their college 
experience. We have a full-time Veterans Services Coordinator, Matthew 
J. Schroeder, who served in the Army Reserve and United States Marine 
Corps between 1996 and 2000. In response to the requests of our veteran 
students, Edgewood will be providing a dedicated space for veterans on 
the Monroe Street campus--beginning this July. We make psychological 
counseling services easy to access. We also offer personalized academic 
advising to assist veterans and dependents in determining their course 
of study at Edgewood.
    Because of these factors, our enrollment of veterans and dependents 
at Edgewood College has grown dramatically in the past several years. 
Fall enrollment has more than tripled in the last four years (from 43 
to 144), and spring enrollment has nearly quadrupled (from 36 to 143).
    Our graduates are appreciative of the high quality education 
experience at Edgewood, and they find success on the job market. 
Employers know that Edgewood students have benefited from hands-on 
learning and deep engagement with faculty. Employers hire our 
graduates.
    Colleges can solve the drop-out problem and veterans can thrive - 
if colleges make the spending choices to offer an excellent education, 
dedicate resources needed by students, and build a strong sense of 
community and support.
    Edgewood College has partnered with multiple veterans groups and 
agencies, including the Wisconsin Department of Veterans Affairs and 
the Department of Workforce Development. These partnerships have 
allowed Edgewood to provide our student veterans and dependents, as 
well as the veterans community, the widest range of resources possible 
during their academic pursuit and when looking for employment. Edgewood 
College has been host to the Women Veterans Health Summit 2012, has 
offered veterans' job fairs each of the last four years, and has held a 
veterans employer symposium. These partnerships have contributed to 
Edgewood College's strong reputation among veterans and their families.
    Edgewood College has been recognized by several organizations for 
our commitment to veterans. GI Jobs, a military and veteran focused 
employment group, has recognized Edgewood as a Military Friendly School 
since 2009, and Edgewood has been named by Forbes Magazine to the Best 
Colleges List for the past three years. Edgewood's School of Nursing 
has also been recognized for its contribution to the local VA hospital 
and as part of the ``Joining Forces'' campaign to address veteran 
health issues. In 2012, Edgewood College was recognized by Wisconsin 
Governor Scott Walker for our efforts in helping area veterans find 
employment.
Cost of Higher Education
    Obviously, there are costs involved in providing this intensive 
educational experience. At its simplest level, college prices have gone 
up because institutions' annual costs have gone up, and because 
colleges are providing more services than ever. While the list of cost 
drivers changes somewhat from year to year, there are some expenses - 
such as health insurance and financial aid - that have perennially been 
major cost drivers over the past decade.
    Among the reasons that the cost of doing business increases for 
colleges are that:

    <bullet>  Colleges are labor-intensive. On average, 75 percent of 
the costs to run a college is related to personnel expenses, including 
benefits. Thus, all the costs related to recruiting and retaining 
staff, paying cost-of-living increases and keeping up with rising 
health care expenses are paid by colleges and universities as a part of 
doing business.
    <bullet>  Colleges are highly regulated by both federal and state 
governments. Compliance and reporting costs are substantial.
    <bullet>  In addition to providing an education, colleges must 
build and maintain large physical infrastructures that often include 
libraries, computing/technology centers, academic and student-services 
buildings and research facilities.

    The primary sources of revenue for colleges are: tuition and fees; 
government support; gifts, grants, and contracts; auxiliary income; 
endowment income; and other income. Many of these sources of income are 
variable - and sometimes volatile.
    At Edgewood, we have made every effort to restrain our tuition 
costs--holding increases below 3.9% in each of the past three years. We 
participate fully in the Yellow Ribbon program, so that all tuition and 
fee expenses are covered for eligible GI Bill recipients.
    In general, private, nonprofit colleges have slowed annual tuition 
increases to the lowest rates seen in at least four decades. In 2012-
13, published tuition and fees at independent, non-profit institutions 
grew an average of 3.9 percent--the first time on record the rate has 
been below 4 percent.
Value of Higher Education
    The real question is what students are getting from the education 
provided. Later in my testimony I'll outline the array of benefits 
provided by higher education--ranging from higher employment levels and 
higher lifetime earnings to healthier lifestyles.
    But I think the value is best conveyed by the personal stories of 
the veteran students I've come to know at Edgewood and beyond. Let me 
share just a few of them:

    From Ron Bettencourt: ``As a student in my late thirties I wanted 
to attend a school that would give me the necessary education and the 
proper attention. Edgewood College was my first choice as it had a top 
notch nursing program and smaller class sizes. Due to being out of 
school for so long, the smaller classes allowed me to ask questions and 
interact with my professors to best learn the material. I am proud to 
call myself a student of Edgewood College.''
    I had dinner with Ron and his wife and several other veterans about 
a month ago. Their drive, experience, and enthusiasm bring an energy to 
the campus that benefits all of us.
    From Shanna Pelkey: ``After being discharged from the Army I was 
able to get a decent job as an LPN with the skills that I obtained 
while in service. However, I knew that I wanted to further my education 
but at the time I could not afford to attend school on the Montgomery 
GI Bill. After hearing about the Post 9-11 GI bill and the yellow 
ribbon program, going back to school was my best option.
    ``I choose Edgewood College even though it is a private school that 
was beyond what my Post 9-11 benefits would pay for. The yellow ribbon 
program helped to cover the cost allowing me to go to a college that 
came highly recommended by other professionals. Going to Edgewood under 
the Post 9-11 with the yellow ribbon program has allowed me to finish 
my bachelor's degree with minimal amounts of debt as compared with my 
other adult classmates. It has also allowed me to not rely on Student 
loans. I am 1 semester away from graduating with my BSN and feel very 
confident that between the vast experience that I received as an LPN 
and combat medic in the army now coupled with my degree that I will 
receive an excellent career path that will travel with me through my 
husband's career in the Army.''
    From Peter G. Shackelford, U.S. Navy veteran: ``When I transferred 
into Edgewood, my goal was to get in and graduate as quickly as 
possible without being noticed. That meant not wanting to be recognized 
as a veteran in the classroom. This quickly changed when I added the 
Ethnic Studies and Latin American Studies Minor programs to my degree. 
I learned a key concept that I believe applies to all Veterans. That 
concept is that race and ethnicity are not synonymous. Race is 
biological, but ethnicity deals with one's culture and culture is a 
product of one's environment. What I realized is that being in the 
Navy, the military, and now a Veteran is a part of my culture.
    ``I come from the military culture. It is no different than any 
other official ethnic group. We have our language, customs, traditions 
and way of life. Upon this realization, I started identifying myself as 
a veteran at every possible opportunity and I had nothing but positive 
reactions from the students I interacted with both in and out of the 
classroom.
    ``In summary, my time at Edgewood College was a very great 
experience and I hope to continue being involved at some level as an 
alum. The best support for most veterans is for them to be able to 
speak to another veteran in a private setting when on campus. Thank 
you.''
    Another of our students was Jason Diaz--Class of 2010--whom I got 
to know quite well during his time on campus. He is an Iraqi war 
veteran who was inspired to go into nursing while in the military. He 
was not a medic, but he was able to help keep a wounded comrade alive 
long enough to reach safety. While a student at Edgewood College, his 
wife was expecting twins and his father was struck with terminal 
cancer. Edgewood rallied around, and he graduated with a nursing 
degree. While in college he worked as a technician at Dean Clinic and 
is now working in the emergency room at the University of Wisconsin 
Hospital and Clinics.
    Edgewood's Veterans Services Coordinator, Matthew J. Schroeder, 
points out a number of reasons why Edgewood College is a good choice 
for veterans:

    - Commitment to the Yellow Ribbon program;
    - A strong reputation for being community minded and encouraging 
veterans to continue serving after their time in the military ends;
    - Small class sizes;
    - More opportunity to work one-on-one with professors and staff; 
and
    - Strong support and knowledge of College resources from the 
veterans service department.

    Matthew served in the Army Reserve and United States Marine Corps 
between 1996 and 2000.
    We are very proud of the retention rates of our veterans and 
dependents. The last three degree completion program cohorts have 
first-to-second- year retention rates of 85%, 85%, and 80%, 
respectively. The last several transfer cohorts have had first-year 
retention rates as high as 100%, with the largest cohort (2010) 
retaining at 80% after one year. The overall one-year retention rate 
for graduate students has been more than 76% across all beginning 
cohorts in the study.
    These stories are being repeated throughout private, non-profit 
college campuses across the country--where personal attention, 
counseling services, and smaller class sizes are hallmarks of the 
student experience.
Return on Investment
    A college education has enormous value and an enormous return:

    <bullet>  Individuals with higher levels of education earn more and 
are more likely than others to be employed.

    I  As of April 2013, the unemployment rate for those with a 
bachelor's degree or higher was just 3.9% compared to 6.4% for those 
with some college or an associate's degree, and 7.4% for those with a 
high school diploma. (Bureau of Labor Statistics)
    I  For the first quarter of 2013, full-time workers age 25 and over 
holding at least a bachelor's degree had median weekly earnings of 
$1,189 compared to $651 for high school graduates (no college) and $457 
without a high school diploma. (Bureau of Labor Statistics)
    I  Over the course of their working lives, college graduates 
typically earn about 66% more than typical high school graduates, and 
those with advanced degrees earn two to three times as much as high 
school graduates. (College Board, Education Pays 2010)

    <bullet>  Federal, state, and local governments enjoy increased tax 
revenues from college graduates and spend less on income support 
programs for them, providing a direct financial return from investments 
in post-secondary education. (College Board, Education Pays 2010)

    I  In 2008, just over 1% of those with at least a bachelor's degree 
ages 25 and older lived in households that relied on the Food Stamp 
Program, compared to 8% of high school graduates . The pattern was 
similar for the National School Lunch Program. (College Board, 
Education Pays 2010)
    I  Spending on social support programs and incarceration costs are 
much lower for college graduates than for high school graduates. 
(College Board, Education Pays 2010)

    <bullet>  College-educated adults are more likely than others to 
receive health insurance and pension benefits from their employers, and 
to be satisfied with their jobs.

    I  Among private sector employees, 68 percent of those with 
bachelor's degrees or higher received employer provided health 
insurance versus 50 percent of those with high school diplomas. 
(College Board, Education Pays 2010)
    I  Federal, state, and local governments spent about $43 billion on 
payments for health care for the uninsured. (Kaiser Commission report, 
2008)

    <bullet>  The percentage of people who donate their time to 
organizations increases with higher levels of education: 10.4% for 
those with a bachelor's degree or higher versus 6.7% for those with 
some college or an associate's degree and 5.1% for those with a high 
school diploma. (Bureau of Labor Statistics)
    <bullet>  College education leads to healthier lifestyles, reducing 
health care costs for individuals and for society. Of households living 
in poverty (age 25 and older), only 4% had bachelor's degrees or 
higher, versus 7% for those with associate's degrees and 12% for those 
who had attained only a high school diploma. (College Board, Education 
Pays 2010)
    <bullet>  College-educated parents engage in more educational 
activities with their children, better preparing them for school.

    I  Among parents with a bachelor's degree, 68% read to their 
children daily. This compares to 57% of parents with an associate 
degree, 47% of parents with some college but no degree, 41% of high 
school graduates, and 26% of parents who did not complete high school. 
(College Board, Education Pays 2010)
Public Law 112-249: Progress Towards Implementing Data Items
    I know that the subcommittee is also interested in progress towards 
implementing the data items included in Public Law 112-249. The law 
identifies 10 information items that must be provided about each 
institution of higher learning.
    These 10 items are listed below--along with information about the 
current availability of the data.

    (1) Whether the institution is public, private nonprofit, or 
proprietary for-profit.

    This information is available on the Department of Education's 
College Navigator site. (http://nces.ed.gov/collegenavigator/) The 
Department of Veterans' Affairs also includes a link to this site. 
(http://www.gibill.va.gov/resources/education--resources/college--
navigator.html)

    (2) The name of the national or regional accrediting agency that 
accredits the institution, including the contact information used by 
the agency to receive complaints from students.

    The institution's accreditor is available on College Navigator.
    Institutions that participate in the Department of Education 
student aid programs are required to provide students with information 
about where they can register complaints with an accreditor. Edgewood 
provides this information on our website at: http://www.edgewood.edu/
Portals/0/pdf/About/StudentComplaintsProcess.pdf.

    (3) Information on the State approving agency, including the 
contact information used by the agency to receive complaints from 
students.

    Institutions that participate in the Department of Education 
student aid programs are also required to provide students with 
information about where they can register complaints with the State. 
However, this HEA requirement does not include the VA State Approval 
Agency complaint information. Edgewood provides the HEA information on 
our website at: http://www.edgewood.edu/Portals/0/pdf/About/
StudentComplaintsProcess.pdf

    (4) Whether the institution participates in any programs under 
title IV of the Higher Education Act of 1965 (20 U.S.C. 1070 et seq.).

    This information is available on College Navigator, and most 
institutions also include it on their website. The information is 
located on our website at: http://www.edgewood.edu/ProspectiveStudents/
Undergraduate/Freshman/FreshmanFinancialAid.aspx.

    (5) Tuition and fees.

    This information is available on College Navigator and most 
institutions also include it on their website. The information is 
located on our website at: http://www.edgewood.edu/ProspectiveStudents/
Undergraduate/Freshman/FreshmanFinancialAid.aspx.

    (6) Median amount of debt from Federal student loans under title IV 
of the Higher Education Act of 1965 (20 U.S.C. 1070 et seq.) held by 
individuals upon completion of programs of education at the institution 
of higher learning (as determined from information collected by the 
Secretary of Education).

    The ``typical amount borrowed for a student's undergraduate study'' 
may be found on the College Scorecard (http://www.whitehouse.gov/
issues/education/higher-education/college-score-card).
    ``Average undergraduate loans owed at graduation'' \1\ information 
is also included on U-CAN. The University & College Accountability 
Network (U-CAN) is designed to offer prospective students and their 
families concise, web-based consumer-friendly information about the 
nation's private, nonprofit colleges and universities in a common 
format. It was developed and is maintained by the National Association 
of Independent Colleges and Universities (NAICU). Edgwood's U-CAN 
profile may be found at: http://members.ucan-network.org/edgewood.
---------------------------------------------------------------------------
    \1\ The average per-undergraduate-borrower cumulative principal 
borrowed of the 2012 undergraduate class (does not include students who 
transferred in or any money borrowed while at other institutions) who 
started at this institution as first-time students and received a 
bachelor's degree between July 1, 2011 and June 30, 2012. Includes 
loans through all loan programs: institutional, state, Federal Perkins, 
Federal Stafford Subsidized and Unsubsidized, Federal Direct Student 
Loans and Federal Family Education Loans, and private loans certified 
by this institution; parent loans are excluded but co-signed loans are 
included.
---------------------------------------------------------------------------
    ``Median borrowing'' will be included on the Shopping Sheet that 
will be available for use beginning in the 2013-2014 award year. 
(http://collegecost.ed.gov/shopping--sheet.pdf)

    (7) Cohort default rate, as defined in section 435(m) of the Higher 
Education Act of 1965 (20 U.S.C. 1085(m)), of the institution.

    This information is included on College Navigator and on the 
College Scorecard.
    It will also be provided on the Shopping Sheet that will be 
available for use beginning in the 2013-2014 award year. (http://
collegecost.ed.gov/shopping--sheet.pdf)

    (8) Total enrollment, graduation rate, and retention rate, as 
determined from information collected by the Integrated Postsecondary 
Education Data System of the Secretary of Education.

    This information is included on College Navigator.

    (9) Whether the institution provides students with technical 
support, academic support, and other support services, including career 
counseling and job placement.

    Most institutions provide this information on their websites. It 
can be located on our site at: http://my.edgewood.edu/sites/services/
src/default.aspx
    http://my.edgewood.edu/sites/services/src/personalcounseling/
default.aspx
    http://lss.edgewood.edu/

    (10) the information regarding the institution's policies related 
to transfer of credit from other institutions, as required under 
section 485(h)(1) of the Higher Education Act of 1965 (20 U.S.C. 
1092(h)(1)) and provided to the Secretary of Education under section 
32(i)(1)(V)(iv) of such Act (20 U.S.C. 1015a(i)(1)(V)(iv)).

    Most institutions meet this requirement by posting the information 
on their websites. It may be found on our site at: http://
www.edgewood.edu/ProspectiveStudents/Undergraduate/Transfer.aspx
    http://www.edgewood.edu/ProspectiveStudents/Undergraduate/Transfer/
TransferEquivalencies.aspx
    http://www.edgewood.edu/Veterans/CreditforPriorLearning.aspx
    http://www.edgewood.edu/About/FederalCompliance.aspx

    There is also a link to the information on our U-CAN profile.

Principles of Excellence (Executive Order 13607)
    Finally, Edgewood College is one of the many institutions that have 
voluntarily signed on to the Principles of Excellence outlined in 
Executive Order 13607. The purposes of the Principles are to assure 
that service members, veterans, spouses, and other family members:

    (1) Receive meaningful information about the financial cost and 
quality of education;

    (2) Are not subject to abusive and deceptive practices; and

    (3) Receive high-quality academic and student support services.

    As noted throughout this testimony, Edgewood believes strongly in 
these principles and consistently puts them into practice. We are proud 
of the fact that our cohort default rate stands at 2.5%--well below the 
national average of 13.4% and the proprietary school rate of 22.7%. And 
this figure is not due to our having a wealthy student body; in fact, 
35% of our current undergraduate full-time students are eligible for 
Pell grants. We see providing a supportive environment as a key element 
of our success. We provide individual support services for active 
military students and veteran students, and we provide placement 
support and assistance for all veterans of the state of Wisconsin.
    I am confident that veterans are receiving value from my 
institution and many other private, non-profit institutions that offer 
a high-quality education, supportive veteran services, and a strong 
sense of community for veterans and their dependents. Thanks you for 
the opportunity to share some of these success stories with you today.
Executive Summary
    I am testifying on behalf of Edgewood College and the National 
Association of Independent Colleges and Universities (NAICU) regarding 
the value of education for veterans at private, non-profit colleges.
    Veterans' Education at Edgewood College: Our fall enrollment of 
veterans and dependents has more than tripled in the last four years 
(from 43 to 144), and spring enrollment has nearly quadrupled (from 36 
to 143). Providing a supportive environment is a key element of this 
growth. Our academic services include personalized advising to assist 
veterans and dependents in determining their course of study. We 
provide individual support services for active military students and 
veteran students, and we provide placement support and assistance for 
all veterans of the State of Wisconsin. Our cohort default rate stands 
at 2.5%--well below the national average of 13.4% and the proprietary 
school rate of 22.7%. This figure is not due to our having a wealthy 
student body; in fact, 35% of our undergraduate full-time students are 
eligible for Pell grants.
    Cost of Higher Education: At its simplest level, college prices 
have gone up because institutions' annual costs have gone up, and 
because colleges are providing more services than ever. While the list 
of cost drivers changes somewhat from year to year, there are some 
expenses - such as health insurance and financial aid - that have been 
major cost drivers over the past decade.
    Edgewood has made every effort to restrain our tuition costs--
holding increases below 3.9% in each of the past three years. We 
participate fully in the Yellow Ribbon program, so that all tuition and 
fee expenses are covered for eligible GI Bill recipients. In general, 
private, nonprofit colleges have slowed annual tuition increases to the 
lowest rates seen in at least four decades.
    Value of Higher Education: The real question is what students are 
getting from the education they receive. For me, the value is best 
shown by the personal stories of the veteran students I've come to 
know. There are many reasons why my college is a good choice for 
veterans, and these qualities are found at private, non-profit college 
campuses across the country--where personal attention, counseling 
services, and smaller class sizes are hallmarks of the student 
experience. Moreover, as a general matter, a college education has 
enormous value and an enormous return in terms of higher earnings, 
higher employment rates, increased tax revenues, lower need for income 
support, improved health and pension benefits, and higher job 
satisfaction--to name a few.
    Public Law 112-249: Progress on Data Items: In response to the 
subcommittee's interest in progress towards implementing the 10 data 
items included in Public Law 112-249, I have provided detailed 
information regarding the current availability of the data in my full 
written testimony.
    Principles of Excellence: Edgewood College is one of the many 
institutions that have voluntarily signed on to the Principles of 
Excellence, which are intended to assure that service members, 
veterans, spouses, and other family members: receive meaningful 
information about the financial cost and quality of education; are not 
subject to abusive and deceptive practices; and receive high-quality 
academic and student support services. Edgewood strongly supports these 
principles and consistently puts them into practice.

                                 <F-dash>
                   Prepared Statement of David Baime
                               Statement
    The American Association of Community Colleges (AACC) is pleased to 
provide testimony to the Veterans' Affairs Committee's Subcommittee on 
Economic Opportunity. AACC represents the nation's almost 1,200 
community colleges. Our member colleges, as well as AACC, have had a 
long and strong record of service to our nation's veterans and we 
expect this relationship to continue for many years. At this time, we 
are particularly proud of the role of community colleges in helping 
veterans transition successfully back into the workplace by leveraging 
their education and skills.
    Community colleges are as broad and complex as our nation. They are 
large and small, urban, suburban, and rural, and serve the most diverse 
population with a wide array of programs. They are constantly evolving 
as the communities that they serve change. People often refer to ``the 
community colleges'' as if they were a monolith, but nothing could be 
further from the truth. For servicemembers and veterans, community 
colleges provide trusted and accessible programs and services in an 
environment where they feel welcomed.
Community College Veterans' Initiatives
    Community colleges have a proud history of serving veteran and 
active-duty students. According to a 2012 survey, nearly four out of 
five community college respondents already had in place or were in the 
process of implementing programs and services specifically designed for 
servicemembers and veterans. These include professional development for 
faculty and staff to help them better serve veterans, increasing the 
number of services for these students, and establishing Web pages 
specifically tailored to veterans. Many institutions, particularly 
those with larger veteran populations, are establishing dedicated 
veterans centers on campus where veterans have the opportunity to 
congregate and receive tutoring and other services.
    Many colleges have dedicated transition programs for student 
veterans that aim to ease the transition from military to civilian 
student life. A great example of this can be found locally at 
Montgomery College, in Maryland, which has a program called 
Combat2College (C2C). The program provides services to veterans, such 
as dedicated academic advisors and veterans clubs and activities. Other 
colleges have formed learning communities for student veterans. Several 
of these efforts have been assisted by federal programs, such as the 
TRIO Veterans Upward Bound Program, the Fund for the Improvement of 
Postsecondary Education, and the Centers of Excellence for Veteran 
Student Success, a Department of Education program that only received 1 
year of funding.
    Community colleges are partners in their communities to help 
veterans in aspects of their lives outside of college. Many colleges 
work with their local Workforce Investment Boards to implement 
workforce training and employment services programs to meet veterans' 
needs. AACC is a strong supporter of the Veterans Retraining Assistance 
Program that seeks to help older veterans get the additional training 
and education they need to find employment. Some community colleges 
serve as conveners and provide space for community-wide programs 
focused on specific issues, such as physical and mental health. Many 
community colleges have established liaisons and centers where veterans 
feel comfortable seeking support, including women veterans who are 
least likely to self-identify.
Economic Benefits of Community College
    Today, many people are asking, is college worth it? And the answer, 
now more than ever, is yes. Although there can never be an absolute 
guarantee, the evidence is overwhelming that the surest path to a 
family-supporting job is by obtaining a postsecondary degree. 
Multitudes of data support this conclusion.
    For example, a study just released by the Hamilton Project states 
that the average annual earnings return to those who received an 
associate degree was 19.3%, higher than that associated with any other 
type of college degree. On average, individuals with an associate 
degree earn 20% more than those who hold just a high school diploma 
(Education Pays, College Board, 2010). This May, the unemployment rate 
for those with a bachelor's degree was 3.8%, while those without a high 
school diploma had an 11.1% rate (New York Times, June 7, 2013). We 
also note that between 1970 and 2005, associate degrees were the 
fastest-growing type of college degree earned (Hauptman, 2011), 
increasing at twice the rate of bachelor's degrees.
    So, while college financing is a major concern for millions of 
Americans, sticker shock and overblown accounts of a possible student 
loan debt bubble should not obscure the reality that college remains 
the best investment most Americans will ever make.
    Nevertheless, the choice to enroll at a particular college, and a 
program within that institution, carries immense consequences. Many 
parties, both public and private, are working to ensure that students 
are equipped to choose programs and colleges best suited to their 
interests and abilities, but further progress needs to be made. In some 
cases, there is no relevant information for prospective students, but 
in other cases there is too much overlapping or confusing data about 
graduation rates, loan debt, and post-college earnings. AACC continues 
to work with both Congress and executive branch agencies in an effort 
to consolidate and systematize the information that students receive. 
An additional desirable strategy would be to convene a series of focus 
groups to ensure that any information provided has maximum impact in 
helping students make choices to guide education and careers.
Tuition
    The first principle of community colleges is to be accessible 
through low tuition, providing a significant cost-effective option for 
servicemembers, veterans, and others. Last fall, according to the 
College Board, the average community college tuition and fees for a 
full-time student was just $3,131. This was a 5.8% increase over the 
previous year. Over the last 5 years, inflation-adjusted tuitions have 
risen by 24%. For better or worse, future college tuition will be 
largely dependent on the level of public support the colleges receive. 
We are hopeful that this support will strengthen as the economy 
continues to recover.
    Fortunately, in large part because of generous congressional 
support for Federal Pell Grants, other federal student aid programs, 
and the American Opportunity Tax Credit, net total costs for community 
college students have remained fairly constant over the last 20 years. 
We do not take this investment in our students for granted.
    College tuitions are set by a variety of entities. In most states 
they are a local decision made by institutional officials in concert 
with their board of trustees. In some states, such as Virginia, the 
state board sets them for all community colleges. In still other 
states, such as California, they are fixed by state legislation. In all 
cases, these actions are before the public. We note that there is no 
relationship whatsoever between federal student aid and other benefits 
and community college tuitions. The fact that the maximum Pell Grant is 
and has been far higher than community college tuitions is prima facie 
evidence of this reality.
    Community colleges do frequently charge higher tuitions for either 
out-of-district or out-of-state residents. The average out-of-district 
(in-state) tuition and fees are 16.4% greater than in-district charges, 
and on average out-of-state students pay 136% more than in-district 
students. This practice is informed by a basic principle of equity--
heavily subsidized tuitions should be provided first and foremost to 
those who bear the taxes that support them.
    However, virtually no community college student pays the full cost 
of his or her education. On average, each year institutions spend 
$12,398 per student on education. Unfortunately, due primarily to 
public funding cuts caused by the recession, this amount has declined 
somewhat over the past few years.
Accountability and Outcomes
    The accountability movement, with its emphasis on success as well 
as access, infuses all aspects of our campuses. AACC took a hard look 
at its member institutions with the issuance of the landmark report of 
the 21st-Century Commission on the Future of Community Colleges, 
Reclaiming the American Dream. This report acknowledged the fact that, 
despite their essential role in the nation's economy and society, 
community colleges must improve their performance dramatically in order 
to fully realize their promise. It stated that ``community colleges 
need to reimagine their roles and the ways they do their work.'' AACC 
and its members are deeply engaged in implementing the comprehensive 
recommendations contained in this report.
    AACC is preparing to formally launch its Voluntary Framework of 
Accountability (VFA), which will help institutions and the public 
better assess how well colleges are doing. The VFA will provide a more 
comprehensive and finer-grained account of college performance than 
anything currently provided by the federal or state governments. AACC 
is anxious to get this project fully implemented, as it should provide 
a much clearer picture of institutional effectiveness in student 
progress, workforce outcomes, and learning outcomes.
    But the federal government also can engage in a more active role in 
ensuring that colleges receive better data on the progress of their 
students than it does at present. There is no national system that 
tracks students through postsecondary education. While efforts continue 
to be made to change this, those efforts are still being met with 
strong resistance. In addition, the ability for institutional officials 
to know about the workforce (primarily earnings) outcomes of program 
completers is patchy, if slowly improving. While education should be 
far more expansive in its ambitions than simply providing job training, 
we also believe that obtaining data about the employment outcomes of 
our students is essential for students, institutions, policymakers, 
employers, and the general public. The federal government can play an 
essential role in this regard.
New Forms of Credentialing
    Community colleges are active in developing and using new methods 
to evaluate the knowledge, competencies, and skills students bring to 
campus. Nowhere is this more important than with the veteran 
population, given the fact of their previous experience in the services 
in what often are highly complex technical areas. Many means of 
evaluating these competencies have been developed and continue to be 
refined. These include direct assessment, credit for prior learning, 
and new forms of credentialing, particularly in certain industries. 
Companies are eager for this ``talent pipeline'' and work with colleges 
to establish career paths.
    Many, if not most, community colleges award academic credit for 
prior experience gained in the military, and are working to help 
military and veteran students complete certificates and degrees more 
quickly. AACC is proud to be a partner with the American Council on 
Education, the Council for Adult and Experiential Learning, and three 
community colleges in the Maps to Credentials project, to design and 
pilot credential road maps that are cross-walked with military 
occupational specialties for veteran students. Another example is the 
College Credit for Heroes (CCH) program, a partnership of the Texas 
Workforce Commission and the Texas Higher Education Coordinating Board. 
Through the CCH program, seven Texas community colleges formed the 
Texas Inter-College Council on Veterans (TICCV) under the direction of 
the Texas Workforce Commission. The mission of the seven partner 
colleges is to recommend best practices and processes in order for 
Texas institutions of higher education to assist veterans and 
servicemembers in achieving their educational and career goals. Most 
community colleges also are members of the Servicemembers Opportunity 
Colleges Consortium, a collection of 1,900 two-year and four-year 
institutions that, among other things, are committed to having 
processes in place to evaluate prior military and other learning for 
college credit.
    It should be stressed that much of this innovation is occurring 
under the rubric of traditional academic institutions, not that it is 
or should be limited to them. A variety of parties have responded to 
the challenge of trying to document the learning experience that takes 
place outside the classroom. We salute these efforts. We note, however, 
that there is significant potential for abuse if federal funds are made 
available to entities that would undertake new forms of assessment. 
Therefore, we caution policymakers to move carefully into this realm.
    It is also important to remember that, in addition to needing 
specific skill sets to meet the demands of a given job, prospective 
employers also need workers who can read, write, analyze, communicate, 
show up on time, and have a positive attitude. Some of these traits can 
be assessed, while others have to be demonstrated over time. We believe 
that service in the military does show the type of commitment and 
reliability valued by many employers.
Conclusion
    Higher education has never been more important to our individual 
and collective well-being. Those who have served our country in the 
armed forces deserve the fullest ability to participate in 
postsecondary education. Community colleges remain dedicated to keeping 
the door wide open to these individuals to whom the country owes so 
much and to helping them find the opportunities that will validate and 
reward their contributions to the nation.
Executive Summary
    The American Association of Community Colleges (AACC) represents 
the nation's almost 1,200 community colleges. AACC and its member 
colleges have a long and strong record of service to our nation's 
veterans and we expect this relationship to continue.
Community College Veterans' Initiatives
    Community colleges have a proud history of serving veteran and 
active-duty students. Nearly four out of five community colleges have 
indicated that they already have in place or are in the process of 
implementing programs and services specifically designed for 
servicemembers and veterans. Many institutions, particularly those with 
larger veteran populations, have established dedicated veterans campus 
centers where veterans can congregate and receive tutoring and other 
services.
Economic Benefits of Community College
    College education continues to be the best investment Americans 
will make. Evidence is conclusive that attainment of postsecondary 
education is the surest path to economic security in today's economy. 
Community colleges play an essential role in making college accessible 
to the broadest swath of American society. It remains extremely 
important to ensure that veterans enroll in programs that best suit 
their abilities and inclinations.
Community College Tuition
    The first principle of community colleges is to remain accessible 
through low tuitions. Last fall, the average community college tuition 
and fees for a full-time student was $3,131. Tuitions are set by 
institutions and their boards; at the state level by the system office; 
or by state legislatures. Out-of- district or out-of-state students are 
often charged higher tuitions because they do not contribute to the 
state and/or local revenues that keep tuition low. Very few students 
pay more than the actual cost of providing education, which is $12,400 
for a full-time, full-year student.
Accountability and Outcomes
    Community colleges are deeply engaged in improving their 
performance. In particular, there is a concerted effort to increase 
student completions. AACC has undertaken a major study of community 
colleges, ``Reclaiming the American Dream,'' that calls for substantial 
change, and it is also launching its Voluntary Framework for 
Accountability. The federal government can play a key role by ensuring 
that institutions receive better data to monitor their outcomes.
New Forms of Credentialing
    Community colleges are at the vanguard of new means of evaluating 
learning in higher education. These methods include prior learning 
assessment and direct assessment. A number of programs targeted 
specifically to servicepersons, both current and veterans, have been 
developed. Congress needs to encourage these efforts but make sure they 
do not become a vehicle for program abuse.

                                 <F-dash>
         Prepared Statement of Robert M. Worley II USAF (Ret.)
    Good morning, Mr. Chairman, Ranking Member Takano, and other 
Members of the Subcommittee, I am pleased to be here today to discuss 
the Department of Veterans Affairs' (VA) efforts to implement the 
provisions of Executive Order (EO) 13607, ``Establishing Principles of 
Excellence for Educational Institutions Serving Service Members, 
Veterans, Spouses, and Other Family Members,'' and Public Law (PL) 112-
249, ``Improving Transparency of Education Opportunities Act of 2012.'' 
We are committed to ensuring that VA's education benefits provide 
access to high-quality educational opportunities that will enhance 
beneficiaries' ability to meet their academic and career objectives. 
The actions required by EO 13607 and PL 112-249 align with these 
objectives and reaffirm our commitment to ensuring Servicemembers, 
Veterans, and their dependents are well served by these programs. My 
testimony today will highlight VA's progress toward implementing EO 
13607 and PL 112-249.
Executive Order 13607
    Issued by the President on April 27, 2012, EO 13607 directs VA, the 
Department of Defense (DoD), and the Department of Education (ED), in 
consultation with the Department of Justice (DOJ) and the Consumer 
Financial Protection Bureau (CFPB), to develop and implement 
``Principles of Excellence'' to strengthen oversight, enforcement, and 
accountability within Veteran and military educational benefit 
programs.
    These principles apply to educational institutions receiving 
funding from Federal military and Veterans educational benefit 
programs, including benefits provided under the Post-9/11 GI Bill. The 
principles will ensure that educational institutions provide meaningful 
information to Servicemembers, Veterans, spouses, and other family 
members about the cost and quality of educational institutions. The 
principles will also assist prospective students in making choices 
about their Federal educational benefits; prevent abusive and deceptive 
recruiting practices that target the recipients of Federal military and 
Veterans' educational benefits; and ensure that educational 
institutions provide high-quality academic and student-support services 
to Servicemembers, Veterans, and their families.
    Immediately after EO 13607 was signed, VA began outreach efforts to 
disseminate the EO to educational institutions as well as other key 
stakeholders (including Veterans Service Organizations [VSOs] and 
higher education representatives). We sent letters through the State 
Approving Agencies (SAA) and VA's Education Regional Processing Offices 
(RPO) to educational institutions to strongly encourage participation 
and compliance with the provisions of the EO. VA, DoD, and ED conducted 
three joint webinars in June 2012 for over 2,000 participants to 
introduce and explain the various aspects of the EO and to address 
questions and concerns from educational institutions. To further 
encourage participation, we recently targeted outreach efforts to the 
US News & World Report top 107 educational institutions and to 
approximately 300 educational institutions, which each have more than 
250 Veterans enrolled. I am pleased to report that 6,282 campuses have 
voluntarily agreed to comply with the Principles of Excellence as of 
May 29, 2013. These institutions are listed on our GI Bill Web site.
    VA is developing a Comparison Tool/GI Bill Benefit Estimator that 
will enable prospective students to compare educational institutions 
using key measures of affordability and value through access to school 
performance information, and consumer protection information.
    VA placed a link to ED's College Navigator on the eBenefits website 
in November 2012. VA subsequently embedded ED's College Navigator into 
the GI Bill Web site in March 2013. As a long-term plan, VA will 
integrate data from ED's College Navigator with data from VA's Web-
Enabled Approval Management System (WEAMS) to calculate tuition and 
fees, monthly housing allowance, and books and supplies estimates. The 
tool will include indicators on graduation rates, retention rates, loan 
default rates, average student loan debts, Veteran population, Yellow 
Ribbon Program and Principles of Excellence participation, as well an 
estimated cost of attendance. We anticipate this tool will be available 
on the GI Bill Web site and www.eBenefits.va.gov by April 2014.
    In addition, VA in conjunction with our partners at DoD, ED, CFPB, 
and DOJ, is developing student-outcome measures that are comparable, to 
the extent practicable, across Federal educational programs and 
institutions. We have vetted a set of proposed measures with VSOs and 
school organizations, and received positive feedback. VA, in 
collaboration with DoD and ED, will finalize the cohorts, definitions, 
and measurement points at the end of June 2013. We will coordinate with 
other government agencies to determine availability of data for post-
graduation outcome measures in July 2013. Finally, VA will begin 
collecting data elements from our stakeholders in August 2013.
    EO 13607 also requires VA and DOD, in consultation with ED, CFPB, 
and DOJ, to collaborate on the creation of a centralized complaint 
system for individuals to register complaints about educational 
institutions regarding topics such as student loans, quality of 
education, refund policies, and post-graduation job opportunities. 
Complaints will be received, processed, responded to, and ultimately 
transmitted to the Federal Trade Commission's (FTC) Sentinel database 
to make the information available to other federal agencies, law 
enforcement organizations, and SAAs. VA is developing a complaint form 
that will be made available electronically through the GI Bill Web 
site. Once complaints are received, VA will review and triage them. 
Valid complaints will be sent to schools or employers for a response, 
as well as to the FTC's Consumer Sentinel Network. VA will expand the 
compliance survey program to incorporate both standard reviews and 
risk-based program reviews to ensure compliance with the Principles of 
Excellence at institutions who have agreed to comply.
Public Law 112-249
    PL 112-249 was enacted on January 10, 2013, and much within the new 
law overlaps and complements the work begun in support of EO 13607. PL 
112-249 requires VA to develop a comprehensive policy to improve 
outreach and transparency to Veterans and Servicemembers through the 
provision of information on IHLs and to implement online tools to 
facilitate the policy. The law also requires VA to develop a policy and 
plan for promoting Chapter 36 educational and vocational counseling to 
Veterans and recently separated members of the Armed Forces; develop a 
centralized mechanism for tracking and publishing feedback from 
students and SAAs regarding the quality of instruction, recruiting 
practices, and post-graduation employment placement of IHLs; and 
develop a policy and plan to disapprove any IHL that provides any 
commission, bonus, or other incentive payment based directly or 
indirectly on success in securing enrollments or financial aid to any 
persons or entities engaged in any student recruiting or admission 
activities or in making decisions regarding the award of student 
financial assistance. VA was required to perform two market surveys 
related to academic readiness and commercially available off-the-shelf, 
online comparison tools.
    To implement PL 112-249, VA is partnering with ED, DoD, CFPB, and 
the National Association of State Approving Agencies. As required by 
this law, VA submitted a report to Congress in April 2013 that includes 
a description of the comprehensive policy, our plan to implement the 
policy, and the results of the market surveys conducted to determine 
the availability of commercially available off-the-shelf online tools. 
The report is available on the GI Bill website.
    As a result of the market surveys, VA plans to pilot an online 
assessment tool called CareerScope that allows a Veteran or 
Servicemember to assess whether he or she is ready to engage in 
postsecondary education and determine his or her likely vocational 
aptitude. VA conducted another market survey for an online tool that 
provides a Veteran or Servicemember with a list of providers of 
postsecondary education and training opportunities based on specific 
postsecondary education criteria selected by the individual. We 
discovered that many online tools provide much of the required 
information; however, none of the Web sites provide all the data 
required in the law. As a result, VA will build a tool that aggregates 
information from existing websites to provide all data, which will be 
hosted on gibill.va.gov and eBenefits.
    To promote Chapter 36 educational and vocational counseling 
(provided under 38 U.S.C. Sec.  3697A), VA will increase awareness and 
inform eligible participants about Chapter 36 counseling services, 
including how to determine an appropriate degree program and the 
education benefit program most appropriate for their individual 
circumstances. VA will facilitate applications for interested eligible 
participants as a part of the redesigned Transition Assistance Program 
(TAP) process. VA is also promoting Chapter 36 counseling services 
through the VetSuccess on Campus programs at more than 35 schools. In 
addition, we will provide information about Chapter 36 counseling 
services to our stakeholders, including other federal agencies, VSOs, 
School Certifying Officials, SAAs, and other private-sector entities 
that provide information and guidance to Veterans and Servicemembers 
about VA educational benefit programs. Title 38, section 3697, chapter 
36, currently authorizes payments not to exceed $6 million in any FY 
for vocational and educational counseling. VA submitted a FY 2014 
legislative proposal to increase the amount to $7 million. By FY 2014, 
VA expects a substantial increase in requests for these counseling 
services due to vocational assessments required for VA's collaboration 
with DoD's Integrated Disability Evaluation System, VetSuccess on 
Campus program, and the ongoing modernization of the Transition 
Assistance Program in conjunction with the current military drawdown. 
PL 112-249 provides a process for acquiring the necessary information 
and the guidelines for communicating with IHLs. It also specifies that 
VA efforts should not duplicate the efforts being taken by other 
Federal agencies. It further specifies that VA's comprehensive policy 
must be consistent with the requirements and initiatives resulting from 
EO 13607.
The Cost of Postsecondary Education and the Increase in Non-college 
        Degree Programs
    VA's focus, through implementation of the EO and PL 112-249, is to 
do everything possible to ensure Veterans and family members are 
comprehensively informed consumers, so they are able to pursue an 
approved program of education at the academic institution - public, 
private non-profit, or private for-profit - that best meets their 
specific needs. As part of the VOW to Hire Heroes Act of 2012, which 
made TAP mandatory for all separating Servicemembers, VA worked with 
our partners at DoD and ED to redesign the curriculum. The new TAP 
Goals, Plans, and Success (Transition GPS) has several new components - 
notably, an optional track, called Accessing Higher Education, which is 
dedicated to providing information on education and/or training 
opportunities, which includes VA education benefits. As part of the 
curriculum, Servicemembers will receive pre-separation counseling and 
register for an eBenefits account.
New Education Benefit Programs
    Also, as the Subcommittee is well aware, in the past five years, VA 
has implemented two new education benefit programs aimed at increasing 
educational opportunities for Veterans, Servicemembers, and their 
dependents. The Post-9/11 GI Bill, implemented by VA on August 1, 2009, 
is the most comprehensive education benefit package since the original 
``GI Bill'' was signed into law in 1944. As of June 6, 2013, over 
977,000 Veterans, Servicemembers, and their dependents have received 
approximately $29.4 billion in benefits under this new education 
program. In fiscal year (FY) 2012, VA provided education benefits to 
nearly one million Veterans, Servicemembers, and dependents under all 
our educational benefit programs.
    To further increase the educational options available to our 
beneficiaries, Public Law 111-377, the Post-9/11 Veterans Educational 
Assistance Improvements Act of 2010, made changes to the types of 
training approved for benefits under the Post-9/11 GI Bill. Effective 
on October 1, 2011, the Post-9/11 GI Bill was expanded to include non-
college degree programs, such as on-the-job training, vocational flight 
training, and correspondence courses.
    The Veterans Retraining Assistance Program (VRAP) (section 211 of 
Public law 112-56), which became law on November 21, 2011, and which is 
our newest education benefit program, focuses on offering certain 
Veterans the opportunity to train in non-traditional, postsecondary 
education by requiring the training be completed at a community college 
or technical school and lead to an associate degree, certificate, or 
other record of completion in a high-demand field. In addition, SAAs 
are contracted to perform outreach regarding available programs of 
education, including apprenticeship and on-the-job training programs. 
VA began accepting applications for VRAP on May 15, 2012, to help 
retrain those hit hardest by unemployment - Veterans aged 35 to 60. As 
of June 6, 2013, over 51,000 unemployed Veterans have received $317.2 
million in benefits under VRAP.
Conclusion
    VA has worked with key stakeholders to help ensure that Veterans 
utilizing their education benefits are paid in a timely and accurate 
manner. Through further continuing interagency cooperation and student 
outreach, VA will ensure that Veterans are informed consumers and that 
schools meet their obligations in training this Nation's next 
``greatest generation.''
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions you or the other Members of the Subcommittee may 
have.

                                 <F-dash>
                       Statements For The Record
                           The College Board
    We are pleased to respond to the Chairman's request for testimony 
on the growth in the cost of postsecondary education, non-loan student 
aid, and student debt for students in different sectors of 
postsecondary education.
    As Table 1 shows, in 2011-12, the federal government awarded $12.2 
billion in grant aid through educational assistance programs for 
veterans. About three quarters of the total funding ($9.4 billion) was 
awarded under the Post-9/11 GI Bill. (About 92% of the funding went to 
undergraduate students, with the remainder financing graduate 
education.) Expenditures more than doubled between 2008-09 and 2009-10, 
with the introduction of the new benefits program.
    In 2011-12, veterans' benefits accounted for 25% of all federal 
grant aid to postsecondary students and 11% of the grant aid students 
received from all sources. (The $34.5 billion Pell Grant program 
accounted for 70% of total federal grant aid in 2011-12.)


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    This significant level of funding for veterans and dependents makes 
examining how students are using the funds, and whether the investment 
is paying off, vital from the perspective of taxpayers and students.
    Veterans are different from other students in a variety of ways. 
Most are older than traditional-age college students and like other 
adult students, many are juggling family and work responsibilities 
while they are in school. While we do not have data on the enrollment 
patterns of veterans, we do know where they are using their federal aid 
dollars. As Table 2 shows, in 2009-10, 36% of the funding from the 
Post-9/11 GI Bill went to students enrolled in for-profit institutions. 
Overall, about 12% of postsecondary enrollments were in this sector. 
Because low-income students are disproportionately likely to enroll in 
for-profit institutions, this sector also received 21% of Pell Grants 
in 2011-12.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    The concentration of veterans in the for-profit sector is not new, 
although it appears to have increased with the advent of the new, more 
generous benefit program. In 2007-08, when 9% of all undergraduates 
were enrolled in for-profit institutions, 14% of veterans were in this 
sector. At that time, much of this difference could be attributed to 
the older ages of all enrolled veterans, 59% of whom were age 30 or 
older, compared to 22% of the students with no military experience. 
Among students age 30 or older, 16% of veterans and 13% of non-veterans 
were enrolled in the for-profit sector. \1\
---------------------------------------------------------------------------
    \1\ National Center for Education Statistics, National 
Postsecondary Student Aid Study, 2007-08.
---------------------------------------------------------------------------
Published Prices
    Tuition prices vary considerably across sectors. Table 3 shows that 
published tuition and fees at private for-profit institutions averaged 
an estimated $15,172 in 2012-13, compared to $8,655 for in-state 
students at public four-year colleges and universities and $3,131 for 
those enrolled in community colleges. The price differential between 
for-profit and public institutions is large and for many students, is 
reflected in the higher student debt levels in the for-profit sector, 
discussed below.
    Eligible veterans attending a public college or university have all 
of their in-state tuition and fee payments covered under the Post-9/11 
GI Bill. Generally, students attending a private or foreign school are 
covered for up to $18,077.50 in tuition and fees in 2012-13. (This 
maximum is adjusted each year for inflation.) \2\ In addition to 
tuition and fee coverage, eligible veterans receive a monthly housing 
allowance and an annual books and supplies stipend. As a result of 
these benefits, student debt levels are not likely to cause the same 
problems for veterans as for students who are not eligible for these 
subsidies.
---------------------------------------------------------------------------
    \2\ Department of Veterans Affairs, Post-9/11 GI Bill, Chapter 33 
(http://www.gibill.va.gov/resources/benefits--resources/rates/CH33/
Ch33rates080112.html).


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Student Financial Aid
    In addition to federal grant aid, students receive grant aid from 
state governments, from employers and other private entities, and from 
colleges and universities. As Table 4 shows, 44% of the total grant aid 
awarded in 2011-12 was from the federal government, up from 32% a 
decade earlier. In 2011-12, full-time equivalent undergraduate students 
received an average of $6,932 in grant aid from all of these sources 
combined. They received an additional $1,169 in average benefits from 
federal education tax credits and deductions.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    The composition of grant aid differs across sectors. In 2011-12, 
full-time students in private nonprofit four-year colleges and 
universities received only about 18% of their grant aid from the 
federal government, and received 69% from institutions. At the other 
end of the spectrum, about 92% of the grants received by students in 
the for-profit sector were from the federal government.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Net Price
    Although it is generally the published prices that make headlines, 
it is the net prices paid by individual students that matter most for 
college access and affordability. Table 6 shows the published price, 
net price, and total grant aid and tax benefits per full-time 
undergraduate student by sector over time. As Table 6 shows, while the 
average published tuition and fee price at public four-year 
institutions was $8,660 in 2012-13, the average net price was $2,910, 
after subtracting $5,750 estimated grant aid and tax benefits from 
published tuition and fees. In the same year, full-time students 
received an estimated $4,350 in grant aid and tax benefits in the 
public two-year sector. This aid averaged about $15,680 for full-time 
students in the private nonprofit four-year sector and $10,220 for 
those enrolled in for-profit institutions.
    Over the past five years, the average published public four-year 
in-state tuition and fee price has increased by 27% in real terms, 
while the average net price has increased by 18%. During this period, 
the average published tuition and fee price increased by 24% and 13% 
for public two-year and private nonprofit four-year institutions, 
respectively, while the net tuition and fee price in both sectors 
declined.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Student Debt
    The most up-to-date, reliable data about the debt levels of college 
graduates in all sectors are from 2009. As Table 7 shows, in 2009, 37% 
of bachelor's degree recipients who were dependent on their parents for 
financial aid purposes graduated debt-free, compared to only 25% of 
those who were independent. While we know that students borrow more 
now, there is no reason to believe that the pattern across sectors has 
changed significantly.
    Table 7 shows that while 18% of dependent bachelor's degree 
recipients graduated with more than $28,000 in debt in 2009, in the 
for-profit sector that figure was 65%. (There were too few bachelor's 
degrees awarded to independent students in the for-profit sector to 
yield a valid figure for this group.)


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Many students enroll in postsecondary programs but never earn 
degrees. These students are likely to have difficulty repaying their 
loans. As Table 8 shows, 30% of students who enrolled for less than one 
year borrowed, 78% of those who enrolled for such a short period of 
time in the for-profit sector borrowed and 13% borrowed more than 
$10,000. Overall, 13% of students who left school after two years or 
longer with no credential had accumulated more than $20,000 in debt; 
30% of students from the for-profit sector had accumulated this level 
of debt.
    Again, the level of the federal assistance program for veterans may 
shield this group of students from the debt problems facing others.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Completion Rates
    It is difficult to predict outcomes for the veterans now 
benefitting from the relatively new federal benefits. Many of these 
students attend for-profit institutions. Because they are typically 
adults with family and work responsibilities, they tend to seek 
shorter-term programs with flexible schedules and specific occupational 
direction. The for-profit sector offers many shorter-term certificate 
programs and has relatively high completion rates for these programs.
    Table 9 shows the percentage of students who completed a degree or 
certificate by sector and cohort. For students who started at a four-
year institution in 2005, 65% of those in the private nonprofit sector 
had received a bachelor's degree by 2011, compared with 57% of those in 
the public sector and 42% in the for-profit sector. (It is important to 
note however, that the bachelor's degree completion rates for the for-
profit sector have been volatile and should be interpreted with 
caution.) Where the data shows a different picture, however, is the 
awarding of two-year degrees in the for-profit sector. For students who 
started at a two-year institution in 2008, 31% had received a degree or 
certificate within 150% of normal time, ranging from 20% for students 
in the public two-year sector to 62% for students in the for-profit 
sector.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Table 10 shows the six-year completion rates for students who 
started college in fall 2006 by age and enrollment intensity. Unlike 
the Department of Education's IPEDS data on which Table 9 is based, the 
data in Table 10, from the National Student Clearinghouse, allow 
tracking of individual students as they switch institutions. Among 
students who started at a four-year institution at the age of 24 or 
younger and enrolled exclusively full-time, more than 80% of those in 
the public and private nonprofit sectors had completed a degree or 
certificate six years later. Of those who started at a for-profit four-
year institution, 54% had completed a degree or certificate. For older 
students who enrolled exclusively full-time, about 70% of those who 
started in the public and private nonprofit four-year sectors had 
completed a degree or certificate within six years. Sixty-three percent 
of those who started in the for-profit four-year sector had completed a 
degree or certificate within six years, which may be a result of the 
relatively high completion rate of certificates among these students.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Concluding Remarks
    The Post-9/11 GI Bill should allow many veterans to continue their 
education without extensive borrowing. The high correlation between 
levels of educational attainment and employment and earnings makes this 
a vital component of easing re-entry into the civilian world. However, 
like other aspiring college students, veterans are faced with a wide 
array of institutional options and available credential programs. A 
significant problem faced by both veterans and other adults seeking to 
return to school is a lack of adequate guidance in making these 
important choices. This problem has led to proposals to assure that 
these students have access to assessment and counseling from 
disinterested experts before they commit to a program or an 
institution. \3\
---------------------------------------------------------------------------
    \3\ Sandy Baum et al., Rethinking Pell Grants, The College Board, 
April 2013.
---------------------------------------------------------------------------
    As documented in this testimony, students face very difference 
price tags, student aid subsidies, and success probabilities depending 
on the choices they make. Like other adult students, veterans are often 
drawn to the for-profit sector because of the flexible schedules such 
institutions offer.
    The for-profit sector has a relatively high completion rate for 
shorter-term certificates and two-year degrees, especially compared to 
other sectors, including the public two-year sector. However, their 
completion rates for bachelor's degrees are much lower.
    It is important to assure that the federal aid dollars are well-
spent on cost-effective programs. Even with the growing availability of 
on-line data on completion rates and short-term labor market outcomes, 
veterans, even more than most other students, could benefit from 
better, personalized advice about postsecondary choices.
Executive Summary:
The Value of Education for Veterans at Public, Private and For-Profit 
        Colleges and Universities
Prepared by Sandy Baum and Jennifer Ma
Co-authors, Trends in Student Aid and Trends in College Pricing, The 
        College Board
    In 2011-12, the federal government awarded $12.2 billion in grant 
aid through educational assistance programs for veterans. About three 
quarters of the total funding ($9.4 billion) was awarded under the 
Post-9/11 GI Bill. In 2011-12, veterans' benefits accounted for 25% of 
all federal grant aid to postsecondary students and 11% of the grant 
aid students received from all sources.
    Eligible veterans attending a public college or university have all 
of their in-state tuition and fee payments covered under the Post-9/11 
GI Bill. Generally, students attending a private or foreign school are 
covered for up to $18,077.50 in tuition and fees in 2012-13. In 
addition to tuition and fee coverage, eligible veterans receive a 
monthly housing allowance and an annual books and supplies stipend. As 
a result of these benefits, student debt levels are not likely to cause 
the same problems for veterans as for students who are not eligible for 
these subsidies.
    Veterans are different from other students in a variety of ways. 
Most are older than traditional-age college students and like other 
adult students, many are juggling family and work responsibilities 
while they are in school. In 2009-10, 36% of the funding from the Post-
9/11 GI Bill went to students enrolled in for-profit institutions. 
Overall, about 12% of postsecondary enrollments were in this sector.
    It is difficult to predict outcomes for the veterans now 
benefitting from the relatively new federal benefits. Many of these 
students attend for-profit institutions. Because they are typically 
adults with family and work responsibilities, they tend to seek 
shorter-term programs with flexible schedules and specific occupational 
direction. The for-profit sector offers many shorter-term certificate 
programs and has relatively high completion rates for these programs.
    Among students who started at a four-year institution in fall 2006 
at the age of 24 or younger and enrolled exclusively full-time, more 
than 80% of those in the public and private nonprofit sectors had 
completed a degree or certificate six years later. Of those who started 
at a for-profit four-year institution, 54% had completed a degree or 
certificate. For older students who enrolled exclusively full-time, 
about 70% of those who started in the public and private nonprofit 
four-year sectors had completed a degree or certificate within six 
years. Sixty-three percent of those who started in the for-profit four-
year sector had completed a degree or certificate within six years.
    The Post-9/11 GI Bill should allow many veterans to continue their 
education without extensive borrowing. However, like other aspiring 
college students, veterans are faced with a wide array of institutional 
options and available credential programs and would benefit from 
clearer information about the relative performance of institutions with 
respect to completion and better, personalized advice about 
postsecondary choices.

                                 <F-dash>
           Reserve Officers Association of the United States
    The Reserve Officers Association of the United States (ROA) is a 
professional association of commissioned and warrant officers of our 
nation's seven uniformed services and their spouses. ROA was founded in 
1922 during the drawdown years following the end of World War I. It was 
formed as a permanent institution dedicated to National Defense, with a 
goal to teach America about the dangers of unpreparedness. When 
chartered by Congress in 1950, the act established the objective of ROA 
to: ``...support and promote the development and execution of a 
military policy for the United States that will provide adequate 
National Security.''
    The Association's 57,000 members include Reserve and Guard 
Soldiers, Sailors, Marines, Airmen, and Coast Guardsmen who frequently 
serve on Active Duty to meet critical needs of the uniformed services 
and their families. ROA's membership also includes commissioned 
officers from the U.S. Public Health Service and the National Oceanic 
and Atmospheric Administration who often are first responders during 
national disasters and help prepare for homeland security.
    ROA is a member of The Military Coalition where it co-chairs the 
Guard and Reserve Committee. ROA is also a member of the National 
Military/Veterans Alliance and the Associations for America's Defense. 
Overall, ROA works with 75 military, veterans, and family support 
organizations.

    President: Col. Walker Williams, USAF (Ret.) 202-646-7706

    Staff Contacts:

    Executive Director: Major General Andrew ``Drew'' Davis, USMC 
(Ret.) 202-646-7726

    Legislative Director: CAPT Marshall Hanson, USNR (Ret.)202-646-7713

    Air Force Director: Col. Bill Leake, USAFR202-646-7713

    Army and Strategic Defense Education Director: Mr. ``Bob'' Feidler 
202-646-7717

    USNR, USMCR, USCGR: CAPT Marshall Hanson, USNR (Ret.)202-646-7713

    Service Members' Law Center Director: CAPT Sam Wright, JAGC, USN 
(Ret.)202-646-7730

    The Reserve Enlisted Association is an advocate for the enlisted 
men and women of the United States Military Reserve Components in 
support of National Security and Homeland Defense, with emphasis on the 
readiness, training, and quality of life issues affecting their welfare 
and that of their families and survivors. REA is the only joint Reserve 
association representing enlisted reservists - all ranks from all five 
branches of the military.

    Executive Director: CMSgt Lani Burnett, USAF (Ret)202-646-7715

DISCLOSURE OF FEDERAL GRANTS OR CONTRACTS
    The Reserve Officers and Reserve Enlisted Associations are member-
supported organizations. Neither ROA nor REA have received grants, sub-
grants, contracts, or subcontracts from the federal government in the 
past three years. All other activities and services of the associations 
are accomplished free of any direct federal funding.
EXECUTIVE SUMMARY
    Recommended Improvements to education supported by ROA and REA 
follow:

    Education:

    <bullet>  Safeguard and implement a long term plan for sustaining 
the Post 9/11 GI Bill.

    I    Ensure transferability benefits are protected.
    I    Guarantee that any future changes to the program that could 
have negative effects on benefits will grandfather in current 
beneficiaries.

    <bullet>  Although Veteran Affairs call centers have been 
established, there is still a need to properly train and staff to 
adequately counsel student veterans.
    <bullet>  Align the VA's work-study program for students to work as 
guidance officers at their institutions to aid other student veterans, 
to be matched up with institution's academic calendar.
    <bullet>  Exempt earned benefit from GI Bill from being considered 
income in need based aid calculations
    <bullet>  Increase MGIB-Selected Reserve (MGIB-SR) to 47 percent of 
MGIB-Active.
    <bullet>  Move Montgomery GI bill for the Selected Reserve under 
Veteran Affairs jurisdiction.
THE VALUE OF EDUCATION FOR VETERANS
    On behalf of our members, the Reserve Officers and the Reserve 
Enlisted Associations thank the committee for the opportunity to submit 
testimony on veteran and National Guard and Reserve education issues. 
ROA and REA applaud the ongoing efforts by Congress and this committee 
to address education challenges faced by so many veterans and serving 
members.
    Between August 2009 and August 2012, the Post 9/11 GI Bill cost 
$22.4 billion and educated 833,990 veterans, serving members and 
dependents at a cost of $26,858 per student. Is that a worthwhile 
investment? The Reserve Officers Association (ROA) and the Reserve 
Enlisted Association (REA) say it is.
    Education improves a veteran's chance for employment, and many 
returning combat veterans seek a change in the life paths. While Army 
National Guard unemployment numbers are high, many returning veterans 
don't want to go back to the type of work that they did prior to 
deployment. Newly acquired skills and combat experiences can change 
career ambitions. The Post-9/11 GI Bill provides an opportunity for 
veterans to seek new employment paths.
    In 1988, the Joint Economic Committee's Subcommittee on Education 
and Health released a study titled `A Cost-Benefit Analysis of 
Government Investment in Post-Secondary Education Under the World War 
II GI Bill' which calculated the ratio of return on investment to be 
nearly seven-to-one. Every dollar the nation spent educating veterans 
of WWII returned $6.90 in additional national economic output and 
federal tax revenue. It took over 30 years to capture this statistic, 
and similarly, it will be decades before the full economic benefit of 
today's GI Bill will be known. However, we can reasonably expect it to 
be just as immense.
    Nearly eight million veterans of the 16 million that served took 
advantage of the original GI Bill. Veterans made up 49 percent of U.S. 
college enrollment in 1947. The WWII GI Bill proved to be largely self-
funding. Much of the cost of providing the original legislation's 
sweeping benefits were financed by income tax pouring back into federal 
coffers from the multitude of newly educated veterans joining the 
expanding workforce.
    While many economists feared a return of the Great Depression 
following the war with an influx of returning warriors as war industry 
was downsizing, the 1950s proved to be a period of economic growth and 
broad prosperity that is rivaled by few other times in America's 
history. The very face of the United States changed as this newly 
educated population expanded outside the urban centers, creating 
suburban neighborhoods.
    A study published by authors Joshua D. Angrist and Stacey H. Chen 
in the American Economic Journal on the GI Bill effects on Vietnam-era 
Conscripts show that it ``increased schooling with effects of a 
magnitude similar to those reported in studies of the WWII and Korean-
era GI Bills . . . The estimated economic returns to the Vietnam-era GI 
Bill schooling increment are about 7 percent'' in earnings. They found 
``a large veteran effect on public-sector employment.''
    It is still too early to accurately measure the full extent of the 
benefits the country will realize from our newest generation of 
veterans' use of the GI Bill in pursuit of higher education and job 
training. Undoubtedly, those benefits will mirror the vast returns of 
the original post-WWII GI Bill.
    Many of the benefits of the GI Bill can be identified, even if not 
yet quantitatively measured. These benefits fall into two categories: 
benefits to our Armed Services in recruiting young men and women 
interested in both service and education, and benefits to our nation as 
a whole in preparing young people to better contribute to a society 
they have already demonstrated a commitment to serve.
    First, educational incentives are key to recruiting the type of 
individuals which make our military strong. Every Soldier, Sailor, 
Airman, and Marine (whether Active, Reserve, or Guard) plays a crucial 
role in our military's ability to defend this country and our national 
interests. The quality of every individual service member will only 
increase in impact as our military reduces its numbers while still 
facing a complex national security environment. It is vital for our 
military to be able to attract the high talent individuals that are 
capable of carrying such a heavy responsibility - the GI Bill attracts 
that quality of recruit.
    Second, the GI Bill helps veterans transition to civilian life by 
enabling them to gain the education and training required to compete in 
the civilian job market. Many veterans would not otherwise be able to 
afford this education due to the prohibitive costs of tuition; thus GI 
Bill benefits not only prevent our returning veterans from being a 
burden on society, but enable them to contribute and even lead the next 
generation of American workers.
    For those unassisted veterans who experience personal hardship and/
or unemployment, one of the greatest contributory factors to their 
situation is the sense of lacking purpose or direction that was all-
encompassing in the military. Providing veterans with the resources 
they need to pursue personal and professional self-improvement through 
education and job training helps them replace a lost sense of purpose 
and builds a resilience required to overcome their personal challenges. 
It helps them direct their talents and energy toward the laudable goal 
of preparing themselves for civilian employment and continuing to be 
productive members of society.
    According to the Department of Labor, unemployment rate of workers 
with a bachelor's degree is 3.9% versus 7.5% for the overall workforce 
in April 2013. Providing access to these high-tech and advanced 
training skills will be a crucial element of America's future economic 
viability.
    Over this decade, employment in jobs requiring education beyond a 
high school diploma will grow more rapidly than employment in jobs that 
do not; of the 30 fastest growing occupations, more than half require 
postsecondary education, reports the White House. With the average 
earnings of college graduates at a level that is twice as high as that 
of workers with only a high school diploma, higher education is now the 
clearest pathway into the middle class.
    America's ability to maintain its economic preeminence in the 21st 
century will depend on its capacity to produce an educated and skilled 
workforce and the demand for college educated workers will continue to 
grow as America transitions to a knowledge-based economy. Higher 
education will help fill the many job vacancies in the rapidly growing 
information technology and business process management industries.
BACKGROUND ON GOVERNMENT OVERSIGHT
    Many for-profit colleges and universities endeavored to enroll as 
many federal students as possible, often targeting veterans, Active and 
Reserve serving members, and their families as their primary student 
core. Some were not accredited, others misrepresented programs during 
recruitment, and still others misstated financial costs. Post 9/11 and 
Montgomery GI Bill dollars were being squandered without providing the 
needed education to the beneficiaries.
The solutions:
    Public Law (PL) 112-249 (H.R.4057), the Improving Transparency of 
Education Opportunities for Veterans Act of 2012, was enacted January 
10, 2013. It directed the Secretary of Veteran Affairs to develop a 
comprehensive policy to improve outreach and achieve transparency of 
higher education for veterans and members of the Active and Reserve 
Armed Forces.
    It required a centralized mechanism for tracking and publishing 
feedback from students and State Approving Agencies regarding the 
quality of instruction, recruiting practices, and post-graduation 
employment placement, and permitted feedback from military students to 
address concerns and issues.
    Centralized complaint system - The law required ``the Secretaries 
of Defense and Veterans Affairs, in consultation with the Secretary of 
Education and the Director of the Consumer Finance Protection Bureau 
(CFPB), as well as with the Attorney General to create a centralized 
complaint system for students receiving Federal military aid and 
Veterans' educational benefits to register complaints that can be 
tracked and responded to by the Department of Defense (DoD), VA, 
Justice (DOJ), ED, CFPB, and other relevant agencies.''
    Complaints will be stored in the Federal Trade Commission's 
Consumer Sentinel Network database. A pilot of the system was targeted 
to be implemented by Spring of 2013.
    DoD's Voluntary Education Management Information System that 
registers student complaints about schools taking tuition assistance is 
also still being worked on. In addition to complaints, it includes 
gathering, collating, and verifying participation and cost data from 
the Services. Hopefully complaint information will be shared with the 
centralized complaint system.
    Concern: While the complaints system will receive school 
complaints/concerns from all agencies, process the complaints, and 
refer matters for civil or criminal enforcement, it is hoped by ROA and 
REA that the database can be publicized to provide consumer information 
to the military student, and expand institutional transparency.
Executive Order 13607 was signed on April 27, 2012 and called for 
        accountability from educational institutions and vendors 
        concerning recruitment and enrollment of veterans, military 
        personnel, and their families. Institutions that agree with EO 
        13607 provide a benchmark toward education excellence.
    The Executive Order addresses a number of concerns that were shared 
by ROA and REA in earlier Capitol Hill meetings. Its Principles of 
Excellence included:

    <bullet>  Providing students personalized information regarding the 
total cost of the program
    <bullet>  Providing educational plans for all military and veteran 
education beneficiaries
    <bullet>  Ending fraudulent and aggressive recruiting techniques 
and misrepresentation
    <bullet>  Accommodating service members and reservists absent due 
to service requirements, outlining readmission expectations, and 
tuition refunds.
    <bullet>  Designating a point of contact for academic and financial 
advising
    <bullet>  Verifying accreditation of all new programs prior to 
enrolling students
    The Financial Aid Shopping sheet was created that lists disclosure 
fees and financial eligibility. It is a consumer tool that is designed 
to simplify information that prospective students receive about costs 
and financial aid so that they can make informed decisions about which 
postsecondary institution to attend. While not mandatory, it gives a 
recruiting advantage to schools that use it. The end result is a 
simplified model financial aid award letter that clearly lists cost of 
attendance, and separates grants from federal loans and work-study.
    Registering the term ``GI Bill'' as a trademark ensures that all 
potential military students won't be mislead by questionable marketing 
practices.
EVALUATING THE POST 9/11 GI BILL
Measuring Success using the Graduation Rate
    By January 2013, more than $23 billion had been spent to educate 
and train our returning veterans - a significant investment. An 
accounting of those funds to determine what the taxpayer receives for 
that money is appropriate and necessary. To this end, ROA and REA 
applaud the combined effort of the Student Veterans Association, the 
Department of the Veterans Affairs, and the National Student 
Clearinghouse to collect graduation rates of GI Bill beneficiaries.
    Currently, a success is measured when a student completes a degree, 
and does so within a prescribed number of years after entering an 
academically designed program. Not all students follow that path, thus 
graduation rates should not be the only measure of success.
    Returning veterans are often non-traditional students. Measures 
should be developed for non-traditional student performances as well. 
Before graduation the non-traditional student may leave and be re-
admitted to a school several times, affected by priorities from current 
employment and family. Attrition numbers can appear higher if an 
individual is not tracked. The University Professional and Continuing 
Education Association found that 43 percent of institutions don't have 
systems to track the retention of a non-traditional student through 
graduation.
Alternative Approaches to Higher Education
    The original GI bill changed higher education. The GI Bill fueled a 
major expansion of the nation's higher education system and made 
college a cornerstone of middle-class American life.
    Yet, after World War II, 7.8 million veterans trained at colleges, 
trade schools and in business and agriculture training programs. 
Overall, 2.2 million attended college and 5.6 million opted for 
vocational training.
    Those who went to agricultural colleges learned more about the new 
technologies in farming and improved crop output. Other GI's learned 
about electricity and helped install rural electric lines. The program 
made business owners out of young men who just a few years earlier were 
mere boys.
    A four-year college program isn't necessarily the path for all 
veterans. In addition to higher education, veteran students 
participated in on the job training programs, apprenticeships, flight 
schools, non-college degrees and correspondence training. Many want to 
learn the job skills and avoid the electives. Many veterans question 
college requirements that seem to be irrelevant to work.
    Alternative institutions provide a pathway that often permits an 
accelerated education, permitting veteran students the opportunity to 
focus on a specialty area. As long as these schools are accredited and 
meet the Executive Order 13607, they should be considered for Post 9/11 
GI Bill.

                                           VA Education Beneficiaries
                   Number of Participants Trained and Amount Paid per FY by Education Program
----------------------------------------------------------------------------------------------------------------
  Educ. Program        2011 Count           $ Paid           2012 Count           $ Paid        $Average/student
----------------------------------------------------------------------------------------------------------------
    1Post 9/11             555.33              $7.66             616.49              $7.53      $13.79/$12.21
----------------------------------------------------------------------------------------------------------------
       MGIB-AD             185.22              $1.39             114.14              $.881        $7.48/$7.72
----------------------------------------------------------------------------------------------------------------
       MGIB-SR              65.22              $.201              56.34              $.149        $3.09/$2.65
----------------------------------------------------------------------------------------------------------------
         REAP*               27.3              $.095              18.48              $.072        $3.49/$3.95
----------------------------------------------------------------------------------------------------------------
           DEA              90.66              $.462              78.83              $.408        $5.11/$5.18
----------------------------------------------------------------------------------------------------------------
         Total             923.84              $9.80             884.32             $9.038
----------------------------------------------------------------------------------------------------------------
                     in thousands        in billions       in thousands        in billions       in thousands
----------------------------------------------------------------------------------------------------------------
Source: Veterans Benefits Administration briefing, November 2012, FY 2012 numbers are for the first 10 months.
* REAP is for mobilized Reservists that have were enrolled in MGIB-SR before deployment. REAP is an option to
  increase MGIB benefits upon their return home.

MONTGOMERY GI BILL
    The Montgomery GI Bill for Selected Reserve should be updated to 
provide better education support. It pales in comparison to the Post 9/
11 GI Bill. The monthly education stipend of $356 for MGIB for Selected 
Reserve is just 11.5 percent of the monthly tuition and allowance that 
can be as high as $3156 for the GI Bill. As one Reserve Component 
member shared, the monthly stipend barely pays for gas and parking. The 
MGIB-SR monthly stipend should be increased to at least 47 percent of 
the MGIB for Active Duty as was originally intended by Congress.
    To assist in recruiting efforts for the Marine Corps Reserve and 
the other uniformed services, ROA and REA urge Congress to reduce the 
obligation period to qualify for Montgomery ``GI'' Bill-Selected 
Reserve (MGIB-SR) (Section 1606) from six years in the Selected Reserve 
to four years in the Selected Reserve plus four years in the Individual 
Ready Reserve, thereby remaining a mobilization asset for eight years. 
Jurisdiction should be moved under the Veteran Affairs committees.
    Because of funding constraints, no Reserve Component member will be 
guaranteed a full career without some period in a non-pay status. BRAC 
realignments are also restructuring the RC force and reducing available 
paid billets. Whether attached to a volunteer unit or as an individual 
mobilization augmentee, this status represents periods of drilling 
without pay. Currently one loses eligibility when they leave the 
Selected Reserve.
    MGIB-SR eligibility should extend to at least 10 years beyond any 
separation or transfer from a paid billet. Current law permits 14 years 
eligibility if a unit is disbanded between October 1, 2007 through 
September 30, 2014.
    Montgomery GI Bill for Selected Reserve is currently the orphan 
child of education with the House and Senate Armed Services committees 
retaining jurisdiction. The Pentagon continues to testify that MGIB-SR 
is meeting their retention needs, while fewer Reserve Component members 
are using the benefit.
CONCLUSION:
    The cost of education is easily measurable, but the value of it is 
less so. Money invested in the GI Bill is an investment in America's 
future, and will be returned many times over. From it, the country will 
gain a stronger national security, a more robust economy, and a 
brighter future of all Americans.
    These veteran students are the men and women that answered our 
Nation's call once, and will do so again, whether in uniform or out. It 
is from this group of action oriented, public service minded 
individuals that many of our future leaders will emerge.
    We must ensure they have the tools they will need to do so 
effectively, just as the original GI Bill provided a start for three 
presidents, three Supreme Court justices, and hundreds of Senators and 
House Representatives. The education also led to fourteen future Nobel 
laureates and two dozen Pulitzer Prize winners, 238,000 teachers, 
91,000 scientists, and 67,000 doctors.
    ROA and REA appreciate the opportunity to submit testimony. ROA and 
REA look forward to working with the House Veterans' Affairs 
subcommittee on Economic Opportunity, so that we can present solutions 
to these and other issues, and offer our support. If you have any 
questions, please contact us for clarification.

                                 <F-dash>
    National Association of Veterans Program Administrators (NAVPA)
    The National Association of Veterans Program Administrators is 
pleased to provide brief comments regarding the issues to be covered 
during the House Veterans Affairs Committee Economic Opportunity 
Subcommittee June 20, 20123 on ``The Value of Education for Veterans at 
Public, Private and For-Profit Colleges and Universities.'' NAVPA is 
proud to represent over 300 educational institutions serving veterans, 
military members, and their families throughout the nation. Our members 
are those who serve as the first-line contact for these students at our 
institutions.
    The institutional reporting requirements under Public law 112-249 
are met through the US Department of Education and relate to data for 
institutions as a whole and not specifically for the veteran 
population. This data is regularly provided by school offices 
designated for institutional reporting and so we do not expect our 
members to be directly involved in providing it to the federal agencies 
tasked for collection. The transparency and communication requirements 
in the Principles of Excellence for those schools that voluntarily 
pledged to comply are student-facing and will serve to better inform 
student veterans, military members, and their families about education 
policies and practices.
    NAVPA would like to express our appreciation for the dedicated 
phone line at the VA's Education Call Center provided for school 
officials. The ability for our members to quickly and easily access 
information about specific students' eligibility, entitlement, or 
tuition and fee payments has been extremely helpful. PL 112-249, 
Section 3 requires VA to provide dedicated points of contact for school 
certifying officials to assist in ``preparing and submitting such 
reports or certifications.'' While the Call Center SCO Hotline provides 
specific student eligibility and payment information, they are not 
trained nor tasked to provide general information about VA policy or 
certification procedures. SCOs still rely on their VA Education Liaison 
Representatives to provide that information or to answer questions 
about how a specific student situation should be interpreted and 
certified. Unfortunately, ELRs often remain difficult to reach in a 
timely fashion due to their many duties including travel for compliance 
survey visits.
    It is not in our area of expertise to comment on issues related to 
education costs or value and we defer to other organizations more 
suited to respond.

    Dorothy Gillman
    President, NAVPA

                                 <F-dash>
                        Wounded Warrior Project
    Chairman Flores, Ranking Member Takano, and Members of the 
Subcommittee:
    Wounded Warrior Project (WWP) appreciates your holding this hearing 
and welcomes the opportunity to share our perspective on wounded 
warrior-student experiences in higher education.
    With WWP's mission to honor and empower wounded warriors, our 
vision is to foster the most successful, well-adjusted generation of 
veterans in our nation's history. Achieving economic empowerment is 
clearly a critical element to that end, and education is key.
    With the Post 9/11 GI bill, Congress has provided this generation 
of veterans an especially valuable gateway to economic success. Wounded 
warriors are using this benefit; in fact, more than one in three of the 
more than 5,600 wounded warriors who responded to our 2012 survey was 
enrolled in school. \1\ However, as this Committee considers the value 
of post-secondary education for veterans, we urge you to take account 
of the stark challenges some of our wounded warriors face in pursuing 
higher education. In many instances, their injuries - and particularly 
the invisible wounds they have incurred - create obstacles their 
student-peers do not experience or even understand. Some wounded 
warriors simply need modest accommodations and supports. But without 
such supports some are struggling, dropping out, or even failing.
---------------------------------------------------------------------------
    \1\ Franklin, et al., 2012 Wounded Warrior Project Survey Report, 
66 (June 2012). Hereinafter, ``WWP Survey.''
---------------------------------------------------------------------------
    While a growing number of colleges are instituting some type of 
programs and services for veterans, there is great diversity in how 
these institutions serve veterans, and in the scope of the services 
they provide. \2\ VA has begun efforts to improve support services for 
veterans on campus; however, these are limited to a few, mostly large 
institutions. \3\
---------------------------------------------------------------------------
    \2\ Id. at 21, 22; Lesley McBain, et al., ``From Soldier to Student 
II: Assessing Campus Programs for Veterans and Service Members,'' 
American Council on Education, 8 (2012).
    \3\ GAO, ``VA Education Benefits: VA Needs to Improve Program 
Management and Provide More Timely Information to Students,'' 20-22, 
GAO-13-338 (May 2013).
---------------------------------------------------------------------------
               On-Campus Challenges for Wounded Warriors
    Wounded student-warriors report a range of challenges - difficulty 
assimilating on campus and adapting to student-life; insufficient or 
non-existent accommodations to their disabilities; and lack of 
understanding on the part of faculty and fellow students of needs 
arising from PTSD and TBI. Family issues, finances, and health problems 
often compound these school-related stresses. \4\
---------------------------------------------------------------------------
    \4\ Id. at 9-12; Wounded Warrior Project Campus Services Roundtable 
Discussion Event, July 14-15, 2011.
---------------------------------------------------------------------------
    Emblematic of the experience of many, the experiences of a wounded 
student-warrior, who suffers from combat PTSD and migraines, is 
telling:

    While going to school . . . my anxiety and frustration began to 
kick in. Some days with my migraines it was too unbearable to show up 
in the class room . . . My grades continued to drop . . . it was still 
very difficult for me to focus in the classroom. I winded up failing 
classes and having to pay out of pocket costs. It was very frustrating 
for me sometimes to experience public panic attacks and keep up with my 
classmates. \5\
---------------------------------------------------------------------------
    \5\ Wounded Warrior Project Alumnus Kathleen Evans (June 2013).
---------------------------------------------------------------------------
    Studies confirm the experiences our warriors have reported to WWP 
campus-services staff. For example, one study found that the 
``average'' student-veteran has experienced moderate anxiety, 
moderately severe depression, and symptoms of PTSD. \6\ Specifically, 
nearly 46 percent of the sample experienced ``significant symptoms of 
PTSD,'' \7\ almost 35 percent suffered from severe anxiety, and nearly 
24 percent had severe depression. \8\ Another study found that most of 
the student veteran survey and focus group participants encountered 
substantial transition challenges while adapting to life on campus. \9\ 
Among these students, one of the most frequently discussed challenges 
was coping with service-related disabilities and PTSD. \10\ Overall, 
about 68 percent of survey respondents rated the extent to which they 
had to cope with such disabilities, and of those, 55 percent reported 
it as a moderate or major challenge. \11\ Participants cited such 
difficulties as being unable to move quickly from one class to the next 
across campus, hyper-alertness and anxiety caused by PTSD, difficulty 
concentrating due to TBI, and difficulty relating to other students. 
\12\
---------------------------------------------------------------------------
    \6\ David Rudd, Jeffery Goulding, and Craig Bryan, ``Student 
Veterans: A National Survey Exploring Psychological Symptoms and 
Suicide Risk.'' 42(5) Professional Psychology: Research and Practice, 
354, 357-358 (2011).
    \7\ Id. These exceed the cutoff score for PTSD in accordance with 
the PCL-M score for OIF/OEF veterans, Dept. of Veterans' Affairs and 
the National Center for PTSD Fact Sheet, ``Using the PTSD Checklist,'' 
available at: http://www.ptsd.va.gov/professional/pages/assessments/
assessment-pdf/pcl-handout.pdf.
    \8\ Rudd et al., supra note 6, at 357-358.
    \9\ Jennifer Steele, Nicholas Salcedo, and James Coley, ``Service 
Members in School: Military Veterans' Experiences Using the Post-9/11 
GI Bill and Pursuing Postsecondary Education,'' RAND Corporation 
(2011).
    \10\ Id. at 36.
    \11\ Id. at 39.
    \12\ Id.
---------------------------------------------------------------------------
    Wounded warriors entering schools through the assistance of the 
Post-9/11 GI Bill and Vocational Rehabilitation and Employment (VR&E) 
are not simply grappling with adjustment to the demands of higher 
education. Many are also having difficulties relating to their non-
veteran peers. Staff and faculty are typically unaware of their 
challenges with PTSD, TBI, and other often-severe disabilities. One 
student-warrior cited returning to college as ``perhaps the hardest 
thing I have done.'' \13\ Another student-warrior added, ``The 
transition to an academic institution is delicate because of the close 
interaction with students and faculty. The student veteran cannot hide 
and is exposed in the class room. They are often misunderstood if a 
[PTSD] flare-up occurs.'' \14\
---------------------------------------------------------------------------
    \13\ WWP Survey, at 107.
    \14\ Id.
---------------------------------------------------------------------------
    With these issues, wounded warriors face a steeper climb than their 
fellow students. Reliable data on veteran graduation rates from 
traditional non-profit schools are elusive. \15\ As existing studies 
from VA and the Department of Education on outcomes of student veterans 
generally don't capture Post 9/11 GI Bill beneficiaries, \16\ it has 
been very difficult to confirm statements that graduation rates are low 
and drop-out rates are high. VA's reported agreement with the National 
Student Clearinghouse to obtain targeted completion data for veterans 
who have attended college under the GI Bill, as well as the prospect of 
further data from schools that voluntarily report graduation and 
program completion rates, offer some hope for greater clarity on these 
important questions. \17\ Recent statements by VA officials that they 
have not yet determined how they will use this new data or if they 
would publicly release it concern us. We urge the Subcommittee to 
pursue these issues - to make certain VA is collecting the most 
appropriate data, and to press the Department to improve management of 
education benefit programs, assist veterans in making informed academic 
choices, and facilitate their academic success. \18\
---------------------------------------------------------------------------
    \15\ David Wallis, ``Coming Home From War to Hit the Books,'' The 
New York Times (Feb. 29, 2012).
    \16\ Paul Fain, ``Colleges Fail to Track Performance of Student 
Veterans, Survey Finds,'' Inside Higher Ed. (Dec. 4, 2012) available 
at: http://www.insidehighered.com/news/2012/12/04/colleges-fail-track-
performance-student-veterans-survey-finds; GAO, ``VA Education 
Benefits,'' supra note 3, at 24.
    \17\ Paul Fain, ``Do Veterans Graduate?'' Inside Higher Ed. (Jan. 
8, 2013), available at: http://www.insidehighered.com/news/2013/01/08/
new-effort-collect-student-veterans-graduation-rates; See also Remarks 
by Secretary Eric Shinseki, Student Veterans of America 5th Annual 
Convention, (January 4, 2013), available at: http://www.va.gov/opa/
speeches/2013/1--04--13.asp.
    \18\ GAO, ``VA Education Benefits,'' supra note 3, at 29-30.
---------------------------------------------------------------------------
                Lack of Wounded Warrior Support Services
    We further urge the Subcommittee to address wounded warriors' need 
for support to foster educational success. The issue has several 
facets. To illustrate, some wounded warriors do not understand how 
their injuries affect their learning, and may be unaware what 
accommodations they need (and might be able to receive) to be 
successful. \19\ Conversely, many colleges and other institutions of 
higher education appear not to recognize the unique transitional 
challenges facing matriculating wounded veterans. While a recent report 
found that a growing number of colleges have instituted some type of 
programs and services for veterans - 62 percent in 2012 up from 57 
percent in 2009 - the report found great diversity in how these 
institutions serve veterans and in the variety of these programs and 
services. \20\
---------------------------------------------------------------------------
    \19\ American Council on Education, ``Accommodating Student 
Veterans with Traumatic Brain Injury and Post-traumatic Stress 
Disorder: Tips for Faculty and Staff,'' at 5 available at http://
www.acenet.edu/news-room/Documents/Accommodating-Student-Veterans-with-
Traumatic-Brain-Injury-and-Post-Traumatic-Stress-Disorder.pdf.
    \20\ Lesley McBain et al., ``From Soldier to Student II: Assessing 
Campus Programs for Veterans and Service Members.'' American Council on 
Education 8 (2012) available at http://www.acenet.edu/news-room/Pages/
From-Soldier-to-Student-II.aspx.
---------------------------------------------------------------------------
    According to an American Council on Education report, only 36 
percent of postsecondary institutions with student-veterans have an 
established department to assist these students and their families; 
approximately 36 percent of these institutions have transition 
assistance services available; less than 40 percent employ qualified 
staff trained to assist with veterans' needs (or employ a single 
individual who is expected to meet all these needs); nearly 36 percent 
of college and universities with student-veterans have trained 
counseling staff to assist students with brain injuries; and almost 42 
percent of institutions with student-veterans have support groups or 
mentoring programs available to active duty and veteran students. \21\ 
The same report cited the presence of staff and faculty with some level 
of training in meeting the needs of military and veteran students, 
including basic familiarity with the military culture, as a critical 
factor in the success of student servicemembers and veterans. \22\ The 
fact that schools are generally building these support services without 
the guidance and assistance from VA - which could play an important 
role by disseminating best practices - is especially troubling. \23\
---------------------------------------------------------------------------
    \21\ Id. at 49-53.
    \22\ Id. at 48.
    \23\ GAO, ``VA Education Benefits,'' supra note 3, at 22-23.
---------------------------------------------------------------------------
    Evidence that wounded warrior-students are not thriving 
academically highlights the importance of fostering efforts to provide 
them needed accommodations. Some institutions of higher education have 
offered meaningful assistance, including providing accessible on-campus 
mental health staff trained in military culture, counseling and 
tutoring services for warrior-students; full-time staff to assist 
student-warriors; training for faculty on TBI and PTSD; and peer-
support services. While model programs exist, they represent the 
exception, not the rule. This Subcommittee can play an important role 
in promoting efforts to expand the establishment of these models.
         Efforts to Provide Student-Veterans On-Campus Supports
    While some schools have recognized the value of such programs, 
others may simply not have sufficient resources to mount such new 
programs. Given the vulnerability associated with warriors' transition 
into higher education and the very substantial federal investment 
already being made under Post 9/11 GI Bill, it is timely to consider 
steps to foster the development of campus programs that address the 
very specific needs of wounded warriors. Past generations of veterans 
have benefitted from congressional support aimed at fostering success 
in post-secondary education.
    In 1972, for example, Congress established a program to encourage 
colleges and universities to serve the special needs of Vietnam 
veterans who were using the Vietnam Era GI Bill to enroll in school. 
\24\ That initiative, the Veterans Cost-of-Instruction Program (VCIP), 
was a mandatory grant program, targeted particularly at service-
connected disabled veterans and administered through the Department of 
Health, Education and Welfare (HEW). VCIP grantees were required ``to 
maintain a full-time office of veterans' affairs with adequate support 
services . . . in the areas of outreach, recruitment, special education 
programs, and counseling.'' \25\ With the numbers of veterans enrolling 
in higher education declining in the 1980's, Congress allowed VCIP to 
expire and established the Veterans Education Outreach Program (VEOP). 
\26\ The VEOP program provided formula grants to institutions based on 
the number of enrolled veterans receiving veterans' educational 
benefits or vocational rehabilitation services. \27\ Institutions that 
received VEOP grants were required to maintain a veterans' affairs 
office and provide outreach programs, counseling and tutorial services, 
and special education programs for veterans, with an emphasis on 
programs for the disabled and educationally disadvantaged. \28\
---------------------------------------------------------------------------
    \24\ Dept. of Ed. Archived Information Biennial Report FY 93-94 
Chapter 512, ``Veterans Education Outreach Program,'' available at: 
http://www2.ed.gov/pubs/Biennial/512.html; H.R. 996-Veterans Education 
Outreach Program: Hearing Before the Subcomm. on Education, Training 
and Employment of the H. Comm. on Veterans' Affairs, 103rd Cong. 26 
(Mar. 25, 1993)(Opening statement of Chairman G.V. (Sonny) Montgomery).
    \25\ Dept. of Health, Education, and Welfare, Departmental Grant 
Appeals Board Decision, Docket No. 78-11 (June 19, 1979) citing 45 
C.F.R. Sec.  189.12 (1974). Under the program, HEW provided payments to 
educational institutions based on increased veteran enrollments by 
required percentages and establishment of special education programs 
for veterans, that is, specifically designed remedial, tutorial, and 
motivational programs designed to promote postsecondary success. 
Federal regulations governing the program also set criteria for 
evaluating the adequacy of such special educational programs. Id. 
citing 45 C.F.R. Sec. Sec.  189.11(d), 189.16(d) (1974).
    \26\ H.R. 996-Veterans Education Outreach Program: Hearing before 
the Subcommittee on Education, Training and Employment of the H. Comm. 
on Veterans' Affairs, 103rd Cong. 26 (1993).
    \27\ Dept. of Ed., supra note 24.
    \28\ Id. The program was not reauthorized and VEOP grant awards 
ended in 1992.
---------------------------------------------------------------------------
    As recently as 2010, the Department of Education initiated a grant 
program to encourage institutions of higher education to develop model 
programs to support veteran student success in postsecondary education. 
\29\ The Fund for the Improvement of Postsecondary Education (FIPSE) 
program, ``Centers of Excellence for Veteran Student Success'' granted 
awards to fifteen institutions nationally over a three year period. 
\30\ Grant awards were made to institutions that were required to 
provide a single point of contact to coordinate comprehensive support 
services for veteran students; establish a veteran student support team 
(including representatives from such campus offices as financial aid, 
academic advising, student health, mental health counseling, career 
advising, and disability support); monitor the rates of enrollment, 
persistence, and completion; and develop a plan to sustain the program 
after the grant period. \31\ While performance data on these awards are 
forthcoming, they should provide valuable insights on assessing success 
of veteran students on campus (many of whom also identify as wounded 
warriors).
---------------------------------------------------------------------------
    \29\ Dept. of Ed. Office of Postsecondary Education; Overview 
Information Centers of Excellence for Veteran Student Success; Notice 
Inviting Applications for New Awards for FY 2010, 75 Fed. Reg. page 
37776 (June 30, 2010).
    \30\ Dept. of Ed., Office of Postsecondary Education, Centers of 
Excellence for Veteran Student Success, FY 2010 Awards, available at: 
http://www2.ed.gov/programs/cevss/cevssabstracts2010.pdf.
    \31\ 75 Fed. Reg. page 37776, supra note 29. According to the FIPSE 
Program Coordinator, these grants, made available as one-time 
specially-authorized funding, would be up for renewal in 2013, subject 
to the availability of funding. Telephone interview, November 6, 2012.
---------------------------------------------------------------------------
    While WWP is encouraged with a new VA proposal currently in 
development, which would provide grants to selected large schools, or 
those with large veteran enrollments, to demonstrate and share results 
of student veteran support services, the lack of scope and timeframe 
for the initiative, coupled with it moving slowly through the approval 
process, concerns us. \32\ Additionally, we agree with the Government 
Accountability Office and question whether it would even impact smaller 
institutions, with less financial resources to mount their own support 
services or have dedicated staff positions or offices to assist student 
veterans. \33\ These smaller schools collectively serve a large number 
of student veterans. \34\
---------------------------------------------------------------------------
    \32\ GAO, ``VA Education Benefits,'' supra note 3, at 23.
    \33\ Id.
    \34\ Id.
---------------------------------------------------------------------------
    As earlier Congresses recognized the challenges wounded warriors 
faced in making the transition from combat zone to campus, the 
Subcommittee can play a critical role today in helping this generation 
of wounded student-warriors make that transition successfully. The 
objective would be to enable student-warriors to thrive - not struggle 
- on campus. Congress and the American people are, of course, already 
investing in the future of this generation of veterans through the 
Post-9/11 GI Bill. But we owe it to those wounded in war to make a 
small additional investment in their academic success. Some 
institutions have paved the way by taking steps to support student-
veterans. But more must be done. Federal funding can be invaluable in 
helping colleges and universities to become ``centers of excellence'' 
in supporting America's heroes on campus. In establishing model 
programs, and thereby attracting student-veterans, such institutions 
will effectively raise the bar - making it vital for many more 
institutions of higher education to invest in campus services for 
student veterans and student warriors.
       Fostering Informed Decision-making on Educational Options:
    Achieving academic success can also be a matter of individual 
warriors finding their ``right'' school and program. With the country's 
important investment in the education of this generation of veterans, 
\35\ it is incumbent on government and institutions of higher education 
to provide those veterans as much information as possible to assess 
their education options. With the additional challenges many face in 
returning to school, wounded warriors, in particular, need to know 
whether a school has credible support services for them and whether 
other warriors have had a track-record of academic success. VA's 
current efforts to develop and collect outcome information on student 
veterans, including coordinating with DoD and the Department of 
Education and the development of a long-term study, \36\ and its 
agreement with the National Student Clearinghouse to obtain targeted 
outcome data for veterans who have attended college under the GI Bill, 
could ultimately be very helpful to prospective warrior-students as 
they weigh educational options and choices. As mentioned above, WWP is 
troubled that VA officials have not yet determined how they will use 
this important new data and whether they would publicly release it, 
potentially missing a critical opportunity to assist veterans in making 
informed academic choices and facilitate their academic success. \37\
---------------------------------------------------------------------------
    \35\ VA anticipates serving over 590,000 veterans using their VR&E 
and Post 9/11 GI Bill benefits in 2013, spending over $10 billion 
providing these benefits. Dept. of Veterans' Affairs Annual Budget 
Submission (FY 2013), Vol. III, Benefits and Burial Programs (February 
2012), 2B-8 and 2B-21.
    \36\ VA has initiated several efforts to develop and collect 
outcome data on student veterans, including coordinating with DoD and 
the Department of Education to develop common measures to permit 
comparisons across various education programs and types of institutions 
as required by Exec. Order 13607 ``Establishing Principles of 
Excellence for Educational Institutions Serving Service Members, 
Veterans, Spouses, and Other Family Members,'' as well as developing a 
long-term study to track student veteran outcomes over the next 20 
years. GAO, ``VA Education Benefits,'' supra note 3, at 27-8.
    \37\ Id. at 29-30.
---------------------------------------------------------------------------
    Prior to adjournment, the 112th Congress passed legislation aimed 
at helping veterans make more informed choices in pursuing higher 
education. \38\ That measure requires the VA Secretary to develop a 
comprehensive policy to improve the transparency and dissemination of 
education information to veterans, to include establishing a 
centralized mechanism for tracking and publishing student feedback on 
quality of instruction, recruiting, and post-graduation employment and 
information on postsecondary institutions' enrollment, retention, and 
graduation rates. In WWP's view, however, the measure falls short, as 
it fails to address information of greatest significance to wounded 
warriors. For example, while the measure requires publication of 
retention and graduation rates as well as information on the 
availability of support services, these requirements are not specific 
to veterans and servicemembers, but to the overall student population. 
A wounded warrior who wants to know how supportive a college-community 
is to warrior-specific needs; whether that institution has veteran-
specific programs and what those are; or whether other wounded warriors 
have had a track record of academic success at that institution would 
gain little or no insight under the measure. WWP believes it is 
important to go further so that wounded warriors can access the kind of 
information they need to make well-informed decisions on their 
educational options. Wounded warriors considering education as a 
pathway to employment would benefit greatly from the publication of 
reliable school-specific information on availability and types of 
academic support, disability, and career counseling and job placement 
services; specific programs and services principally or exclusively 
targeted to assist student-veterans, particularly those with 
disabilities or disabilities which impair learning; and designated 
point(s) of contact for academic, financial, disability, benefits, and 
veterans support services.
---------------------------------------------------------------------------
    \38\ ``Improving Transparency of Education Opportunities for 
Veterans Act of 2012,'' Public Law 112-249 (Jan. 10, 2013).
---------------------------------------------------------------------------
    Recognizing the difficult transition many wounded warriors are 
making, we also urge the Subcommittee to provide warriors every 
opportunity to receive vocational and educational counseling at 
multiple points in their transition and after. Currently, the VA is 
authorized to provide educational and vocational counseling to 
individuals eligible for education benefits regardless of disability. 
\39\ However, veterans' awareness of this counseling option is very 
low, and it is only available upon request. \40\ While VR&E provides 
such counseling, the Post 9/11 GI Bill does not, and thus, wounded 
warriors who opt for the GI Bill are surrendering - intentionally or 
not - beneficial educational-counseling services. Such counseling could 
be invaluable to wounded warriors going back to school, to include 
assessing whether the wounded warrior is academically and emotionally 
ready to engage in post-secondary education. Legislation passed at the 
end of the 112th session requiring the Secretary of the VA to conduct 
more effective and efficient outreach to make veterans more aware of 
this benefit is an important first step. \41\ But we urge the 
Subcommittee to go further and make this provision an ``opt-out'' 
rather than an ``opt-in'' benefit.
---------------------------------------------------------------------------
    \39\ 38 U.S.C. Sec.  3697A.
    \40\ U.S. Government Accountability Office, ``VA Education 
Benefits: Actions Taken, but Outreach and Oversight Could be 
Improved,'' GAO-11-256, 13 (2011).
    \41\ Public Law 112-249, supra note 38.
---------------------------------------------------------------------------
    Providing these modest, but important services - while offering 
schools incentives to create model programs to support wounded warriors 
on campus - would not only assist them in making informed decisions 
about their education, but further the promise underlying these 
educational benefits and improve the likelihood of warriors' achieving 
success in higher education and beyond.
                          For-Profit Colleges
    As this Subcommittee reviews the value of education for veterans, 
we urge you to look hard at circumstances where the costs of higher 
education may be outweighing the benefits. The for-profit college 
industry is one such area for scrutiny. As documented in a widely 
disseminated 2012 report by the Senate Committee on Health Education 
Labor and Pensions (HELP Committee), for-profit colleges account for 13 
percent of students in higher education in this country, but receive 38 
percent of all Post-9/11 GI Bill funds, and yet represent 47 percent of 
student loan defaults. \42\ The Committee found that taxpayers spend 
more than twice as much to train veterans at for-profit colleges than 
at public colleges, and that some 86% of 2009 revenue at publicly 
traded for-profit education companies came from taxpayer dollars, while 
marketing alone represented more than 23% of spending at those 
institutions that year, with profits approaching 20%. \43\ There are 
for-profit schools that are seen as having solid credentials and a 
history of success for their graduates. Overall, however, studies have 
questioned the relative value of a degree or certificate from for-
profit institutions, with one such study finding higher rates of 
unemployment and lower earnings among students who attend for-profit 
colleges than comparable students from other types of colleges, \44\ 
and another finding that for students in associate degree programs 
there are large benefits from obtaining certificates and degrees from 
public and not-for-profits institutions, but not from for-profits. \45\ 
Of particular significance to WWP, for-profit schools often lack the 
academic and counseling support services that many wounded warriors 
need to thrive in higher education.
---------------------------------------------------------------------------
    \42\ S. Comm. on Health, Education, Labor, and Pensions, ``Senator 
Harkin's Findings Regarding Veterans and For?Profit Colleges,'' 5, 16 
available at: http://www.harkin.senate.gov/documents/pdf/
4f9ac62292704.pdf (2012).
    \43\ Id. at 4, 10-11.
    \44\ Center for Analysis of Postsecondary Education and Employment, 
``The For-Profit Postsecondary School Sector: Nimble Critters or Agile 
Predators?'' (February 2012).
    \45\ The National Bureau of Economic Research, ``Evaluating Student 
Outcomes at For-Profit Colleges,'' NBER Working Paper No. 18201 (June 
2012).
---------------------------------------------------------------------------
    For-profit colleges have a strong incentive to enroll 
servicemembers and veterans because the so-called 90/10 rule - which 
requires a for-profit college to obtain at least 10 percent of its 
revenue from Title IV education funds - where GI Bill (and Tuition 
Assistance) funds count toward that 10 percent. With this incentive to 
enroll veterans and servicemembers, the industry has employed 
aggressive and sometimes deceptive, exploitative recruiting practices. 
As the HELP Committee report found, for-profit colleges employ many 
recruiters, but very few placement staff. \46\
---------------------------------------------------------------------------
    \46\ S. Comm. on Health, Education, Labor, and Pensions, ``Senator 
Harkin's Findings Regarding Veterans and For?Profit Colleges,'' at 14.
---------------------------------------------------------------------------
    Against this backdrop and acting administratively, the 
Administration last year established a set of principles for 
educational institutions that serve servicemembers, veterans, and their 
family members to rein in deceptive practices and promote better 
information and academic and financial advising. \47\ That Executive 
Order is a good first step, but we urge this Subcommittee to review its 
enforcement as well as opportunities to strengthen it.
---------------------------------------------------------------------------
    \47\ Exec. Order 13607, ``Establishing Principles of Excellence for 
Educational Institutions Serving Service Members, Veterans, Spouses, 
and Other Family Members,'' (April 2012).
---------------------------------------------------------------------------
    We urge the Subcommittee as well to support efforts to avert 
warriors' taking on substantial debt to pursue for-profit education 
that carries high risk for default or of failing to prepare students to 
earn a livelihood. Our own most recent survey of wounded warriors found 
that 43% of respondents were carrying more than $20,000 in personal 
debt (excluding mortgage debt); 35.7% of those respondents listed 
education expenses as comprising part of that debt, and 38% of 
respondents said that their financial situation was worse off than the 
year before. \48\
---------------------------------------------------------------------------
    \48\ WWP Survey, at 78-79, 83.
---------------------------------------------------------------------------
    For-Profit schools have a long history - dating back to the World 
War II GI Bill - of taking advantage of veterans. \49\ GI Bill money 
(and additional student loans encouraged by the schools) for programs 
that don't provide skills that employers recognize or credits that 
other educational institutions will accept will not foster the well-
adjusted, economically successful generation of wounded warriors that 
WWP pursues and in which our nation is investing.
---------------------------------------------------------------------------
    \49\ See Senate Report accompanying the Vietnam-era Veterans 
Readjustment Assistance Act of 1976 detailing problems in that 
Education Assistance program.
---------------------------------------------------------------------------
    Thank you for consideration of WWP's views on this important 
matter.

                                 <all>

</pre></body></html>
